<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                         TUESDAY, MAY 20, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:56 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Feinstein, Murray, 
Stevens, Cochran, Specter, Domenici, and Bond.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. ROBERT M. GATES, SECRETARY
ACCOMPANIED BY TINA JONAS, UNDER SECRETARY OF DEFENSE, COMPTROLLER

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I should point out that this subcommittee 
will not tolerate any demonstrations. We expect all of us here 
to conduct ourselves like ladies and gentlemen.
    I have been advised that the Secretary has an important 
meeting at the White House. So we will have to set some time 
limitations. May I suggest 10 minutes?
    Today the subcommittee is pleased to welcome the Honorable 
Robert Gates, Secretary of Defense, and Admiral Mike Mullen, 
the Chairman of the Joint Chiefs of Staff, to testify on the 
administration's budget request for fiscal year 2009.
    Gentlemen, the budget before this subcommittee requests 
$492 billion for the coming year. Of course, this amount 
includes neither funding for military construction nor an 
additional amount for the cost of wars in Iraq and Afghanistan. 
In total, funding for the Department of Defense is at 
historically high levels, unmatched since World War II.
    Mr. Secretary, we have all been impressed with your passion 
and commitment to ensure that our military men and women are 
receiving the best equipment, medical treatment, housing, and 
support. Over the past several months, we have also noted your 
statements in favor of enhancing diplomatic efforts in the 
fight on the war on terror and calling for improvements in ISR 
and innovation in military planning. It has been the most 
impressive performance.
    On this subcommittee, I believe we have followed your lead. 
Congress provided an unprecedented $17 billion budget increase 
in response to your call for MRAPs. In the fiscal year 2008 
supplemental, which is now pending before the Senate, the 
subcommittee has increased resources for healthcare by more 
than $900 million, added $500 million to repair barracks. We 
have recommended increases for ISR capabilities, and done so by 
allowing for the lease of existing assets which can be deployed 
almost immediately to the theater rather than in 14 or 28 
months as traditional procurement would require.
    But, Mr. Secretary, with all due respect, when we review 
your budget request, we find that it is filled with maintaining 
the status quo. As this subcommittee has noted in recent years, 
again this year we find that in the administration's budget 
request, stable production programs are being curtailed or even 
terminated in favor of advancing new technology such as in our 
space systems and shipbuilding, even in Army ground equipment, 
all to encounter some notional future conventional threat which 
is difficult to see looming on the horizon.
    Your healthcare budget assumes $1.2 billion in savings, 
which it is clear will not materialize, leaving a hole that the 
Congress would have to fill.
    Your budget assumes risk in depot maintenance by only 
requesting funding for 75 percent of the normal requirement.
    Mr. Secretary and Admiral Mullen, as we discuss these 
matters today, we will be seeking your candid assessments on 
how this budget can be improved.
    Gentlemen, we commend you for your leadership in managing 
this enormous Department in very challenging times. And we very 
much appreciate your service and look forward to your 
testimony. However, before you proceed, I would like to defer 
to the vice chairman of this subcommittee for any comments he 
wishes to make. Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman.
    Secretary Gates and Admiral Mullen, we thank you for your 
service and for your appearance here today.
    I do not disagree with anything that the chairman has said. 
I do believe we are totally in agreement. We have a difficult 
task of balancing the military's competing requirements with 
the amount of funds available. We do look forward to your 
comments today and look forward to the opportunity to work with 
you to meet the pressing needs of the military. It is not going 
to be an easy job, as we all know, and the procedural 
parliamentary situation here is in such disarray, God knows 
where we will come out.
    Thank you.
    Senator Inouye. Thank you very much.
    Senator Specter.

                   STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral Mullen and Ms. Jonas, I join my 
colleagues in welcoming you here. You have a very tough job.
    In the few moments that I am going to have today, I would 
like to focus on the future and most specifically on Iran and 
on the critical issue of talks with Iran and whether talking 
with Iran is really appeasement. We have seen our talks with 
North Korea bear fruition. We have seen the talks with Libya, 
Gaddafi, bear fruition. Gaddafi, arguably the worst terrorist 
in the history of the world, in very tough competition with Pan 
Am 103 and the bombing of the Berlin discotheque, and yet he 
has given up his nuclear weapons and has re-entered the family 
of nations.
    And we have seen the President's comment about appeasement 
with terrorists, but if we do not have dialogue with Iran, at 
least in one man's opinion, we are missing a great opportunity 
to avoid a future conflict. These are views which I have held 
over a long period of time from my service on this subcommittee 
and chairing the Intelligence Committee and the Foreign 
Operations Subcommittee, extensive floor statements, and an 
article in the Washington Quarterly in December 2006-07.
    And I think that your statements on this issue in 
encouraging talks have been extremely productive, and I think 
we really need to focus on that issue.
    Very briefly, I will ask you about the situation with 
Yemen. I am concerned about what is happening with Yemen after 
the killing of 17 sailors on the Cole. Al Qaeda, the worst 
terrorist organization in the world, has been implicated in the 
attack. Verdicts have been handed down. Yet there are troubling 
reports that Yemen has let the individuals convicted in the 
attack go free. It is my understanding that the Department of 
Defense provided Yemen with $31 million in section 1206 aid in 
fiscal years 2006 and 2007, and that the fiscal year 2008 
request will be made shortly. I would like to explore with you 
the reasons for that and whether we could not have some 
leverage to see to it that those terrorists are brought to 
justice or at least not to finance those who were accomplices 
after the fact.
    Thank you very much, Mr. Chairman.
    Senator Inouye. Senator Feinstein, would you care to make a 
statement?
    Senator Feinstein. Thank you very much. I have no opening 
statement.
    Senator Inouye. Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    We welcome Secretary Gates, Admiral Mullen, and I will have 
some questions for you on some TACAIR acquisition things that I 
think are looming large for the military.
    But first, I commend you on your far-sightedness in the 
development not only of the counter-insurgency strategy with 
General Petraeus, but what is a broader concept I believe of 
the non-kinetic force or smart power that is necessary to win 
the long war against those radical terrorists who would attack 
us. My view is the Department of Defense, particularly the 
Army, is way out ahead of anybody else in knowing how to work 
with people in less developed countries who are subject to the 
appeals of terrorists and also to get out the strategic 
information or the campaigns to explain what we are doing.
    I believe at least your staff has had an opportunity to 
meet with LibForAll, the group of moderate Muslims, led by 
former Indonesian President Gus Dur--or Abdurrahman Wahid is 
his real name--that are reaching out to Muslims throughout the 
world, carrying the message of moderate Islam. I would like to 
maybe talk with you in person later on about it. But I commend 
you because I think this is an essential part of the long-term 
battle that you as Secretary of Defense have recognized better 
than anyone else. And I thank you for it and I want to learn 
more about it.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Yes. Mr. Chairman, I am more interested in 
hearing from Secretary Gates.
    I would note that it is nice to see him without his arm in 
a sling and that he made it very clear that it did not come 
from arm twisting here on the Hill.
    I am going to want to talk with him about a number of 
things when we get going, our National Guard, of course, our 
homeland defense, how we respond to disasters. The press was 
talking about the high probability of severe earthquakes out in 
our western part of our country. Obviously, the Guard would be 
called out there. We will go into that, the shortfalls in the 
Guard, equipment, and so on.
    I do want to talk about the Secretary's speech last week in 
which he said we are going to have to engage Iran, including 
through low-level government-to-government talks. I tend to 
agree with him. I remember during the height of the cold war 
when we could have bellicose statements from the head of the 
Soviet Union and the head of the United States, and at the same 
time, we had people going back and forth having discussions and 
how well that worked. We even did, as the Secretary knows, even 
during the height of the Cuban missile crisis. So there are a 
lot of distasteful people we have to talk with around the 
world, but it is realpolitik.
    Mostly, I am pleased that Secretary Gates was willing, at 
what was both personal and financial sacrifice, to come and 
take the position that he has, giving up a dream position when 
he did. I applaud him for it.
    That is all, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I will defer. I do have some 
questions for the Secretary and for Admiral Mullen, but let me 
defer an opening statement so that we can hear the witnesses.
    Senator Inouye. Thank you very much.
    And now may I call upon the Honorable Robert Gates, 
Secretary of Defense.

                  OPENING STATEMENT OF SECRETARY GATES

    Secretary Gates. Thank you, Mr. Chairman. Mr. Chairman, 
members of the subcommittee, it is a pleasure to be here for my 
second and last budget testimony before this subcommittee. 
First, let me thank you for your continued support of our 
military these many years, and I appreciate the opportunity to 
discuss the President's fiscal year 2009 budget request.
    Before getting into the components of the request, I 
thought it might be useful briefly to consider it in the light 
of the current strategic landscape, a landscape still being 
shaped by forces unleashed by the end of the cold war two 
decades ago.
    In recent years, old hatreds and conflicts have combined 
with new threats and forces of instability, challenges made 
more dangerous and prolific by modern technology, among them 
terrorism, extremism, and violent jihadism, ethnic, tribal and 
sectarian conflict, proliferation of dangerous weapons and 
materials, failed and failing states, nations discontented with 
their role in the international order, and rising and resurgent 
powers whose future paths are uncertain.
    In light of this strategic environment, we must make the 
choices and investments necessary to protect the security, 
prosperity, and freedom of the American people. The investment 
being presented today in the base defense budget is $515.4 
billion, or about 4 percent of our gross domestic product (GDP) 
when combined with war costs. This compares to spending levels 
of about 14 percent of GDP during the Korean War and 9 percent 
during Vietnam. Our fiscal year 2009 request is a 7.5 percent 
increase, or $35.9 billion, over last year's enacted level. 
When accounting for inflation, this translates into a real 
increase of about 5.5 percent.
    The difference consists of four main categories which are 
outlined in more detail in my submitted statement. Overall, the 
budget includes $183.8 billion for overall strategic 
modernization, including $104 billion for procurement to 
sustain our Nation's technological advantage over current and 
future adversaries; $158.3 billion for operations, readiness, 
and support to maintain a skilled and agile fighting force; 
$149.4 billion to enhance quality of life by providing pay, 
benefits, healthcare, and other services earned by our all-
volunteer force; and $20.5 billion to increase ground 
capabilities by growing the Army and Marine Corps.
    This budget includes new funding for critical ongoing 
initiatives such as global train and equip to build the 
security capacity of our partner nations, security and 
stabilization assistance, foreign language capabilities, and 
the new Africa Command.
    In summary, this request provides the resources needed to 
respond to current threats while preparing for a range of 
conventional and irregular challenges that our Nation may face 
in the years ahead.
    In addition to the $515.4 billion base budget, the fiscal 
year 2009 request also includes $70 billion in emergency bridge 
funding.
    There is, however, a more immediate concern. Congress has 
yet to pass the pending $102.5 billion global war on terror 
request for fiscal year 2008, and as a result, the Defense 
Department is currently using fourth quarter funds from the 
base budget to cover current war costs. Shortly, two critical 
accounts will run dry. First, Army military personnel. After 
June 15, we will run out of funds in this account to pay 
soldiers, including those in Iraq and Afghanistan. Second, 
operations and maintenance (O&M) accounts. Around July 5, O&M 
funds across the services will run out, starting with the Army. 
This may result in civilian furloughs, limits on training, and 
curbing family support activities.
    If war funds are not available, the Defense Department can 
transfer funds from Navy and Air Force military personnel 
accounts to pay soldiers, but that would get us only to late 
July. Using the limited transfer authority granted by Congress 
would also help get us to late July. Doing so, however, is a 
shell game, which will disrupt existing programs and push the 
services' O&M accounts to the edge of fiscal viability.
    Beyond the Army personnel account and O&M account, other 
programs will be adversely impacted if the pending fiscal year 
2008 supplemental is not passed soon. Among them critically is 
the commander's emergency response program, or CERP, the single 
most effective program to enable commanders to address local 
populations' needs and get potential insurgents in Iraq and 
Afghanistan off the streets and into jobs. Congress has 
provided $500 million of our total CERP request of $1.7 
billion. Without the balance of $1.2 billion, this vital 
program will come to a standstill. The Department does not have 
the authority to extend the funding beyond the $977 million in 
authority provided in the fiscal year 2008 National Defense 
Authorization Act.
    While I understand that the Congress may pass the fiscal 
year 2008 war funding bill before the Memorial Day recess, I am 
obligated to plan for the possibility that this may not occur. 
I will keep Congress informed of these plans in an effort to 
ensure transparency and to minimize possible misunderstandings.
    Delaying the supplemental makes it difficult to manage the 
Department in a way that is fiscally sound and prudent. To 
illustrate this point, I have compared the Department of 
Defense to the world's largest supertanker. It cannot turn on a 
dime and it cannot be steered like a skiff. And I would add, it 
cannot operate without paying its people. And so I urge 
approval of the fiscal year 2008 war funds as quickly as 
possible.

                           PREPARED STATEMENT

    Finally, I would like to thank the subcommittee for all you 
have done to support our troops, as well as their families. In 
visits to the combat theaters and military hospitals and at 
bases and posts at home and around the world, I continue to be 
amazed by their decency, their resilience, and their courage. 
Through the support of the Congress and our Nation, these young 
men and women will prevail in the current conflicts and be 
prepared to confront the threats that they, their children, and 
our Nation may face in the future.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    [The statement follows:]

                 Prepared Statement of Robert M. Gates

    Mr. Chairman, members of the Committee: Thank you for your 
continued support of our military these many years. I appreciate the 
opportunity to discuss the President's fiscal year 2009 Defense budget 
request.
    Before getting into the components of this request, I thought it 
useful to consider it in light of the current strategic landscape--a 
landscape still being shaped by forces unleashed by the end of the Cold 
War nearly two decades ago. In recent years old hatreds and conflicts 
have combined with new threats and forces of instability--challenges 
made more dangerous and prolific by modern technology. Among them: 
Terrorism, extremism, and violent jihadism; ethnic, tribal, and 
sectarian conflict; proliferation of dangerous weapons and materials; 
failed and failing states; nations discontented with their role in the 
international order; and rising and resurgent powers whose future paths 
are uncertain.
    In light of this strategic environment, we must make the choices 
and investments necessary to protect the security, prosperity, and 
freedom of the American people.
    The investment being presented today in the defense base budget is 
$515.4 billion, or about 3.4 percent of our Gross Domestic Product. 
This request is a 7.5 percent increase--or $35.9 billion--over last 
year's enacted level. When accounting for inflation, this translates 
into a real increase of about five and a half percent.
    I also strongly support Secretary Rice's request for the 
international affairs funding. This request is vital to the Department 
of Defense; in the current strategic landscape, we need civilian 
expertise and robust engagement around the world to build goodwill, 
represent United States values and commitment to our partners, 
complement the contributions of our military, and set the long-term 
conditions for peace, prosperity, and an environment inhospitable to 
extremism.

          STRATEGIC MODERNIZATION--FUTURE COMBAT CAPABILITIES

    The fiscal year 2009 budget request provides $183.8 billion in 
strategic modernization to meet future threats, a 4.7 percent increase 
over the previously enacted level. This category includes more than 
$104 billion for procurement.
Joint Combat Capabilities
    The base budget provides $9.2 billion for ground capabilities, 
including more than 5,000 Humvees and 4,000 tactical vehicles. This 
request provides $3.6 billion to continue development of the Future 
Combat System, the Army's major modernization program, a portion of 
which I saw first-hand at Fort Bliss, Texas about two and a half weeks 
ago. I was impressed by what I saw.
    A total of $16.9 billion is allotted for maritime capabilities, 
with $14.2 billion for shipbuilding, including: The DDG-1000, the next 
generation surface combatant; two littoral combat ships; two joint high 
speed vessels; two logistics ships; and one Virginia-class submarine.
    The ships being built today must provide the capability and 
capacity to maintain the Navy's global presence and influence in the 
future. A fleet sized at 313 ships offers the agility required to meet 
a broadening array of operations and requirements with allies around 
the globe.
    To improve air capabilities, the budget includes $45.6 billion, a 
$4.9 billion increase over last year's enacted levels.
    This includes funding for: F/A 18 Hornet and E/A-18G Growler 
fighters; F-35 Joint Strike Fighters; F-22 Raptors; V-22 Ospreys; 
Unmanned Aerial Vehicles; and recapitalization of various missiles and 
other weapons.
    The Air Force's number one acquisition and recapitalization 
priority is the tanker fleet, specifically the KC-135, which is an 
average of 48.5 years old. This aircraft is increasingly expensive to 
maintain and less reliable to fly every day. The Department believes a 
KC-135 replacement fleet of between 460-580 aircraft, combined with an 
additional 59 KC-10s will provide suitable aerial refueling capacity.
    Retirement of aging aircraft is a vital component of recapitalizing 
our air assets. I urge Congress to continue to authorize aircraft 
retirements, lifting restrictions from previous years to help the Air 
Force maintain readiness and perform missions more safely.

Space
    This request provides $10.7 billion to strengthen joint space-based 
capabilities in several categories, including: Space-based infrared 
systems; and communications, environmental, Global Positioning System, 
and Advanced Extremely High Frequency satellites.
    The Department's heavy reliance on space capabilities is clear to 
potential adversaries, some of whom are developing anti-satellite 
weapons. Protecting our assets in space is, therefore, a high priority. 
In the past, the Department has been slow to address this 
vulnerability, but we are ramping up to properly address this problem.

Research and Development
    As changes in this century's threat environment create strategic 
challenges--irregular warfare, weapons of mass destruction, disruptive 
technologies--this request places greater emphasis on basic research, 
which in recent years has not kept pace with other parts of the budget.
    This request for $11.5 billion will sustain ongoing science and 
technology research. Within this category, the fiscal year 2009 budget 
includes $1.7 billion for basic research initiatives. In total, I have 
directed an increase of about $1 billion over the next five years for 
fundamental, peer-reviewed basic research--a two percent increase in 
real annual growth.

Missile Defense
    The 2009 base budget provides $10.4 billion to continue developing, 
testing, and fielding a multi-layered system to protect the United 
States and its allies from tactical and strategic ballistic missile 
attack.
    The Missile Defense Agency has successfully fielded elements of the 
ballistic missile defense system since 2004. Today, for the first time 
in history, our nation has an initial missile defense capability. In 
coming years, the Department seeks to grow this capability by testing 
against more complex and realistic scenarios, and by negotiating with 
like-minded nations. Since becoming the Secretary of Defense, I have 
been personally involved in ongoing discussions with Poland and the 
Czech Republic on hosting U.S. missile defense assets. I will continue 
to press for increased cooperation with our partners.

                   READINESS, OPERATIONS AND SUPPORT

    The fiscal year 2009 request provides $158.3 billion, a 10.4 
percent increase over last year's enacted level, for operations and 
training, as well as facilities and base support. $68 billion of the 
request will maintain combat readiness, focused on next-to-deploy 
units. The budget invests in readiness measured in terms of tank miles 
driven per month, ship steaming days underway per quarter, and flying 
hours per month. Additionally, this request includes:
  --$33.1 billion for logistical, intelligence, and service-wide 
        support;
  --$32.6 billion for facility and base support;
  --$11.8 billion for equipment maintenance to accommodate increased 
        requirements, expanded scopes of work for repair and 
        refurbishment of equipment, and the transition of systems from 
        development to sustainment in the field;
  --$10.7 billion for training, recruiting, and retention to ensure 
        that the all-volunteer force has the right people with the 
        right skills; and
  --$2.2 billion for sealift efforts and commissary support.
    The Department will continue investing in a number of critical 
initiatives that will have long-term implications for the readiness of 
our forces and the nation's ability to meet future threats.

Global Train and Equip
    The global train and equip authority provides commanders a means to 
fill longstanding gaps in our ability to build the capacity and 
capabilities of partner nations. It allows the State and Defense 
Departments to act in months, rather than years, to help other 
countries build and sustain capable security forces. The program 
focuses on places where we are not at war, but where there are emerging 
threats and opportunities. It creates the opportunity to reduce stress 
on U.S. forces by decreasing the likelihood that troops will be used in 
the future. Combatant Commanders consider this a vital tool in the war 
on terror beyond Afghanistan and Iraq. It has become a model of 
interagency cooperation between State and Defense--both in the field 
and in Washington, D.C. Secretary Rice and I both fully support this 
authority. We discussed its importance to long-term national security 
during joint testimony before the House Armed Services Committee on 
April 15th, and noted that its benefits would accrue to our successors 
in future administrations. The fiscal year 2009 base budget requests 
$500 million, along with a request for $750 million in authority. I 
urge Congress to provide this funding and permanent authority to meet 
enduring requirements.

Security and Stabilization Assistance
    The fiscal year 2009 budget invests $200 million in security and 
stabilization assistance along with a corresponding request to increase 
the authority. This authority will allow the Department to transfer up 
to $200 million to the State Department to facilitate whole-of-
government responses to stability and security missions--bringing 
civilian expertise to bear alongside our military. This would give 
Secretary Rice additional resources to address security challenges and 
defuse potential crises that might otherwise require the U.S. military 
to intervene.

Africa Command
    This request includes $389 million, or $246 million above 
previously enacted funds, to launch the new Africa Command, allowing 
the Department to have a more integrated approach than the existing 
arrangement dividing the continent up among three different regional 
commands. This new command will help: Strengthen U.S. security 
cooperation with African countries; train and equip our partners; 
improve health, education, and economic development; and promote peace 
and stability.

Foreign Languages
    The fiscal year 2009 budget includes $586 million for the Defense 
Language Program, a $52.3 million increase from last year. Thus far, 
our approach to improving language skills is having an impact. 
Proficiency in Arabic has increased 82 percent since September 2001. 
Although the value of foreign languages and cultural proficiency is 
recognized by our Special Forces, these capabilities are essential for 
all forces preparing for irregular warfare, training and advising 
missions, humanitarian efforts, and security and stabilization 
operations.

                            QUALITY OF LIFE

    The fiscal year 2009 request includes $149.4 billion in military 
pay, health care, housing, and quality of life for service personnel, 
Department employees, and their families.
    The request provides for $107.8 billion in pay and benefits, an 
increase of 9.8 percent over the fiscal year 2008 enacted level. This 
translates into pay raises of 3.4 percent for the military and 2.9 
percent for civilian employees. Since 2001, basic military pay has 
increased by an average of 37 percent. For example, in fiscal year 
2009, the average enlisted E-6 (Army Staff Sergeant) will see a pay 
increase of $1,289. The pay of the average O-3 (Army Captain or Navy 
Lieutenant) increases by $1,943 in fiscal year 2009.

Family Housing
    The budget request includes $3.2 billion that will construct new 
family housing, improve existing housing, eliminate inadequate housing 
overseas, operate and maintain government-owned housing, and fund the 
privatization of 12,324 additional homes. The Basic Allowance for 
Housing increases by 5 percent and the Basic Allowance for Subsistence 
increases by 3.8 percent.

Wounded Warriors
    We have a moral obligation to see that the superb life-saving care 
that the wounded receive initially is matched by quality out-patient 
treatment. To provide world-class health care to all who are wounded, 
ill, or injured serving the nation, the Department is taking action on 
the recommendations made by the President's Commission on Care for 
America's Returning Wounded Warriors. To do so, we have formed a senior 
oversight committee--chaired by the Deputy Secretaries of Defense and 
Veterans Affairs--to examine several key areas:
  --Case Management--integrate care management throughout the life of 
        the wounded, ill, or injured service member to ensure they 
        receive, as the President made clear, the ``right care and 
        benefits at the right time in the right place from the right 
        person'';
  --Disability and Compensation Systems--streamline the disability 
        evaluation system making it a single, supportive, and 
        transparent process;
  --DOD and VA Data Sharing--ensure appropriate information is 
        accessible and understandable between departments; and
  --Traumatic Brain Injury (TBI)/Psychological Health Issues--improve 
        access and quality of care by reducing the stigma associated 
        with mental health care and establishing new programs, such as 
        a TBI registry.
    Over the past eight months, we have made a concerted effort to 
ensure that counseling for post-traumatic stress does not adversely 
impact a Service member's security clearance. On May 1st, we changed 
the question on the government application for security clearance so 
that, as a general matter, it excludes counseling related to service in 
combat--post-traumatic stress in particular. We hope this will 
encourage more men and women in uniform to seek help.
    In addition, the Department has also approved new standards for all 
facilities housing the wounded. We have already inspected nearly 500 
buildings against these new standards to ensure our people have a place 
to heal that is clean and decent.
    The budget requests $466 million to accelerate and enhance 
construction of health care facilities at Bethesda and Fort Belvoir, as 
well as establishing more Warrior Transition Units. To date, the Army 
has created 35 new Warrior Transition Units, which have helped 10,000 
injured soldiers either return to their units or transition to veteran 
status. I have visited several Warrior Transition Units, and I hope 
Congress will fund these extra-ordinary facilities, along with our 
other health care requests. America's all-volunteer force must know 
that we will do everything possible to care for and heal the men and 
women injured in the line of duty.

Future Health Care Issues
    In fiscal year 2009, DOD military healthcare costs are projected to 
be $42.8 billion in order to maintain benefits for 9.2 million eligible 
military members and their families, as well as retirees--more than 
double the level in 2001. By 2015, the Department's health care costs 
are projected to reach $64 billion, or 11.3 percent of the budget.
    Because of these concerns, the Department is also seeking 
legislation to align out-of-pocket health care expenses for retirees 
under age 65 with general health insurance plans. The Department 
continues to believe that modest increases to TRICARE out-of-pocket 
costs for working-age military retirees are essential to make military 
health benefits affordable and sustainable for current and future 
retired service members.

Global Posture
    The base budget requests $9.5 billion to continue U.S. Base 
Realignment and Closure (BRAC) efforts. For the approved fiscal year 
2005 BRAC recommendations, the budget fully funds 24 major 
realignments, 25 base closures, and 765 lesser actions. The Department 
is continuing to reposition U.S. forces at home and abroad in keeping 
with post-Cold War realities. Consequently, several units stationed 
overseas will be brought home. Accommodations for them are underway. 
For example, there is a tremendous amount of construction at Fort 
Bliss, which will receive an additional 30,000 soldiers and some 40,000 
family members. The commander of European Command has requested that 
the Army activate two heavy brigade combat teams in Germany in 2008 and 
2010 to support near-term security needs and allow time for 
construction in the United States.

                         INCREASE GROUND FORCES

    Increasing the size of the Army and Marine Corps will relieve 
stress on the force and enable the nation to meet its commitments at 
home and abroad. This growth in end strength is a continuation of 
growth that began last year and is expected to continue through fiscal 
year 2013.

U.S. Army
    The fiscal year 2009 base budget provides $15.5 billion to continue 
to grow the Army. These funds will pay for 7,000 additional soldiers, 
enabling us to reach the goal of 532,400-person army in the next fiscal 
year. Approximately $7 billion of this amount will be applied to the 
cumulative cost for recruiting, training, and paying the force, and 
$8.5 billion will be applied to equipment, infrastructure, and military 
construction. The Army request includes the cumulative cost of 
personnel added as part of a temporary increase in end strength after 
September 11, 2001--an increase which had previously been paid for in 
supplemental appropriations.
    I am concerned that the percentage of new Army recruits with high 
school diplomas has declined in recent years, and that the number of 
waivers has increased. While still within the minimum standards 
established by Congress, we are watching these numbers closely, and are 
determined to grow the Army in a way that does not sacrifice the 
quality we have come to expect in the all-volunteer force.

U.S. Marine Corps
    The base budget seeks $5 billion to grow the Marine Corps' end 
strength to 194,000 in fiscal year 2009. As with the Army, the Marine 
Corps' request includes the cumulative cost of personnel added after 
September 11, 2001. The Marine Corps' plans to increase end strength to 
202,000, and they are on track to achieve this goal by the end of 
fiscal year 2009--two years earlier than planned. Such growth will 
enable the Corps to build three Marine Expeditionary Force units and to 
increase time at home station between deployments. Thus the Marines 
will continue to be, as it has been historically, a ``two-fisted'' 
expeditionary force that excels at conventional warfare and counter-
insurgency.

                              WAR FUNDING

    In addition to the $515.4 billion base budget, the fiscal year 2009 
request also includes $70 billion in emergency bridge funding. There 
is, however, a more immediate concern: Congress has yet to pass the 
pending $102.5 billion Global War on Terrorism request for fiscal year 
2008 and, as a result, the Defense Department is currently using fourth 
quarter funds from the base budget to cover current war costs. Shortly, 
two critical accounts will run dry:
  --First, Army military personnel account. After June 15th, we will 
        run out of funds in this account to pay Soldiers--including 
        those currently serving in Afghanistan and Iraq; and
  --Second, Operations and Maintenance account. Around July 5th, O&M 
        funds across the Services will run out, starting with the Army. 
        This may result in civilian furloughs, limits on training, and 
        curbing family support activities.
    If war funds are not available, the Defense Department can transfer 
funds from Navy and Air Force military personnel accounts to pay 
soldiers, but that would get us only to late July. Using the limited 
Transfer Authority granted by Congress would also help us get to late 
July. Doing so, however, is a shell game--a temporary one at that--
which will disrupt existing programs and push the Services O&M accounts 
to the edge of fiscal viability.
    Beyond the Army personnel account and O&M account, other programs 
will be adversely impacted if the pending fiscal year 2008 supplemental 
is not passed soon. Among them, critically, is the Commander's 
Emergency Response Program (CERP) which, as you may recall, I mentioned 
during my testimony to you last May. It is the single most effective 
program to enable commanders to address local populations' needs and 
get potential insurgents in Iraq and Afghanistan off the streets and 
into jobs. Congress has provided $0.5 billion of our total CERP request 
of $1.7 billion. Without the balance of $1.2 billion, this vital 
program will come to a standstill--the Department does not have the 
authority to extend funding beyond the $977 million in authority 
provided in the fiscal year 2008 NDAA.
    While I understand that you may pass the fiscal year 2008 war 
funding bill before the Memorial Day recess, I am obligated to plan for 
the possibility that this may not occur. As I mentioned in a recent 
letter to Senator Byrd and Senator Cochran, as well as other 
Congressional leaders, I will keep you informed of these plans in an 
effort to ensure transparency and minimize possible misunderstandings.
    To that end, if the war funding bill is not passed by Memorial Day, 
the Defense Department will submit reprogramming requests to Congress 
for their approval on May 27th to prevent the depletion of the Army 
Military Personnel Account and the Army Operations and Maintenance 
account. On June 9th, the Deputy Secretary of Defense will issue 
guidance on furlough planning and Service Secretaries will issue 
guidance to their commands and workforce.
    Delaying the supplemental makes it difficult to manage this 
Department in a way that is fiscally sound and prudent. To illustrate 
this point, I have compared the Department of Defense to the world's 
biggest supertanker. It cannot turn on a dime and cannot be steered 
like a skiff--and, I would add, it cannot operate without paying its 
people.
    I urge approval of the fiscal year 2008 war funds as quickly as 
possible.

                               CONCLUSION

    At this, my second and also last opportunity to present a budget 
before this committee, I thank the members of this Committee for all 
you have done to support our troops as well as their families. In 
visits to the combat theaters, in military hospitals, and in bases and 
posts at home and around the world, I continue to be amazed by their 
decency, resiliency, and courage. Through the support of the Congress 
and our nation, these young men and women will prevail in the current 
conflicts and be prepared to confront the threats that they, their 
children, and our nation may face in the future.

    Senator Inouye. Admiral Mullen.

STATEMENT OF ADMIRAL MICHAEL G. MULLEN, UNITED STATES 
            NAVY, CHAIRMAN, JOINT CHIEFS OF STAFF

    Admiral Mullen. Mr. Chairman, Senator Stevens, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today.
    We are here, as you know, to discuss with you the 
President's fiscal year 2009 budget submission and more broadly 
the state of our armed forces. Let me speak for a moment about 
the latter.
    The United States armed forces remain the most powerful, 
capable military forces on the face of the Earth. No other 
nation has or can field and put to sea the superb combat 
capabilities resident in our Army, Navy, Air Force, and Marine 
Corps. This stands as a testament, of course, to the brave and 
talented men and women who serve, Active, Reserve, Guard, and 
civilian, as well as their families. They are, as I have said 
many times before, the finest I have ever seen, and I am 
privileged and proud to serve alongside them. Each trip to the 
field, each visit to a base, each bedside I stand beside only 
reaffirms that fact for me. I know you have also made such 
visits and can attest to the same, and I thank you for that.
    And so I also believe our strength speaks well of the hard 
work of this subcommittee and the Congress as a whole as it 
does of the American people who, through you, their elected 
representatives, continue to invest wisely in their national 
defense. We are grateful. We will continue to need that 
support, for however powerful we are today, that power is not 
assured tomorrow.
    That is why the budget the President submitted raises over 
last year's request an additional $5.7 billion for the 
readiness accounts, increasing tank miles for the Army, 
maintaining 45 steaming days for the Navy, and fully funding 
flying hours for the Air Force. That is why it calls for more 
than $180 billion for strategic modernization, fully 35 percent 
of the total request, a figure that includes some $45 billion 
to upgrade an aging air fleet, nearly $10 billion to field new 
ground combat vehicles like MRAP, and $14.5 billion to continue 
to grow the Navy's fleet, as well as a $700 million increase 
for research and development, the total of which is $11.5 
billion.
    And that is why it includes funding to complete the stand-
up of Africa Command to grow the end strength of the Army and 
the Marine Corps, to continue development of a robust ballistic 
missile defense system for Europe, and to improve our cyber 
security and our ISR capabilities.
    I am convinced this budget reveals balance in our vision 
for the future, a realization that while we must continue to 
develop irregular warfare skills needed to effectively wage 
irregular warfare, both today and tomorrow, we must also 
prepare for, build for, and train for a broad spectrum of 
warfighting capabilities.
    The war in Iraq remains our number one strategic priority, 
as it should be. We cannot afford, the world cannot afford to 
have an Iraq unable to govern, defend, or sustain itself in 
effect and in practice as a failed state. If we get it wrong 
there, we place an unacceptable risk on our national interests 
throughout the Middle East. We get it wrong there, and Iran's 
growing and negative influence, Hezbollah's growing extremism, 
or al Qaeda's ability to reconstitute itself only intensify and 
imperil the region that much more.
    That is why we have worked so hard to improve our counter-
insurgency skills and to adapt, when necessary, to changing 
conditions. We have attained far too much experience in this 
type of warfare to ignore the lessons learned or the 
practicalities of application elsewhere. But even in Iraq, the 
counter-insurgency fight is not all of a classic small-war 
flavor. We hit the enemy with precision raids on the ground, 
with precision strikes from the air, and even in his lairs in 
cyberspace. We help protect Iraqi oil flow with our ships at 
sea. We bolster diplomatic efforts with a strong and vibrant 
military presence.
    We are doing well in Iraq as a result of such choices 
including, I might add, the choices of the Iraqi leadership who 
are now taking a much more assertive role in both military and 
civil affairs. We saw that in Basra recently. We are seeing it 
today in Sadr City and Iraqi security forces are leading in 
many areas in our current fight in Mosul. I am encouraged, but 
we are far from done.
    And we are trying, in concert with our North Atlantic 
Treaty Organization (NATO) allies, to achieve similar progress 
in Afghanistan where fresh violence in the south, the 
burgeoning poppy trade, and an increasingly unstable and 
ungoverned border with Pakistan all tear at the very fragile 
seams of security. It is hard work and it is tenuous at best, 
all the more reason we so desperately need the supplemental 
finding still being considered by the Congress.
    I am especially concerned about the availability of funds 
under the commander's emergency response program (CERP), 
authority for which expires next month. CERP has proven in most 
cases more valuable and perhaps more rapid than bullets or 
bombs in the fight against extremism delivering, as it does, to 
local officials the money they need to deliver in turn the 
civil improvements their citizens need. As one young American 
in Afghanistan put it--and I quote--``CERP is small scale, but 
quick impact.'' Without these funds, without the supplemental, 
our ability to have this sort of impact will suffer, and in 
fact, we are beginning to suffer now. Again, our progress is 
tenuous.
    But tenuous too are the long-term risks we take to our 
security commitments elsewhere if we focus too heavily on one 
discipline at the expense of all others if we prove unable to 
free up more ground forces or if we fail to properly address 
the toll being taken by current operations on our equipment, 
our people, and their families.
    The President's decision to reduce to 12 months all active 
Army tour lengths to the Central Command region is both welcome 
and necessary. But we must create even longer dwell times at 
home as soon as possible and pursue the various family support 
and employment initiatives that have been outlined in the 
President's State of the Union address. I was with families of 
deployed soldiers in Germany last week. They are trusting.
    And allow me to add here just how gratified I am to see the 
debate and discussion in these halls over a revised GI bill 
which will increase educational benefits for our troops and 
grant transferability of those benefits to military dependents. 
It is wanted and it is needed. It will go a long way to improve 
the quality of life for our people and their families as did, 
quite frankly, the Wounded Warrior legislation Congress passed 
last year.
    I am pleased that this budget too allocates more than $41 
billion for world-class care and quality of life, but too many 
of our returning warriors still suffer in silence and in fear 
of the stigma attached to their mental health issues. We must 
now turn our attention to better identifying the wounds of war 
we do not see and to treating the trauma and stress we do not 
fully understand.
    Finally, the growth of the Army and Marine Corps will, over 
coming years, provide much needed flexibility in engagement and 
in crisis response, and we must set about the task of restoring 
some of the more conventional and expeditionary capabilities 
these services will require in the dangerous and uncertain 
years ahead. There are young marines who have never deployed 
aboard a Navy ship, and there are Army officers who have not 
spent any time on their specialty of providing artillery fire 
support. These sort of gaps in professional expertise cannot 
persist particularly at a time when we are being called upon to 
stay better engaged around the globe, building our partner's 
capacity for such work, improving international and interagency 
cooperation, and fostering both security and stability.
    The State Department and the Defense Department have asked 
for such authorities in the Building Global Partnerships Act, 
which I strongly urge the Congress to enact. At its core, this 
act will help us solve problems before they become crises and 
help us contain crises before they become conflicts.
    And as I said, the business of war is all about choices. 
Military leaders must make hard decisions every day, choices 
that affect the outcome of major battles, whole nations, and 
the lives of potentially millions of people, choices which 
ensure the instruments of American military power are adequate 
to their purpose and responsibility.

                           PREPARED STATEMENT

    As we head into the latter one-half of this year with 
better and more continuous assessments of our progress in Iraq, 
a new push in Afghanistan, and a continued fight against 
violent extremists, as we consider the depth and the breadth of 
combat capabilities we must improve, please know that I and the 
Joint Chiefs remain committed to making informed choices, 
careful choices, and choices which preserve at all times and in 
all ways our ability to defend the American people.
    Thank you, Chairman. I look forward to your questions.
    [The statement follows:]

            Prepared Statement of Admiral Michael G. Mullen

    Chairman Inouye, Senator Stevens, distinguished members of the 
committee, I am privileged to appear before you and report to you on 
the posture of the U.S. Armed Forces.
    Let me begin by recognizing and thanking our Service members and 
their families. The brave men and women who answer the noble call to 
defend our Nation and the spouses, children and parents who support 
them are our most valuable national asset.
    Your Armed Forces, and their families, have faced the challenges of 
continuous combat for more than six years. Our men and women in uniform 
serve our Nation, accepting unwelcome separation from their loved ones, 
long hard work under difficult circumstances, and in some cases making 
the ultimate sacrifice.
    Military families are equally deserving of our gratitude. They bear 
the brunt of the loneliness, the uncertainty, and the grief that too 
often comes home when our Armed Forces are at war. Acknowledging the 
importance of their support, we must consider new initiatives such as 
transferring GI bill benefits to military spouses and children, 
military spouse employment support, expanded childcare and youth 
programs, and long-term comprehensive support of Wounded Warrior 
families.
    We must provide our Service members and their families with the 
leadership, the resources and the support required to defend the 
homeland, win the Long War, promote security, deter conflict, and win 
our Nation's wars.

                              INTRODUCTION

    Over the past year your Armed Forces have done much to improve the 
security environment. Operating globally alongside allies and partners, 
often in concert with the interagency and non-governmental 
organizations, they have successfully protected our Nation's vital 
interests: a homeland secure from catastrophic attack, assured access 
to strategic resources, a strong national and global economy, sustained 
military superiority and strategic endurance, and sustained global 
influence, leadership, and freedom of action.
    A diverse set of perils threaten those interests and demand 
sustained action. Those threats include the proliferation of nuclear 
weapons and technology, transnational terrorism and rising regional 
instability. Today, these challenges manifest themselves most clearly 
in the Middle East.
    We face additional challenges in other areas: a number of state 
actors who appear intent on undermining U.S. interests and regional 
stability, a growing global competition for scarce natural resources, 
the constant threat of natural disasters and pandemics, as well as 
increasing cyber and Space threats. Our military is capable of 
responding to all threats to our vital national interests, but is 
significantly stressed while conducting combat operations in Iraq and 
Afghanistan and other operations worldwide as part of this 
multigenerational conflict against violent extremism. A decline in our 
strength or a gap in readiness will undermine the U.S. Armed Forces 
capability to complete its range of missions from combat overseas to 
providing civil support at home. That is why I believe we must reset, 
reconstitute, and revitalize our Armed Forces while balancing global 
risk.
    We do not--and should not--face these challenges alone. Today, more 
nations are free, peaceful, and prosperous than at almost any point in 
history. While each has its own heritage and interests, most share our 
desire for security and stability. Increasing free trade, regional 
security partnerships, treaties, international institutions, and 
military-to-military engagements and capacity building strengthen the 
bonds between us and other nations. Our engagement with allies and 
friends demonstrates our leadership and resolve to fulfill security 
commitments, and works toward the common good. Most often, it is by 
taking collective action--and not going it alone--that we increase our 
ability to protect our vital interests.
    With this context in mind, and in consultation with the Secretary 
of Defense, I have set three strategic priorities for our military. 
First, we need to increase stability and defend our vital national 
interests in the broader Middle East. Second, we must reset, 
reconstitute, and revitalize our Armed Forces. Third, we need to deter 
conflict and be prepared to defeat foes globally by rebalancing our 
strategic risk. Finally, to achieve our objectives in each of these 
areas we need to place increased emphasis not only on development of 
our own capabilities and the capacity of other agencies (State, USAID, 
Agriculture, Treasury, and Commerce and so forth), but also on building 
the capacity of our foreign partners to counter threats including 
terrorism and to promote regional stability.

     DEFEND OUR VITAL NATIONAL INTERESTS IN THE BROADER MIDDLE EAST

    Although our vital national interests are clearly global in nature, 
the broader Middle East is the epicenter of violent extremism. Too many 
countries suffer from burgeoning populations and stagnant economies, 
which have increased radicalization. State and non-state actors alike 
foment instability. Terrorists and insurgents are at war with 
governments in the region. The confrontational posture of Iranian 
leaders with respect to nuclear proliferation, the Israeli-Palestinian 
conflict, Sunni-Shia rivalries, the threat of terrorism, tensions in 
Pakistan, Hezbollah in Lebanon, political instability in the Maghreb, 
and the existence of Al-Qaeda and like-minded groups, all threaten 
regional stability and, ultimately, our vital national interests.
    My near-term focus remains combat operations in Iraq and 
Afghanistan. The surge of U.S. forces to Iraq, a well executed counter-
insurgency strategy and an Iraqi population increasingly weary of 
violence, and willing to do something about it, have all combined to 
improve security conditions throughout much of the country. Violent 
activities against our forces and against the Iraqi people have 
substantially decreased. These reductions have come about because of 
the hard work of Coalition and Iraqi Security Forces and the decisions 
of the Iraqi people and their leaders. Insurgent activity is down and 
Al Qaeda in Iraq is on the run--although both remain dangerous. Much 
hard fighting remains for Iraqi and Coalition forces before the job is 
done. Increased security has promoted reconciliation in some key 
provinces and the beginnings of national level reconciliation. We are 
working to secure a long-term security relationship with Iraq that will 
serve the mutual interests of both countries. As we continue to 
progress forward, Congressional support of future war funding will 
remain critical to success. An important component of that funding will 
go to building the capacity of increasingly capable Iraqi security 
forces.
    Security is a necessary condition but is not sufficient for 
achieving our strategic end-state in Iraq. Political, diplomatic and 
economic development together with expanded governance and the rule of 
law form the foundations that will underpin long term stability and 
security in Iraq. We are making solid progress, but we still have a 
long way to go. I ask that Congress continue its support for increased 
interagency participation in Provincial Reconstruction Teams, stability 
and reconstruction initiatives, U.S. business investment, DOD business 
transformation efforts, and good governance initiatives. I encourage 
your continued emphasis on the importance of achieving political and 
economic goals. Your visits with the Iraqi government and other Iraqi 
political leaders support the efforts of American, Coalition, and Iraqi 
forces.
    In Afghanistan we are seeing a growing insurgency, increasing 
violence, and a burgeoning drug trade fueled by widespread poppy 
cultivation. In response, more U.S. forces will deploy to Afghanistan. 
At the same time, the Afghan National Army and Police have increased in 
numbers and capability. The Afghan Provincial Reconstruction Teams 
continue to aid the local populations, and President Hamid Karzai is 
reaching out to support the provinces. In the U.S. section of RC East, 
access to basic health care has more than doubled and provincial 
councils have become functioning entities active in development. NATO 
forces provide a credible fighting force, but the alliance still faces 
difficulty meeting its force level commitments and some nations' forces 
in theater must be more operationally flexible. These challenges 
emphasize the importance of retaining U.S. freedom of action on a 
global scale. Just as in Iraq, your continued support for funding U.S. 
operations and efforts there, including PRTs, Afghanistan National 
Security Force development, and infrastructure development, is needed.
    In short, a stable Iraq and Afghanistan that are long-term partners 
and share our commitment to peace will be critical to achieving 
regional stability and security. This will require years, not months, 
and will require the support of the American people, our regional 
allies, and concerted action by the Iraqi and Afghan people and their 
leaders.
    I see daily reminders of other challenges in this part of the 
world. Continued irresponsible actions by Iran's Islamic Revolutionary 
Guard Corps directly jeopardize Iraqi and Coalition forces and 
undermine the Iraqi people's desire for peace. Restraint in our 
response does not signal lack of resolve or capability to defend 
ourselves against threats. Much more worrisome in the long term, 
however, is Iran's hegemonic intent, their continued refusal to 
verifiably suspend uranium enrichment, their continued support of 
terrorism and the resultant instability these actions foster throughout 
the region.
    Al Qaeda safe havens in the under-governed regions of Pakistan also 
contribute to regional instability. In my judgment, the most likely 
near term attack on the United States will come from Al Qaeda via these 
safe havens. Continued Congressional support for the legitimate 
government of Pakistan braces this bulwark in the long war against 
violent extremism.
    Despite--or maybe because of--these diverse challenges, we are 
fortunate to enjoy the cooperation of many courageous partner nations 
in the region. A recent regional commitment to work toward an Israeli-
Palestinian peace accord is one example. We should not inadvertently 
signal ingratitude toward any of these nations. Foreign Military 
Financing (FMF) and International Military Education and Training 
(IMET) are programs that have the potential to have significant 
strategic repercussions. I therefore seek Congressional support to 
ensure the Department of State's FMF and IMET programs remain fully 
funded.
    After three visits to the Middle East since becoming Chairman, I am 
more convinced than ever that we will not achieve regional security and 
stability unless we strengthen all instruments of international 
cooperation, regional partnerships, and national power. We need to 
ensure our plans sustain current gains and chart a course that both 
capitalize on lessons learned while focusing on future demands and 
dynamic conditions on the ground. Our forces must remain in theater as 
long as necessary to secure our vital interests and those of our 
partner nations, and they must operate with the full confidence and 
support of the American people and the Congress.

             RESET, RECONSTITUTE, AND REVITALIZE OUR FORCES

    To be successful in defeating our enemies and deterring potential 
foes, U.S. Armed Forces require talented people who are fully trained 
in their specialties and well equipped with warfighting systems. The 
pace of ongoing operations has prevented our forces from fully training 
for the full-spectrum of operations and impacts our ability to be ready 
to counter future threats. This lack of balance is unsustainable in the 
long-term. We must restore the balance and strategic depth required for 
national security. Continued operations without the requisite increase 
in national resources will further degrade our equipment, platforms and 
people.
    Our Nation's servicemen and women--and their families--are the 
primary focus of my efforts to reset, reconstitute, and revitalize our 
forces. Caring for them is a critical consideration in every decision I 
make. Our All-Volunteer Force continues to meet the requirements and 
demands of national security, but with great sacrifice. This is the 
longest time that our All-Volunteer Force has been at war. Our Service 
members, in particular our ground forces and their families, are under 
significant strain. However, they remain dedicated, they are resilient 
and combat hardened, and they are taking the fight to our enemies. I do 
not take their service for granted and recognize that their resilience 
has limits. I am extremely concerned about the toll the current pace of 
operations is taking on them and on their families, on our equipment, 
and on our ability to respond to crises and contingencies beyond 
ongoing operations in Iraq and Afghanistan.
    On April 10, 2008, the President directed the Secretary of Defense 
to reduce deployment lengths from fifteen months to twelve months for 
Army units deployed to the Central Command area of operations beginning 
on August 1, 2008. Upon implementation, deployment cycles will go to 
twelve months deployed/twelve months home for the Army while remaining 
at seven months deployed/seven months home for the Marines and one year 
mobilization with five years back for the National Guard and Reserves. 
To preserve personal, operational, and family readiness, we must shift 
the Army's deployment cycle as quickly as possible to twelve months 
deployed followed by twenty-four months at home. We must do the same 
for the Marine Corps by moving to fourteen months at home for each 
seven month deployment. Therefore, the most important investment in the 
President's fiscal year 2009 budget is the commitment to expand our 
Army, Marine Corps, and Special Operations Forces. This continuation of 
the ``Grow the Force'' initiative is a long-term plan to restore the 
broad range of capabilities necessary to meet future challenges and 
restore a capacity for sustained action. This commitment encompasses 
nearly 33 percent of the total real growth of the DOD budget from 
fiscal year 2008 to 2009.
    Recruiters have a tough job during peacetime and it is made even 
more difficult now given the expansion of both the Army and the Marine 
Corps and the decrease in the propensity of key influencers to 
encourage potential recruits to enlist during this period of war. In 
spite of these challenges, our recruiters are doing exceptional work. 
The military departments met their recruiting goals for fiscal year 
2007 and remain on track for fiscal year 2008. We are also making sure 
we retain the people and the skills we need. The Services are using the 
full range of authorities given to them by Congress in the form of 
retention incentives, and I ask your continued support for these 
programs to sustain our combat-experienced force. Last year, the Army 
and Navy employed the Critical Skills Retention Bonus to retain mid-
career active duty officers who fill key positions. Likewise, the 
Services have offered bonuses to senior enlisted members of our Special 
Operations Forces. Investment in our people as our most important 
resource is vital. The cost of people continues to grow and we need to 
recognize this as we debate the right level of investment in defense.
    Retention challenges impact more than just our active duty forces. 
Though they met their recruiting and retention goals this last year, 
the Army Reserve and National Guard have experienced some shortages in 
company grade officers and mid-grade non-commissioned officers who lead 
our troops. We are overcoming these personnel shortfalls through 
enhanced incentives for Reserve and National Guard service, flexibility 
in terms of service requirements, competitive pay, and enhanced 
retirement benefits. These initiatives are important steps towards 
transitioning the Reserve Components from a ``strategic reserve'' role 
to part of the ``operational reserve,'' creating the depth and staying 
power to respond to multiple global requirements, and maintaining our 
professional Guard and Reserve force.
    Maintaining our professional Armed Forces, however, takes more than 
talented recruiters, attractive incentives, and competitive pay. We 
must understand our next generation of Soldiers, Sailors, Marines, and 
Airmen. Their affinity for technology and collaboration may 
revolutionize the way we fight. The willingness of future generations 
of Americans to serve is directly related to how they, and their role 
models, perceive the veterans of today are treated and appreciated. The 
All-Volunteer Force depends upon the trust and confidence of the 
American people in our institution; it depends on trust and confidence 
in our leaders; and, it depends upon trust and confidence that 
America's sons and daughters will be well-trained, well-equipped, and 
well-cared for in peace and in war.
    While all our service members and their families have done their 
duty with great discipline and honor, one group in particular stands 
out: our returning Wounded Warriors and the parents, spouses and family 
members who care for them when they come home. As a Nation, we have an 
obligation to care for those who have borne the battle and who bear 
both the seen and unseen scars of war. Their sacrifices will not end 
following completion of their initial treatment. We should strive to 
provide only the finest medical and rehabilitative care for them and 
their families for the remainder of their lives.
    As leaders, we must ensure all our Wounded Warriors and their 
families receive the appropriate level of care, training, and financial 
support they need to become as self-sufficient and lead as normal a 
life as possible. Our support can mean the difference not just between 
life and death, but between a life of severe disability and one of 
manageable limitations. To the degree that we fail to care for them and 
their families, and enable their return to as normal a life as 
possible, we undermine the trust and confidence of the American people 
and ultimately put at risk the preservation of our professional All-
Volunteer Force.
    It is also imperative that we retain the experience of our combat 
hardened leaders. We live in a dangerous and unpredictable world and in 
a time of incredible change. I believe this change will accelerate, not 
slow down. Today's combat veterans are the ones that will take our 
military into the future. Their experience in fighting terrorists and 
insurgents as well as caring for those wounded on the fields of battle 
will enable us to better prepare for the challenges of tomorrow, but we 
cannot afford to lose their hard earned experience today.
    In addition to taking care of our people, we must repair, rebuild, 
and replace the equipment that has been destroyed, damaged, stressed, 
and worn out beyond economic repair after years of combat operations. 
As you are well aware, Service equipment has been used at higher rates 
and in harsher conditions than anticipated. In addition to the wear and 
tear experienced by our ground vehicles in Iraq and Afghanistan, our 
airframes and ships are aging beyond their intended service lives. 
Indeed since Desert Storm, seventeen years ago, the U.S. Air Force and 
U.S. Navy have flown near continuous combat missions over the Middle 
East and the Balkans. The impact of this usage is illustrated in the 
groundings of the oldest F-15 Eagle fighters, our repeated request to 
retire some of our C-130 Hercules and KC-135 Stratotankers, and the 
strains placed on our twenty-nine year old P-3 Orion reconnaissance 
aircraft.
    Despite usage levels sometimes five to six times above peacetime 
rates, and in the midst of extremely demanding environments, equipment 
readiness in theater remains high, well above the peacetime goals. Your 
support has been helpful in accomplishing this mark. However, this high 
in-theater equipment readiness comes with a price--namely the impact on 
the remainder of the Service equipment. For example, our ground forces 
borrow equipment from non-deploying units in order to equip deploying 
units. While our deploying units are fully resourced to meet the 
challenges of the fight that they are in, we must get ahead of this 
challenge.
    Our forces are relying upon the balance of funds requested in the 
fiscal year 2008 Global War on Terror request to accomplish equipment 
reset and to address readiness shortfalls. I urge the Congress to 
quickly appropriate the remaining GWOT request for fiscal year 2008, as 
it is essential to have continued, predictable, and adequate funding 
for the repair and replacement of both operational and training 
equipment. I also ask for your continued support for our upcoming 
fiscal year 2009 Global War on Terror funding request.
    Revitalization includes force recapitalization, modernization, 
transformation, re-stationing, and repositioning, along with personnel 
and family support programs. A revitalized force creates a vital 
deterrent effect. Preventing future wars is as important as winning 
wars. Such prevention requires global presence and persistent 
engagement. A revitalized force provides the means to expand 
cooperative relationships with other nations and contribute to a global 
capacity to promote security and stability for the benefit of all. A 
revitalized force will also ensure that we remain prepared to meet our 
global responsibilities.
    Finally, a revitalized force is central to balancing global 
strategic risk. A revitalized force is a balanced total joint force, 
capable of operating across the spectrum of conflict. A balanced force 
possesses the capability and capacity to successfully conduct multiple 
simultaneous missions, in all domains, and at the required levels of 
organization, across the full range of military operations. A 
modernized, balanced total joint force is necessary if we are to 
successfully answer enduring and emerging challenges, and win our 
Nation's wars.

                PROPERLY BALANCED GLOBAL STRATEGIC RISK

    Beyond the Middle East, and in addition to revitalizing our forces, 
we must take a worldwide and long term view of our posture and its 
implications for global strategic risk. We have global security 
responsibilities across the range of military operations. The 
challenges in Asia to the vital interests of the United States and our 
allies are an example.
    We must be sized, shaped, and postured globally to leverage the 
opportunities for international cooperation and build the capacity of 
partners for stability, while at the same time, deterring, confronting 
and preparing for profound dangers of the future. I am concerned, as 
are the Combatant Commanders, that we do not have sufficient resources 
to meet all the needs. By working with other growing powers, and by 
helping emerging powers become constructive actors, we can ensure 
today's dynamic environment does not devolve into a prolonged state of 
conflict and disorder.
    The imbalance between our readiness for future global missions and 
the wars we are fighting today limits our capacity to respond to future 
contingencies, and offers potential adversaries, both state and non-
state, incentives to act. We must not allow the challenges of today to 
keep us from being prepared for the realities of tomorrow. There is 
risk that we will be unable to rapidly respond to future threats to our 
vital national interests.
    Funding by the Congress is critical to restoring balance in the 
long term. But resources alone are not enough. We must think more 
creatively, more deeply, and more systematically about how to best use 
our resources. We have learned a great deal about how to leverage 
modern technology and interagency participation to counter terrorism--
those lessons can be shared with our partner nations, and applied to 
other security threats such as our Nation's counter narcotics efforts. 
Similarly, our new maritime strategy emphasizes the importance of 
leveraging other nation's capabilities. The growing interdependency of 
the community of nations will continue to offer similar opportunities. 
I support the United States' accession to the United Nations Law of the 
Sea Convention, and I believe that joining the Convention will 
strengthen our military's ability to conduct operations.
    Our enduring alliances and partnerships promote stability and 
security. The twenty-six nation North Atlantic Treaty Organization 
leads the effort to help extend security and stability inside 
Afghanistan. Australia and Japan have also made key contributions to 
operations in Afghanistan and Iraq. Another key ally, the Republic of 
Korea, has supported Operation Iraqi Freedom for the past three years--
and continues to maintain a robust national commitment to security in 
Northeast Asia. Singapore and the Philippines work with us to counter 
international terrorist threats in Southeast Asia. Colombia's highly 
successful counterinsurgency struggle promotes stability in a critical 
region of South America. Our military to military relationships with 
Mexico and Canada are laying the ground work for greater Homeland 
Security. Enhancing our teamwork with our allies and partners is 
essential if we are to protect our shared interests.
    Persistent engagement and capacity building with allies and 
international partners is a key means of properly balancing global 
strategic risk. Persistent engagement consists of those cooperative 
activities that build partner capacity, provide humanitarian 
assistance, counter common threats, and safeguard the global commons. 
As I noted earlier, we need to fully fund our Foreign Military Finance 
and International Military Education and Training programs and 
streamline the process for executing these and similar funds. Fostering 
and sustaining cooperative relationships with friends around the world 
contributes significantly to our shared security and global prosperity. 
Relationships take time to grow--and they require investment to stay 
strong.
    In many cases, other countries have significant competencies, 
relationships, and resources that can promote security and stability. 
One way to build relationships with other nations is to help them 
accomplish the goals they cannot achieve alone. Helping other nations 
overcome security problems within their borders by increasing stability 
and eliminating terrorist safe havens bolsters our security as it 
boosts theirs. Our Theater Security Cooperation programs also form a 
foundation for shared and interoperable response to contingencies. 
Regional Combatant Commands--such as U.S. Northern Command, U.S. 
Southern Command, and U.S. Africa Command--are being structured with 
interagency and international relationships in mind to boost our 
security and humanitarian assistance capabilities, and to foster long-
term U.S. military relationships with regional nations and security 
institutions.
    Legislation that increases the expeditionary capacity of civilian 
U.S. government agencies is critical to rebalancing global strategic 
risk. Increasing the ability of the U.S. government, as a whole, to 
deal with crises reduces the strain on our military forces. We need to 
empower the State Department to help other countries prevent and 
recover from conflict. I also fully endorse increased support for our 
intelligence agencies' global activities--upon which our Armed Forces 
depend. We additionally need to look at increasing the capacity of 
other U.S. government agencies--such as the Justice and Agriculture 
Departments, which are otherwise oriented on domestic missions--to help 
contribute civil expertise that the military lacks in stabilization and 
capacity building missions overseas.
    Rebalancing strategic risk also means addressing capability gaps. 
The technology advantage that we have long enjoyed has eroded, with 
significant ramifications. Interruption of our access to cyberspace 
could substantively damage our national defense and civil society. 
Addressing this threat, the President's budget for fiscal year 2009 
includes funds to reduce our cyber vulnerabilities. Likewise, freedom 
of action in Space is vital to our economic, civil, and military well 
being. We need to increase our capacity to defend our access to that 
domain. We must also address shortfalls identified by our Combatant 
Commanders in our Intelligence Surveillance and Reconnaissance sensors 
and processing infrastructure.
    Fighting and winning wars is the main mission, but deterring them 
is always preferable. This is even more the case in deterring nuclear 
threats. We now face the prospect that nuclear weapons will be employed 
against us and our allies by non-state actors and rogue states. To 
defend our Nation and assure our allies, we must enhance our capability 
to rapidly locate and destroy targets globally. We seek to improve 
conventional prompt global strike capability, further develop global 
missile defense systems, and modernize our strategic weapons systems 
and infrastructure, to include developing a Reliable Replacement 
Warhead and a conventional ballistic missile. These components of our 
``New Triad,'' together with improved intelligence and planning 
systems, will help to ensure credible deterrence across a range of 
threats in the twenty-first century strategic environment.

                     BUILDING PARTNERSHIP CAPACITY

    Building partnership capacity underpins all three of my strategic 
objectives and is an area that requires additional Congressional 
support. Unfortunately, there are serious shortfalls in the U.S. 
Government's ability to build the capacity of foreign partners--both 
within and outside DOD. The Department of Defense conducted a 
systematic review of gaps in authority and developed an omnibus bill 
called the Building Global Partnerships Act which was personally 
brokered by the Secretary of Defense with the support of the Secretary 
of State. I strongly urge Congress to enact all of these authorities.
    Foremost, DOD requires extension and expansion of its Global Train 
and Equip authority. Every single combatant commander cites this as 
DOD's most important authority to counter terrorism and to promote 
regional stability by building the capacity of partner military forces. 
These programs will not get funded or executed properly unless DOD 
funds them and collaborates with State on implementation. Over the past 
three years, all Combatant Commanders, the former Chairman of the Joint 
Chiefs of Staff, the Commandant of the Coast Guard, the Secretary of 
Defense, and the Secretary of State have requested extension, 
expansion, and funding for these programs. Now is the time to make 
Global Train and Equip authority permanent, to increase the ceiling, 
and to provide annual baseline funding.
    The Commander's Emergency Response Program has been enormously 
successful in Iraq and Afghanistan, and other Combatant Commanders have 
requested this same authority to enhance prospects for mission success 
in other regions of the world. Our commanders in the field view this as 
a critical force protection tool that allows them to shape the 
operational environment so force is not required.
    Building the security capacity of our partners is important, but 
partners often need additional assistance to promote stability. 
Stabilization and reconstruction assistance authority allows DOD to 
transfer funds to the Department of State to provide assistance to aid 
foreign police forces, to improve governance, rule of law, economic 
development or essential services, and for humanitarian assistance. 
Stabilization and reconstruction assistance authority recently allowed 
DOD and State to enhance stability in Haiti, Somalia, Nepal, Trans- 
Saharan Africa, Yemen, and Southeast Asia.
    We are in a new national security era that requires building new 
institutional capacity that does not currently exist. Most authorities 
to provide other broader forms of assistance reside at the Department 
of State, where patriotic foreign service officers and development 
professionals are doing everything they can with the force they have. 
But that force is woefully small relative to need. I support Secretary 
Rice's request for the Civilian Stabilization Initiative and ask 
Congress to enact quickly legislation authorizing its creation. I also 
strongly support the significant plus-up in people that the State 
Department and U.S. Agency for International Development are seeking in 
the President's 2009 budget as well as its request for increased 
foreign assistance funding. The increases that Secretary Rice is 
seeking in 2009 are crucial to supporting our foreign policy goals; 
under-funding these activities undermines our national security. 
Personally, I would also support the reconstitution of the U.S. 
Information Agency or an equivalent functional entity to more 
effectively counter extremist ideology. Finally, I appreciate the 
Congress' direction to study the national security interagency system, 
and will strongly support that effort.

                               CONCLUSION

    The past year saw America's men and women in uniform continue to 
engage in combat in Iraq and Afghanistan, while they also provided 
humanitarian assistance, worked with partner nations, and stood guard 
around the globe. Our Soldiers, Sailors, Airmen, Marines, and our 
Nation's Coast Guardsmen are making a positive difference. They do so 
willingly and unflinchingly. Their valor and dedication are inspiring 
and they serve this nation superbly. It is an honor to serve alongside 
them and my most solemn responsibility to represent them.
    The American Armed Forces have evolved throughout our Nation's 
history. During the nineteenth century, while our country was an 
emerging power, the norm for our military included service at either 
small army posts on the Nation's Western frontier or single ship 
patrols off whaling stations in the Pacific. Throughout the twentieth 
century, our military fought--and deterred--large scale conflicts 
against powerful competitor nation-states, or their proxies, around the 
world. Today and for the foreseeable future, we are embarked on 
something new.
    Our military challenge is to protect and preserve the American way 
of life by promoting greater global security, stability, and trust--
building up the strength of our friends, defeating violent extremists, 
and deterring regional conflicts. Our strategic environment requires 
that we have a force that is ready for operations across the range of 
military missions.
    We have yet to fully institutionalize the lessons learned 
particularly as it applies to building the capacity of partners and 
reforming the interagency. America has undertaken a staggering array of 
tasks in the past six years: securing the homeland, fighting global 
terrorism, applying a new counterinsurgency doctrine, expanding 
governance and rebuilding armed forces in shattered countries, and 
increasing our capability and capacity to assist other nations through 
a variety of material aid programs and expeditionary teams. All of 
these efforts have seen successes and setbacks. They have come at 
considerable cost to our Nation's sons and daughters, and to the 
treasure of the American people. We must do more than just document our 
lessons learned. We must accept that the future will likely require 
sustained engagement and continued operations that will focus on 
interagency and international participation. We must go beyond 
pondering and push to embed these lessons into a truly reformed 
interagency. We need continued Congressional support to make this 
imperative a reality.
    As for your Armed Forces, we need a total, joint, expeditionary 
force that is suited to irregular warfare against asymmetric threats as 
well as supporting civil authorities at home and abroad. We also need a 
large-scale total force capable of major combat operations against 
traditional nation-state foes. We cannot do it alone; our forces must 
be part of a more encompassing team that includes other federal 
departments and partner nations. We must also recognize building 
international and interagency capability will take time. In the 
interim, our superb military men and women, and their families, will 
fill the leadership role demanded of them.
    All this takes sustained, robust investment and partnership. With 
your continuing help, our military will be ready for the challenges and 
opportunities ahead. Thank you for your unwavering support in time of 
war.

    Senator Inouye. Thank you very much, Mr. Chairman.
    I would like to advise the subcommittee that because of 
time limitations, all members will have 8 minutes for 
questioning.
    Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Admiral Mullen, the Secretary has mentioned that the CERP 
funding, if my memory is correct, it was this subcommittee that 
started that with a very small amount for each commander. Now 
it is over $1 billion. Can you give us some idea what the scope 
of the projects is now in terms of how this money is handled? 
We thought it would be just a local commander, a platoon 
leader, et cetera. Now it looks like it is a fairly large 
concept.
    Admiral Mullen. Senator Stevens, I think the growth in the 
request is tied directly to the improvements in security, and 
so in the counter-insurgency strategy, when an area is provided 
more security with a joint security station--in fact, young 
captains are given certain amounts of cash to then essentially 
build projects, restart markets, build schools, and do it very, 
very rapidly. What CERP really provides--and in fact, I now see 
requests coming in from other combatant commanders--it provides 
very rapid response not just on top of the improved security, 
but in order to improve and, in fact, create projects that help 
a village or a town or a city improve, as well as provide 
salaries to local--what we call them in Iraq--Sons of Iraq, 
some 100,000 to 105,000 who are now providing their local 
security. And we have seen it grow from very small amounts and 
distributed over very wide areas. So the more security that is 
established, this has become essentially, as I indicated, the 
ammunition for success throughout Iraq where security has 
improved.
    Senator Stevens. Well, I think at another time, perhaps you 
ought to go into this because it does seem these projects have 
gotten larger and are really rebuilding damage in the war zone. 
Are there any guidelines regarding how much a commander can 
spend? Are there any guidelines as to how much he has to go to 
a senior officer before he spends over a certain amount?
    Admiral Mullen. Yes, sir. My experience in the field is it 
is allocated down again to the 2003 level and that captain in a 
certain area has a certain amount of cash to spend during a 
given quarter. And it is very carefully monitored. And I would 
differentiate where it goes in terms of projects versus 
reconstruction projects, which it is not allocated to.
    Senator Stevens. It boggles my mind a little bit to have it 
trickling down, $1.3 billion down to captains who are getting 
maybe $200 or $300. I do not follow that. This fund is building 
up and up and up. I think we ought to have a special hearing on 
it one of these days.
    Admiral Mullen. Sir, I would be more than happy to go 
through it in detail with you.

                    TROOP DEPLOYMENT AND DWELL TIMES

    Senator Stevens. Secretary Gates, I want to be short here 
because I want everyone to have a chance today. The concept of 
limiting deployments and dwell times--both of you have 
mentioned those now. When are we going to have certainty that 
they will not be changed for the next period? How many years 
will the current practice that has been announced of 1 year 
deployments and then what is it? 18 months at home? Whatever 
that time is, is this guaranteed for our troops or can it be 
changed?
    Secretary Gates. Senator Stevens, beginning with the units 
that deploy on the 1st of August, the deployment period will be 
12 months maximum, initially at least, for most units probably 
12 months at home. With the growth in the Army, particularly 
with the size of the Army and the Marine Corps, our objective 
is to get to 1 year deployed, 2 years at home. I think the 
statistics work out this way--that we will begin to get beyond 
1 year at home sometime during the course of calendar year 
2009. Our hope with the guard is 1 year deployed 4 or 5 years 
at home. And we hope to begin moving in that direction in 
fiscal year 2009 as well.
    I think that one of the surest guarantees that we will be 
able to hold to this trend of longer periods at home and 
shorter periods deployed, the 12 months deployed, is in fact 
the growth of the Army and the Marine Corps. I would say also 
that I would expect that further reductions in the presence in 
Iraq during the course of 2009 and perhaps later this year will 
also contribute significantly to meeting those goals.
    Senator Stevens. Just one clarification. When you say 12 
months deployment and then 12 months at home, does home mean 
leaving the United States? We have people from Alaska who are 
sent maybe to Louisiana and join up in a unit there. Is it 12 
months from the time they are deployed as the larger unit from 
Louisiana?
    Secretary Gates. For a Guard unit, it would be from the day 
they are mobilized they will have 1 year on active duty. For 
the active service, it is a year back at home, a year deployed 
overseas.
    Senator Stevens. Thank you.
    Thank you very much, Mr. Chairman. Appreciate it.
    Senator Inouye. Thank you.
    Senator Specter.

                           DIALOGUE WITH IRAN

    Senator Specter. Thank you, Mr. Chairman.
    Secretary Gates, we have seen that President Reagan 
identified the Soviet Union as the evil empire and shortly 
thereafter engaged in direct bilateral negotiations and very, 
very successfully. As noted before, we have seen President Bush 
authorize bilateral talks with North Korea as well as 
multilateral talks which have produced results. It is noted 
with Libya and Gaddafi the talks have produced very positive 
results. I note that there have been three rounds of bilateral 
talks where United States Ambassador Crocker has had direct 
contact with Iranian Ambassador Kazemi-Qomi. So we are not 
really saying in practice that we will not talk to them. The 
question is to what extent will we talk.
    I am very much encouraged, Mr. Secretary, by the statement 
you made on May 14 of this year that we need to figure out a 
way to develop some leverage and then sit down and talk with 
them. If there is to be a discussion, then they need something 
too. We cannot go to a discussion and be completely the 
demander with them not feeling that they need anything from us.
    Now, the position taken by the Secretary of State has been 
we will not talk to Iran unless, as a precondition, they stop 
enriching uranium. It seems to me that it is unrealistic to try 
to have discussions, but to say to the opposite party, as a 
precondition to discussions, we want the principal concession 
that we are after. Do you think it makes sense to insist on a 
concession like stopping enriching uranium, which is what our 
ultimate objective is, before we even sit down and talk to them 
on a broader range of issues?
    Secretary Gates. Well, Senator, I am not going to disagree 
with the Secretary of State.
    I would say this, though. In all three of the examples that 
you used, the United States either developed or had significant 
leverage when the talks began. President Reagan did not sit 
down with the Soviet leadership almost entirely through his 
first term, and his first meeting with Gorbachev was in 
November 1985 after the United States had embarked on a major 
arms buildup and strengthening of the United States' position 
vis-a-vis the Soviet Union.
    In the case of Libya, Gaddafi wanted to get the sanctions 
lifted that were a result of Pan Am 103 and the international 
sanctions that were applied after that.
    And the financial sanctions against North Korea created 
significant leverage that helped prompt them to come to the 
negotiating table.
    So, as I said in the statement that you read, I think the 
key here is developing leverage either through economic or 
diplomatic or military pressures on the Iranian Government so 
that they believe they must have talks with the United States 
because there is something they want from us, and that is the 
relief of the pressure.
    Senator Specter. Mr. Secretary, we had leverage in 2003 
when we were successful in Afghanistan and in Iraq, and the 
record is pretty clear that we wasted an opportunity to respond 
to their initiatives.
    So the question is, how do we find the leverage? How do we 
find economic, political, or military leverage?
    Well, is it not sensible to engage in discussions with 
somebody to try to find out what it is they are after? We sit 
apart from them and we speculate and we have all these learned 
op-ed pieces and speeches made, and we are searching for 
leverage. But would it not make sense to talk to the Iranians 
and try to find out what it is that they need as at least one 
step in the process?
    Secretary Gates. Well, Senator, I was involved in the very 
first contacts between the United States and the Islamic 
Revolutionary government of Iran in October 1979. And what has 
happened in Iran since then is--most revolutions tend to lose 
their sharp edge over time. It is one of the reasons that Mao 
launched the cultural revolution in the 1960's because he saw 
that happening in China. We saw that beginning to happen with 
the Khatami government when Khatami was president of Iran, and 
I think it was one of the things that created perhaps an 
opportunity that may or may not have been lost in 2003-2004.
    But what we have now is a resurgence of the original hard-
line views of the Islamic revolutionaries with the accession to 
power of President Ahmadinejad who was one of the students who 
occupied our embassy in November 1979. And I might add that 
happened 2 weeks after the first talks between the United 
States and the Iranian Government in Algiers where I was a 
participant.
    So the question is, do you have the kind of government in 
Iran now with whom there can be productive discussions on 
substantive issues? And I think that is an open question 
because this is a different kind of government.
    Senator Specter. So what is the answer? We only have one 
government to deal with.
    Let me put it to you very bluntly, Mr. Secretary. Is 
President Bush correct when he says that it is appeasement to 
talk to Iran?
    Secretary Gates. Well, I do not know exactly what the 
President said. I believe he said that it was appeasement to 
talk to terrorists, to negotiate with terrorists.
    Senator Specter. Well, he said on April 24--in a May 15 
address to the members of the Knesset said, ``Some seem to 
believe that we should negotiate with terrorists and 
radicals.'' He does not say specifically Iran, but I think the 
inference is unmistakable in light of the entire policy of the 
administration.
    I have 12 seconds left, Mr. Secretary, and let me thank you 
for your service. Let me note our personal relationship. We 
went to the same grade school, College Hill in Wichita, Kansas.
    And let me commend you for what I think is a very 
forthright statement you made, really gutsy. And I know you do 
not want to disagree with the Secretary of State, and I know 
you do not want to even more disagree with the President. And I 
have had an opportunity to talk to the President about it 
directly. And I believe he needs to hear more from people like 
you than from people like me, but from both of us, and that is 
it not appeasement and that the analogy to Neville Chamberlain 
is wrong.
    We have only got one government to deal with there. They 
were receptive in 2003. I have had a chance to talk to the last 
three Iranian ambassadors to the United Nations, and I think 
there is an opportunity for dialogue. But I think we have to be 
a little courageous about it and take a chance because the 
alternatives are very, very, very bleak. Thank you, Mr. 
Secretary.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Bond.

                    TACAIR AND JOINT STRIKE FIGHTER

    Senator Bond. Thank you very much, Mr. Chairman.
    Admiral Mullen, I was most interested in your discussion 
about CERP and its successes. We would like to know more about 
the fiscal accountability, but from what I have seen, it has 
made some tremendous successes. I think certainly in my mind 
there is no question about the viability of it.
    I would also call to your attention again and my 
colleagues' the fact that in Afghanistan we have National Guard 
units serving as agriculture redevelopment teams and helping 
bring what has been sometimes referred to as 18th century 
agriculture up almost to modern day and training the trainers. 
These ag units have 10 extension specialists and about 25 
guardsmen, who are their military protectors, who also happen 
to be very skilled agriculturalists. We call them ``farm boys'' 
back home. But I note that a number of States are pursuing it, 
and I commend you. I think this is a tremendous way to help 
Afghan farmers and, thus, Afghanistan get back on track.
    Now for the tougher questions. Mr. Secretary and Mr. 
Chairman, I am very much concerned about the Air Force's TACAIR 
program. Their fifth generation acquisition strategy is going 
to lead to tremendous gaps in the force structure, and it fails 
to address the impact on the industrial base. The Air Force has 
testified that there will be an 800 aircraft shortfall. We are 
falling way behind.

                                 TACAIR

    I could not believe that when the bids were taken for the 
Joint Strike Fighter, it was not a split bid. I told everybody 
that it made no sense to give the entire TACAIR production to 
one company. It has been demonstrated that that warning, 
unfortunately, was correct, and right now the Government 
Accountability Office (GAO) has reported that the F-35 costs 
are to hit $1 trillion. That is trillion with a T. We also will 
see the only competing TAC airline shut down in 2013. If we do 
not do something about developing a plan B for the Air Force, 
such as the Navy has adopted, we are going to see not enough 
aircraft for fully equipping the active or the Air National 
Guard. They are not going to have the aircraft. And it seems to 
me that it is time for the Defense Department and the Air Force 
to come up with a plan to keep upgraded legacy aircraft in 
production so that our fine pilots will have something to fly.
    What is being done about this gap? The Air Force has not 
been able to tell us.
    Admiral Mullen. I certainly, Senator Bond, share your 
concern about the tactical air community at large. Clearly, the 
new airplane that is planned on to relieve that is going to be 
the Joint Strike Fighter. It is a brand new program. It is 
actually done fairly well on schedule. As with all new 
programs, there have been challenges and will continue to be. 
Clearly, the investment on the Navy side, in terms of what has 
happened with respect to the F-18's, the investment there and 
the adaptation to the electronic warfare airplane, the Growler, 
was also I think absolutely on target.
    I have had concern for some time about how far we go with 
the F-22 program. It is a very expensive airplane. The overall 
concern was increased--at least I felt an increased level of 
concern--because of what happened with the F-15s. I mean, we 
had an F-15 literally destroy itself in flight. Old airplanes 
upwards of 25 to 30 years, which is a long time for a tactical 
jet, which certainly increased the risk about this whole TACAIR 
plan.
    That said, I think it is very important to get to the Joint 
Strike Fighter as soon as we can. The President's budget does 
not shut the line down. I have got enough background in 
programs to know that clearly there is not just a principal 
vendor piece of this that we need to be concerned about, but 
there is a supply side, lower-tier vendors that also need to be 
able to anticipate whether they are going to be in business or 
not. So the concern is there.
    There are also huge challenges just from an expense 
standpoint and from an applicability point of view. So I am 
comfortable that we at least will have the F-22 line open and 
that it is open to be determined whether that should continue 
in 2010.
    Senator Bond. Are both of you comfortable with having only 
one TACAIR source? We have seen the military time and time 
again say we need two sources, we need competing sources to 
make sure if one falls back, the other can pick it up. And 
competition does work even in military acquisition. Are you 
comfortable seeing us cut down to one source for TACAIR?
    Admiral Mullen. I would like to see as much competition as 
possible, Senator Bond. It is a decision made, as you know, 
some time ago.
    Senator Bond. And it was a bad one.
    Admiral Mullen. And it is not unique to TACAIR because we 
have made it across the entire industrial base in many, many 
areas. And that consolidation and getting us down to single 
vendors or single lines may seem wise initially, but can cost 
us down the road. So it is a decision that I am not sure I 
would call it fait accompli, but it is one that was made some 
time ago and I think we have to make the best of it--best of 
what we have to produce quality aircraft for the future.
    Senator Bond. Secretary Gates, are you comfortable with one 
TACAIR supplier?
    Secretary Gates. I think as long as we end up with aircraft 
companies that, as we go forward, you have competing companies 
so that you actually do have competition for subsequent 
fighters, for subsequent programs, I think that is where the 
competition is important, is in ensuring that we have several 
of these companies that are in a position to bid for these big 
programs.

                          JOINT STRIKE FIGHTER

    Senator Bond. Right now we are on a path not to have any, 
and you do not need to shut them down. You can solve some of 
the shortfall problems buying upgraded versions of the F-15 and 
the F-16 and maintain that.
    I would point out the Navy is looking at upgrading 350 old 
F/A-18s, the As and Ds, to 10,000 hours. You just talked about, 
Admiral, the possibility that they are starting to fall apart. 
That would cost $4 billion to $5 billion. For $4 billion to $5 
billion, with a multiyear, you could get 200 F/A-18E and Fs and 
keep the line alive. To me that makes sense. What am I missing?
    Admiral Mullen. I think it is a matter of choices. We 
actually do not have a very good history of upgrading 
airplanes.
    Senator Bond. That has been a disaster.
    Admiral Mullen. I mean, it has been difficult in budgets 
putting modernization money into tactical aircraft. So clearly, 
there is a plan to do that. And 10,000 hours is a long time on 
a jet. I think you know that, and at the same time, there has 
been a plan for some time to shut down the F/A-18 line and 
essentially transition into the Joint Strike Fighter. That has 
been the plan of record. It remains that. And I think if the 
Joint Strike Fighter gets there in some kind of timely way, 
that transition will work.
    Senator Bond. If.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you, Senator Bond.
    Senator Feinstein.

                          WILDFIRE PROTECTION

    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Secretary, I want to begin by thanking you for your 
service. I am very glad you are where you are.
    I want to begin with an easy one. There are parts of my 
State that are under threat of catastrophic fire. The Forest 
Service has committed to us that by May we would have two C-
130Js and the *MATH-2 units. We have learned we are not going 
to be getting them.
    This is a problem. We have lost 4,200 homes in the last 5 
years in the San Diego area. The nearest ones are 1,000 miles 
away, which take 24 hours to get to California. I would just 
like to ask that you look into that and that I can contact you 
and see what we might be able to do about that.
    Secretary Gates. Yes, ma'am.

                       GWOT DETAINEES/GUANTANAMO

    Senator Feinstein. Thank you very much.
    I very much agree with what Senator Specter said. I happen 
to serve on the Intelligence Committee. I have checked. To 
date, there is no contrary intelligence to the fact that Iran 
has not halted its nuclear weapons program. I believe that is a 
window of opportunity. I thought yes when I heard you make that 
speech 1 week ago.
    To the best of my knowledge, it is not the president of 
Iran that counts in these matters. It is the Supreme Leader. 
And it seems to me that we ought to find ways to develop back-
channel or front-channel discussions with this individual. I 
really think the fate of the area depends on it, and I think 
sabre rattling and talking about exercises for military 
intrusions do nothing but escalate the situation. I wanted an 
opportunity to say that.
    At this hearing last year, you said that you were looking 
at ways to close the detention facilities at Guantanamo Bay and 
that you had tasked a group inside the Pentagon to review 
options. Since then, the number of detainees has dropped to 
270. Exactly one person has been convicted. It is my 
understanding that 68 to 70 detainees can be sent back to their 
own country, about the same number charged, and about the same 
number would have to be detained for some time.
    The military commissions process has undergone numerous 
setbacks and most recently included an order by Navy Captain 
Judge Allred to remove Brigadier General Hartmann from the 
Hamdan case and the dropping of charges which Al-Khatami, the 
so-called 20th hijacker, because the evidence against him was 
coerced by torture. I was surprised to read in the New York 
Times that he is virtually senseless and the belief is it is a 
product of the interrogation he has gone through.
    My question to you is, what is the status of your Pentagon 
review and what is the status of the interagency review to 
close Guantanamo?
    Secretary Gates. Senator, I think the brutally frank answer 
is that we are stuck and we are stuck in several ways. One, as 
you suggest, there are about 70 or so detainees that we are now 
prepared to return home. The problem is that either their home 
government will not accept them or we are concerned that the 
home government will let them loose once we return them home. 
And we just had a suicide bomber outside of Mosul, I believe, 
who killed a number of people, who was a released detainee who 
had been sent home and then let go. So that is one problem we 
have.
    A second problem we have is that we just have a hard time 
figuring out--and I have talked to Members of Congress and I 
have talked to the Attorney General and I have talked to 
various people in the administration--what do you do with that 
irreducible 70 or 80 or whatever the number is who you cannot 
let loose, but will not be charged and will not be sent home.
    And that leads to the third area where we are stuck, and 
that is we have a serious not-in-my-backyard problem. I have 
not found anybody who wants these terrorists to be placed in a 
prison in their home State.
    So those three problems I think really have brought us to a 
standstill in trying to work this problem.
    Senator Feinstein. Well, I mean, on the last thing you 
said, the fact of the matter is that the Bureau of Prisons has 
maximum security facilities in isolated areas, and they are 
very maximum. It seems to me that nothing that you have said 
absolves the enormous loss of credibility we have in the eyes 
of the world being called hypocrites, that we have double laws, 
laws for some, and no laws for others. I think that is a real 
problem. It would seem to me that if there are changes in law 
that need to be made to accept some form of administrative 
detention with specific findings, that might be the case. But I 
think for the United States to have this facility--and you felt 
the same way. I have heard you say it----
    Secretary Gates. I still do.
    Senator Feinstein.--in this very chair----
    Secretary Gates. And still do.

                         EMERGENCY SUPPLEMENTAL

    Senator Feinstein.--that you were opposed to Guantanamo, 
that you wanted it shut down. And it is going to take, I think, 
some innovation to do it, but there are many of us in this 
Congress that would like to work with you on it.
    Now, if I might just move on. I am puzzled by this 
emergency supplemental. The Congressional Research Service 
(CRS) apparently says that if you request and Congress approves 
additional transfers of funds to the Army to meet its personnel 
and operational expenses, the Army could finance those needs 
with current funding through July. Also, if DOD receives the 
2009 bridge funds, I am told that DOD could finance war costs 
until June or July 2009. So it is less clear to me why the 
passage of a $70 billion 2009 bridge fund is urgent at this 
time, particularly given that funding for next year is less 
clear.
    If Congress approves the monies requested in its regular 
budget for military personnel and O&M and uses the $5 billion 
in transfer authority requested for 2009, my question is this. 
How long could the Army and Marine Corps, the services most 
taxed by war needs, finance war costs without passage of a 
supplemental, assuming that the five additional brigade combat 
teams brought in for the surge are brought home by the end of 
2008?
    Secretary Gates. Well, first of all, your statements about 
the fiscal year 2008 supplemental, in terms of when we run out 
and how long we could run, both of them being until late July, 
are both correct. And that is what we will do if the 
supplemental does not pass this week. We will begin to draw 
down the Navy and Air Force military pay accounts for 
transferring to the Army. So that will turn out as you just 
described.
    For fiscal year 2009, the problem that I have, Senator, is 
that the combination of delays in the supplementals and 
continuing resolutions has really thrown managing the 
Department out of whack. It is costing the taxpayers money. It 
disrupts programs. It creates enormous problems just from a 
management standpoint because we are always kind of borrowing 
from Peter to pay Paul, and it is very difficult to do a lot of 
things in terms of long-range planning.
    So the notion of having to borrow from the base budget in 
2009 to pay war costs--I mean, we probably could make it work 
for a number of months. But the question is what kind of a 
disruption does that do to all the procurement programs, to 
military expectations because various things get wrapped into 
these supplementals. We have money for barracks. We have money 
for day care centers. We have money for training and equipping, 
for reconstituting the force. And all that money has to come 
from some place. And so the absence of a supplemental to help 
pay for those is just enormously disruptive and creates real 
problems for our troops.
    So can we technically get through some part of fiscal year 
2009 without a supplemental? Probably so. But the question is 
at what cost.
    Senator Feinstein. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

                           DIALOGUE WITH IRAN

    Secretary Gates, when Senator Specter spoke to you about 
2003 and the Iranians, there has been a lot in the press about 
their inquiries to us shortly after we went into Iraq. Did we 
make a mistake in not negotiating with them then?
    Secretary Gates. I think this was something that sort of 
tangentially the Iraq Study Group looked at a bit, and I must 
say as did the Council on Foreign Relations task force on U.S. 
relations with Iran that Dr. Brzezinski and I co-chaired in 
2004.
    As I said in the comments last week that Senator Specter 
quoted, at a time when we had overthrown the Taliban and when 
we had overthrown Saddam Hussein, the Iranians clearly were 
very concerned about what we might do next in 2003-2004. And 
you did have a different government there. There was evidence 
that the Iranian Government was doing some things that were 
helpful in Iraq at the same time they were doing some things 
that were not helpful. And what I said last week was it was a 
matter for the historians to look at whether there was a missed 
opportunity around----
    Senator Leahy. Well, that is your view? What is your view? 
You were not here at the time, but you have looked at this.
    Secretary Gates. I was in a happier place.
    Senator Leahy. I understand. I complimented you on being 
willing to leave that.
    You looked at it more than probably anybody else in this 
room. Was an opportunity lost?
    Secretary Gates. You know, the honest answer is I really do 
not know. I mentioned earlier about being in that meeting in 
1979 with Brzezinski, the first meeting with the Iranian 
Government, the prime minister, the defense minister, and 
foreign minister. And I tell people that since October 1979, I 
have been on a quest for the illusive Iranian moderate, and I 
have not found one yet. So the question of whether there was a 
real opportunity, whether it was a strategic opportunity or a 
tactical opportunity, I just do not know. I know that the 
administration was, in fact, having talks with the Iranians at 
that time on a wide range of issues, and I have forgotten why 
those talks were called off. But that may have been an 
opportunity.
    Senator Leahy. Our Government also for years worked 
directly and indirectly with Saddam Hussein, no leading 
moderate he, with the idea that this was a counterbalance to 
Iran. Am I overstating that?
    Secretary Gates. As I recall, particularly the first years 
of the 1980's, the reality is that at one time or another, we 
worked with both Iran and Iraq to make sure that neither one of 
them won the war.
    Senator Leahy. Well, it will be interesting if Iran would 
be anywhere near this influential if oil was still $40 a barrel 
and if the American dollar had not tanked as much as it has.

                       HOMELAND DEFENSE SPENDING

    Secretary Gates, you gave some remarks about your 
priorities in the remaining time in your position. I would 
submit there is a realm of the defense bureaucracy that needs a 
lot of attention. That's the realm of military support to 
civilian authorities in domestic emergencies. We need to make 
sure the military promptly responds to disasters at home. 
Senator Feinstein, of course, represents the largest State in 
population in the Senate and has raised that very clearly. We 
know if a major emergency occurs, whether it is something as 
terrible as the earthquakes that California has faced or God 
forbid, another terrorist attack, the military is going to have 
to be there to support civilian authorities.
    I think we have to have clear budget requests about what 
the Department of Defense is doing to purchase homeland 
defense-oriented equipment. I do not see it in the budget 
request. The Nation's Governors need concrete procedures in 
place to assure that active military personnel that arrive will 
not try to somehow usurp the authority, the Governors' 
authorities. They have not received that. We know back here a 
couple years ago it was slipped into the defense bill a 
provision, which was then repealed, that would have overridden 
Governors' authorities in an unprecedented way.
    We would like to know the Department has plans to implement 
the recently enacted provisions from the National Guard 
Empowerment Act. We have not seen that.
    I would hope you would have time to personally engage in 
this area, Mr. Secretary, before you leave. I mean, we have 
given you enough things to personally engage in to take care of 
the next 12 years of your few months left. But please 
personally engage in that because whether it is coming from a 
little State like mine or a large State of California, we have 
a concern.
    Secretary Gates. Senator, first of all, I am very 
positively inclined toward many of the recommendations of the 
Punaro Commission. I think that was indicated by the fact that 
in their interim report last year, they made 23 
recommendations. We implemented 20 of those 23 recommendations. 
We are in the midst of looking at the 95 recommendations that 
are made in the final report. But I think the fact that we 
leaned forward on the interim report, in terms of implementing 
the recommendations, is indicative of an open attitude toward 
trying to do the right thing.
    Senator Leahy. Well, I should note at this point Admiral 
Mullen spent a great deal of time in my office. He was very 
direct, very forthcoming. And Admiral, I do appreciate that 
meeting. It meant a great deal to me. It was very helpful in 
looking at this. I know it is being looked at.
    I am concerned we see a $10 billion shortfall in the Army's 
long-range budget. The Air National Guard listed $8 billion of 
critically needed upgrades. The Department of Defense metric 
has equipment stocks, the nationwide average, of 60 percent of 
required stocks.
    And I realize a great amount of attention goes to Iraq and 
Afghanistan. I am concerned that we have an equal amount of 
attention here inside the United States because of the things 
that we can face here.
    Secretary Gates. I will tell you, Senator Leahy, I have 
been paying attention to it. We had a 40 percent equipment fill 
for the guard in 2006. It was 49 percent at the end of 2007. It 
will be, as you suggest, by the end of this fiscal year, about 
60 to 65 percent. Over the next 24 months, we will put more 
than $17 billion into National Guard equipment, 16,000 trucks, 
helicopters, the full range of equipment.
    Senator Leahy. But a lot of these things have been gone. I 
mean, I look at my own State where our Mountain Brigade has 
just been alerted for 2010 to go to Afghanistan, joining with 
the military there. And we have a lot of friends in 
Afghanistan, but I see a resurgent Taliban. And I wonder how 
much we are going to have to divert to go there. Do we see any 
light at the end of the tunnel in Afghanistan?
    Are you as concerned about the resurgent Taliban as I am?
    Secretary Gates. Yes, sir, I am. I do not see a diversion 
of National Guard equipment to Afghanistan, though. And I would 
tell you----
    Senator Leahy. But National Guard members are going there.
    Secretary Gates. National Guard members.
    But one of the things that helps us a lot and that we saw 
in the tornadoes in Kansas that destroyed Greensburg was most 
States have agreements with the Guard--with the States that are 
their neighbors in terms of being able to pool equipment when 
units are deployed overseas or are not available. And it is 
that pooling that has a multiplying effect in terms of being 
able to meet the domestic need.
    Senator Leahy. I realize, but we saw, as in Katrina, 
sometimes it could take a long time to get that equipment 
there.
    Mr. Chairman, thank you very much.
    But again, I join in the praise of Secretary Gates. We have 
known each other for 25 years at least and have worked together 
on a number of issues.
    And Admiral Mullen, I thank you again. You took a great 
deal of your time to meet with me and Daniel Ginsberg and 
others the other day, and that meant a lot to me.
    Senator Inouye. Thank you.
    Senator Dorgan.

                              CONTRACTORS

    Senator Dorgan. Mr. Chairman, thank you very much. I have 
five questions I wanted to ask and we will see if we can get 
them done.
    First, I was embarrassed and I assume the Defense 
Department was by the Boston Globe article that said Kellogg, 
Brown & Root (KBR) had 10,500 Americans working in Iraq for 
KBR, but they were not listed as employees for the Houston-
based company. They were employed by a Cayman subsidiary that 
is listed at post office box 847 on Shedded Road in the Grand 
Cayman Islands. They pay $1,000 a year for the post office. No 
one is there and there is no telephone.
    In addition, AIP, which is a contractor, MPRI, which is a 
contractor--all three of these folks are hiring United States 
workers and running their employment through Cayman Island 
subsidiaries to avoid paying United States taxes. The Kellogg, 
Brown & Root spokesperson said they were set up ``in order to 
allow us to reduce certain tax obligations of the company and 
its employees.''
    And the Defense Department says it has known since 2004 
that KBR was avoiding taxes by declaring its American workers 
as employees to the Cayman Islands. Officials from the Defense 
Department said the move allowed KBR to perform the work more 
cheaply.
    Frankly, I think this sort of thing is embarrassing, and I 
put something in the supplemental that would shut this down, 
but I would hope, Mr. Secretary, you would tomorrow just 
describe a rule in DOD that if you are not going to pay your 
taxes, do not bother contracting with us. If you are going to 
run your employees through sham companies in the Cayman Islands 
and you want to do business with the Federal Government but do 
not want to pay your obligation to the Federal Government, do 
not bother coming around.
    Secretary Gates. Senator, first of all, I would tell you 
that I was embarrassed to learn in preparing for this hearing 
that you had written me about this and particularly the KBR 
issue on the 1st of April and I have not responded to you yet. 
I will within the next 48 hours.
    My understanding very briefly of a fairly complicated 
matter is that our regulations are derived from the tax code, 
and one of the reasons, I am told, that I have not gotten a 
letter to sign back to you is that our auditors have been 
trying to work with the Internal Revenue Services (IRS) in 
terms of figuring out the right answer to your question. So 
they are working on that, and I will get you an answer.
    Senator Dorgan. Well, all right. I mean, I think Congress 
will eventually find an answer to this, to say this is 
disgraceful and it is has got to stop. I would hope that you 
could do that by regulation instantly. But----
    Secretary Gates. My understanding is when we think somebody 
is inappropriately using the tax code to benefit themselves, we 
have our Defense Contract Audit Agency taking a look at it, and 
my understanding is they are looking at this at this point.

                      IRAQ SECURITY FORCE FUNDING

    Senator Dorgan. There are $2.5 billion in the supplemental 
for Iraq security forces fund training. That is the training 
and equipping of Iraq's security forces. Iraq has earned one-
third more money than was expected 2004 to 2007 from oil 
revenues. They will earn $70 billion this year. At some point, 
after we have spent close to $20 billion of American taxpayers' 
money training over 400,000 Iraqis for security police, 
soldiers, is it not time that the Iraqis perhaps would spend 
their money for training their troops and equipping their 
troops?
    Secretary Gates. Well, Senator, they are. In 2008, in 
fiscal year 2008, they will spend $9 billion compared to our $3 
billion. The trend line I think is in a direction that you 
would like. We were at $5.5 billion and helping them on 
training and equipping in 2007, down to $3 billion in 2008, and 
it will be $2 billion in 2009. So I think we are headed in the 
right direction.
    I would say that we need to scale this down gradually, 
though, so we can keep an oar in in terms of the quality and in 
terms of making sure that the training is of the kind that we 
want to make sure that they have. And they are beginning to 
move from our giving them equipment to making use of foreign 
military sales.
    Senator Dorgan. I understand the trend line. I appreciate 
that. It is the case that on this $2.5 billion we are going to 
borrow that from somebody and ante up when, in fact, the Iraqis 
are producing a great deal of oil money they did not previously 
expect. I would hope that we would ask them to do even more 
rather than just deal with trend lines.

                                  UAVS

    I want to mention--and I will not ask you about this, but 
the executive agency responsibility for unmanned aerial 
vehicles (UAVs). One of my great concerns--the fact is there is 
waste in the Pentagon. We all know that. A lot of waste in some 
cases. The services want to do exactly the same thing. The Air 
Force has UAVs. The Army has UAVs. The Air Force is producing 
their planes. The Army is producing their planes. The Army 
wants to control their airplanes at 12,000 and 15,000 feet as 
opposed to just tactical control over the battlefield, and it 
seems to me that probably ought to be the Air Force.
    And I understand from an executive agency matter, you have 
described a task force here. I further understand that one of 
my colleagues has put a little piece in a bill last year that 
prevents you from doing anything on this.
    But should we not try to avoid this kind of duplication of 
effort by the services? It has gone on forever and continues to 
go on, especially now with respect to UAVs.
    Secretary Gates. Well, I think that, first of all, this is 
an area where I have spent quite a bit of time over the last 
few months principally in an effort to try and get more 
intelligence surveillance and reconnaissance into Iraq and 
Afghanistan to help the commanders.
    The reality is I think that there are a number of 
bureaucratic problems inside the Department of Defense having 
to do with ISR. And one of my hopes is that after the task 
force has finished its work, we can sit back and look at the 
whole range of UAVs and other ISR capabilities and see the best 
way to organize this thing.
    Senator Dorgan. Well, I appreciate your work on that. We 
have got to avoid this kind of duplication. Each service wants 
to do it. It does not matter what is right for the taxpayer. 
They want to do what the other service does.

                            OSAMA BIN LADEN

    I want to ask you about bin Laden. Admiral Mullen talked 
about the most likely near-term attack on the United States 
will come from al Qaeda via these safe havens. You know, I have 
asked these questions before, but we are talking about 140,000 
soldiers in Iraq now beyond the surge. We are talking about 
borrowing a lot of money, another $102 billion in the 
supplemental, and then $500 billion plus in--and the fact is 
Osama bin Laden is reconstituting his training camps. 
Apparently he is in northern Pakistan or somewhere. And we are 
busy in Iraq when in fact the greatest threat of an attack 
against our country comes from al Qaeda. Is there a disconnect 
here?

                          ATTACK AFTER 7 YEARS

    Tell me what we are doing. I have asked this question 
repeatedly. What are we doing 7 years after our country was 
attacked by those who boasted about the attack to bring them to 
justice because they, in fact, are reconstituting their 
training camps and reorganizing. It seems to me that is a 
failure. And I do not lay that just at your feet. I am just 
saying my observation is here we are spending a lot of money 
and engaged in an area that is apart from what Admiral Mullen 
has described as the greatest threat to our homeland.
    Admiral Mullen. And I would just reiterate it is still my 
belief that if another attack comes, that it will emanate from 
the planning there because that is where the al Qaeda 
leadership is. It is a very difficult problem because this is 
sovereign territory. It is my belief--and we talk often, as we 
should, about Afghanistan, but we need to talk about 
Afghanistan and Pakistan because there is an overlap there. 
There is a border across which, obviously, Taliban come. And I 
think we need a strategy that essentially addresses both those 
countries together, particularly the overlap.
    We have got a new government in Pakistan. It is my belief 
we have got to deal with that government. My individual I deal 
with in Pakistan is the head of the army there, General Kiani, 
who I think has got a strategic view, but it is going to take 
him a while. He is in charge of an army that has not been 
fighting counter-insurgency.
    I think it is a long-term effort clearly and that there are 
some near-term things that we need to do and some things we are 
doing to address it. But it is a very, very difficult problem.
    Senator Dorgan. I would just observe--my time has ended--if 
the greatest threat to this country--an attack against this 
country is shielded by the sovereignty of some other place on 
this globe, there is something wrong with that. There ought not 
be one acre of ground that is safe to walk for Osama bin Laden, 
not an acre anywhere.
    Finally, if I might just in 10 seconds say, Mr. Secretary, 
I am going to send you some information in a letter about the 
issue of privatizing housing on bases. They are fixing to do 
that in two North Dakota bases and turn over brand new housing 
to a private contractor who will then guarantee for 50 years to 
maintain. I have great difficulty with that, and I am going to 
ask a series of questions.
    Having said all that, let me thank you for your service, 
both of you. I was asking questions that were on my mind, but I 
think this subcommittee appreciates the service that both of 
you provide this country. Thank you very much.
    Senator Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Secretary, all of you, thank you so much for appearing 
today.

            FUTURE OF WEAPONS SYSTEMS AND ACQUISITION COSTS

    Mr. Secretary, there are a lot of important issues before 
us, but I want to focus first on the future of our military and 
the weapons platforms that they use. As you are aware, I have 
been particularly concerned about the KC-135 recapitalization 
effort, how the RFP and the evaluation of those proposals were 
handled. I have had meetings and asked questions of the Air 
Force, the National Guard, the Air Force Reserve, and members 
of your staff regarding cost and process. And I have to tell 
you I am still not satisfied.
    Last Tuesday, Mr. Secretary, you did speak to the Heritage 
Foundation, and I want to quote back to you what you said. You 
said, ``The perennial procurement cycle, going back many 
decades, of adding layer upon layer of cost and complexity onto 
fewer and fewer platforms that take longer and longer to build 
must come to an end. Without a fundamental change in this 
dynamic, it will be difficult to sustain support for these 
kinds of weapons programs in the future.''
    Now, I think you and I share a similar perspective on that 
issue. However, I would like you today to comment on concerns 
that were raised by the GAO in a couple of their reports. The 
first one was from March 6 of last year, titled ``Air Force 
Decision to Include a Passenger and Cargo Capability in its 
Replacement Fueling Aircraft was Made Without Required 
Analysis.'' The second from January of this year is titled 
``KC-135 Recapitalization Analysis of Alternatives Does Not 
Inform Decision-Makers Regarding Cost, Effectiveness, and 
Suitability.''
    So it seems to me from the beginning the Air Force and DOD 
are part of the problem that you have identified by adding 
requirements to a refueling tanker without the mandatory 
analysis. Do you have a comment on that?
    Secretary Gates. The only comment that I would make, 
because I am far from expert on this subject, is that I look 
forward to the completion of the GAO response to the protest 
that was filed to see how they come out on it.
    Senator Murray. Well, it is a problem for me that the Air 
Force did not complete the mandatory analysis and the JROC 
determined that that was okay. So I hope you take a look at 
that.
    And one of the reasons that that analysis is mandatory is 
to prevent purchasing a platform with capability that may not 
be needed. Now, we are talking about a $35 billion platform, 
and although I am being told that it was the most transparent, 
I remain unconvinced because that process was flawed on 
thorough evaluation of military construction, necessary 
maintenance staff, and fuel costs.
    How am I supposed to believe that this program is going to 
be on time and on cost if we do not have a fundamental sense 
and justification for what we are buying?
    Secretary Gates. Well, again, Senator, I am just not 
familiar enough with the details. At this point I think I just 
have to wait for the GAO report--investigation to see what 
their conclusions are on it.
    Senator Murray. Can you give me any sense that this 
program, unlike others, is not going to go over budget and miss 
deadlines because we have not fully evaluated all the costs?
    Secretary Gates. I think a Secretary of Defense who would 
give you an assurance like that prospectively would be on very 
thin ice. I think that happens to so many programs. I mean, it 
is one of the problems in acquisition that we have and that we 
are trying to deal with, frankly.
    Senator Murray. Well, I am worried that the acquisition 
process in general is not serving our needs. I have heard again 
and again that only cost, technology, and capability can be 
considered in an acquisition. You know, perhaps that is not 
enough.
    At the same Heritage Foundation event, you were quoted in 
the Washington Post, I think it was, as saying, ``I believe 
that any major weapons program, in order to remain viable, will 
have to show some utility and relevance to the kind of 
irregular campaigns that I mentioned are most likely to engage 
America's military in coming decades.''
    Now, I have to say I am deeply concerned that the EADS 
platform has a lower score on survivability than the Boeing 
767. Should we not be buying the most survivable tanker? I 
mean, should that not be a higher consideration?
    Secretary Gates. Well, again, I am no expert on this, but I 
would say that just based on our experience, after 5 years of 
war in Iraq, that survivability of our tankers has not been a 
particular problem.
    Senator Murray. Well, let me ask you, do you think we need 
to make changes in the way we do acquisitions to take into 
account everything that is important?
    Secretary Gates. You know, you have quoted the three 
criteria that limit us by law in terms of what we can look at: 
technology, cost, and capability. And the law is very explicit, 
as I understand, that we cannot look at anything else. So the 
only way to correct that would be to change the law.
    But my only caution in changing the law is that all of our 
companies sell a lot of equipment to other countries, and so I 
think we need to be very careful about how we limit access in 
bidding and the criteria we take into account because what we 
gain over here we may lose over there.
    Senator Murray. Well, is it possible--I mean, should we as 
Congress be thinking about the fact that in trying to give our 
warfighters the lowest price possible that we could, in fact, 
be undercutting our own ability to protect our country in the 
future? Should we ever take that into account?
    Secretary Gates. Well, my personal view would be anything 
that affects our long-term national security should be taken 
into account, but as I say, in this particular case, that would 
require a change in the law.
    Senator Murray. Well, as you said, you can only take into 
account cost, capability, and technology, but in Congress, we 
have to take a lot wider purview. We have a duty to do what DOD 
cannot do. We have to look at unfair competition. We have to 
look at the impact of companies who are using illegal means to 
break into the U.S. defense and commercial markets. We have to 
look at the long-term security of the United States. We have to 
look at our industrial base. We have to look at the industrial 
capability of our country far into the future. We have to make 
sure we have a level playing field. In regard to subsidies, 
Barry amendment compliance, all of that. We have to ask if that 
is coming at a cost to our domestic companies.
    So when DOD is limited to just three narrow things, I fear 
that we are handicapping the U.S. industrial base in the 
future. Is that a concern that Congress should be looking at 
from your point of view?
    Secretary Gates. Well, I think I have had a concern about 
our industrial base, particularly for defense and intelligence, 
for about 20 years now, and I think that the consolidation of 
industry and the fewer and fewer companies that are able to bid 
on and produce what we need is a concern.
    Senator Murray. Well, I share that concern, and I know you 
have a close association with higher education. Attracting 
workers into a dynamic field is critically important. In our 
aerospace industry, we need engineers and mechanics and a whole 
range of people thinking into the future. We have to have an 
aerospace industry here that is strong if we want to attract 
people into that field. I would assume you would agree with 
that as well.
    Secretary Gates. Yes.
    Senator Murray. Well, I have a lot of questions about this, 
Mr. Secretary, and some deep concerns, and I hope at some time 
you and I can have a more private conversation about that and 
the acquisition process and what we as Congress have to be 
thinking about and looking at into the future.
    And I only have a second left. I did want to thank you for 
following up last year. We talked about traumatic brain injury 
and making sure that we are tracking our soldiers better. I do 
want you to know we did have a hearing recently with the 
National Guard and there was a young soldier in the audience 
who I asked if he had been tracked. He was in the vicinity of 
two major explosions. And no one had ever asked him. And I just 
want to make sure that we follow up and are doing what you are 
trying to do in the National Guard and Reserve as well to make 
sure that we do not lose those folks when they come home.
    Secretary Gates. Absolutely.
    Senator Murray. Thank you, Mr. Secretary.
    Senator Inouye. Thank you very much.
    Senator Cochran.

                          DOD FINANCIAL STATUS

    Senator Cochran. Mr. Chairman. Secretary Gates, Admiral 
Mullen, thank you very much for your cooperation with our 
committee being here to testify in support of the request for 
supplemental funding.
    In preparation for the hearing, my very able staff provided 
me with information about your dealings with the House 
Appropriations Committee and other committees here in the 
Congress on the subject of adequacy of funding for critical 
programs and challenges that we face in Iraq and elsewhere, our 
overall needs to protect the security interests of our country. 
And I am alarmed by some of the conclusions that I drew from 
this information. I am asking this in the form of a question 
for you to confirm or explain these conclusions that I have 
reached in looking through my briefing papers.
    The Army will run out of personnel funds by mid-June. 
Reprogramming actions will be initiated next week to borrow 
from the other services, but all services will run out of 
military personnel funds by late July. The Army will run out of 
operation and maintenance funds by early July, including funds 
for civilian personnel. Reprogramming will allow operations to 
continue until late July.
    The critical commander's emergency response program is used 
to fund local projects in Iraq and Afghanistan, and it will run 
out of funds in June. And reprogramming actions cannot be taken 
to extend this account.
    Added to this is an observation that we drew from comments 
that have been made by leaders of the subcommittee over on the 
House side that there is a likelihood that consideration of the 
fiscal year 2009 defense appropriations bill may be deferred. I 
wonder what your conclusions would be about the impact that 
would have on the Defense Department in terms of its fiscal 
year 2009 appropriations bill not being passed.
    Secretary Gates, would you like the first crack at that?
    Secretary Gates. Yes, let me start and then turn it over to 
Admiral Mullen.
    First of all, on all of the information with respect to 
what happens in the absence of the fiscal year 2008 
supplemental, war on terror supplemental, what you said is 
exactly right. All of those things will happen just as you 
described them.
    With respect to fiscal year 2009, I must say I was very 
concerned when I read that there may not be a fiscal year 2009 
base budget because--let me just give you a few examples of the 
consequences of a continuing resolution for fiscal year 2009 
for us.
    First of all, we would lose nearly $9 billion, $8.7 
billion, for growing the Army and the Marine Corps. So since we 
can only spend under a continuing resolution in 2009 what we 
spent in 2008, the $8.7 billion additional dollars we need for 
growing the Army and the Marine Corps we would lose.
    We would lose $246 million additional we need to stand up 
the Africa Command.
    We would lose $1.8 billion for base realignment and closure 
(BRAC) which includes barracks, day care centers, family 
facilities, and so on.
    We would lose $1 billion on search and rescue and mobility. 
We have 14 UAVs, Predators, that represent new money in the 
2009 budget, and that we would not have access to as a result 
of a continuing resolution.
    And the list goes on and on. Anything in which there is 
more money in the budget for reconstitution, for rebuilding our 
forces, for improving readiness, any increment between the 2008 
and 2009 budget would be lost under a continuing resolution. So 
a continuing resolution of some length of time would be a real 
problem for you.
    And I will give you an example of the result of this. In 
fiscal year 2007, we did not get the supplemental until May. 
That supplemental had significant dollars in it for BRAC, and 
we then had 4 months to contract and obligate that money out of 
an entire fiscal year. So we lost about $500 million, not to 
mention 8 months in terms of meeting the BRAC statutory 
deadline. So the consequences of these continuing resolutions 
are real for us in the way we manage the Department.
    Senator Cochran. Thank you.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join the members of the 
committee in welcoming Secretary Gates and Admiral Mullen to 
this hearing.
    The witnesses represent over 3 million active duty, 
National Guard and Reserve forces, and civilian employees with 
a presence in over 160 countries around the world many of whom 
have been deployed in the Global War on Terrorism since 
October, 2001.
    Our Armed Forces have also been engaged in humanitarian 
operations in places like Central America, Bangladesh, the Horn 
of Africa, and more recently, the storm ravaged areas of Burma 
and earthquake stricken region of China. I remain proud of our 
men and women who serve in the Armed Forces and the impact they 
have as a force for democracy around the world.
    Secretary Gates, in your written testimony, you mention the 
immediate need for Supplemental Appropriations funding to 
support our men and women in uniform as they perform their 
missions in Afghanistan, Iraq, and the Global War on Terrorism. 
As you know, last week the full Appropriations Committee 
approved Supplemental Appropriations funding for fiscal years 
2008 and 2009, and we are currently considering this 
legislation on the Senate floor--I hope for quick passage.
    Thank you for your leadership and continued service to our 
country and our men and women in uniform.

                               IRAQ TRIPS

    Senator Inouye. Admiral Mullen.
    Admiral Mullen. Doable as the Secretary has previously 
indicated, but consequences of great significance. I will speak 
to two examples.
    In my last two trips to Iraq, I am at a joint security 
station in Baghdad with a young captain who is--and this is 
February timeframe--who has provided the security and has 
essentially allocated all of his CERP money, his emergency 
response money, for the quarter, by the end of March. Now, that 
is as a result of the needle valve that the commanders in Iraq 
were applying because of both authority as well as the funds 
which were due to run out. So the extension of the security 
environment into the area to put Iraqi civilians to work in 
terms of security and to fund local projects, which would 
improve the future of Iraqi citizens, was essentially on hold 
as early as February in this one place.
    Not too long after that, I was with the 3rd Division 
commander who has done extraordinary work, General Rick Lynch, 
and the only thing he asked me about, given what he has done 
from a security standpoint, is he needs that money because he 
has got to fund the security forces, the Iraqi civilians, as 
well as the projects. He had had great success with it. So that 
is real impact on the ground to get where we need to go.
    And then back here, only to re-emphasize what the Secretary 
said, as a former service chief, who has had to go through 
multiple reprogrammings, deadlines like this, it brings the 
organization almost to a halt, and then when you get to 
execute, you execute very inefficient, very late contracts 
which, in fact, is a significant waste of money. Everybody in 
DOD, and particularly the services, start to anticipate not 
having the money. Even knowing it may come, if it comes late, 
it has a devastating impact on the ability to execute, not even 
to speak to new programs similar to what the Secretary has 
spoken to in terms of what would happen in 2009 on a continuing 
resolution.
    Senator Cochran. Well, thank you very much. It grieves me 
to have to acknowledge that we have met the enemy and he is us, 
the old line from Pogo, I think. And I worry that the Congress 
is becoming an impediment to the efficiency and to the 
capability of our Government and our Department of Defense 
particularly and our challenge to protect the security of our 
troops who are put in harm's way and sent on dangerous missions 
and others we are trying to train and get them prepared to take 
over other responsibilities for national security. And all of 
us are going to be at risk in some way because of the slowdown 
and slow-walking of the appropriations process by the United 
States Congress. I think it is unfortunate, but I am afraid it 
is real.
    So your being here and your helping to explain the 
practicalities of our delays is appreciated very much and your 
leadership is deeply appreciated as well. Thank you.
    Senator Inouye. I thank you very much.

                          DRAFT REINSTITUTION

    I realize the time constraints, so I will ask one question, 
the question that no one wants to ask, and I will submit the 
rest to you, Mr. Chairman and Mr. Secretary.
    Mr. Secretary, between 2000 and 2006, military personnel 
compensation costs increased by 32 percent for active duty and 
47 percent for Reserve personnel. We are now spending about 
$180 billion a year on pay, benefits, and healthcare for our 
armed forces. And according to the GAO, this equates to 
$126,000 per service member.
    And my question is, is the cost of maintaining an all-
volunteer force becoming unsustainable, and second, do we need 
to consider reinstituting the draft?
    Secretary Gates. Let me answer and then invite Admiral 
Mullen to answer.
    I think that your commanders would tell you that this is 
the finest Army the United States has ever fielded, 
particularly the Army, but all of the services in terms of 
quality, in terms of resilience, in terms of dedication, and in 
terms of skill.

                            VOLUNTEER FORCE

    I think that there is no question that it is expensive. 
When I was in Ukraine a few months ago, they told me they were 
thinking about going to a volunteer force, and I said, well, 
you better think carefully about it because it will be very 
expensive. And one of the huge differences between a volunteer 
force and a conscription force is the attention that must be 
paid to families and taking care of families of soldiers, 
whether they are deployed or not, and making sure that the 
families have access to the kind of services and so on. So it 
is not just the soldiers.
    I would tell you that I personally believe that it is worth 
the cost, and I think that in some ways the burden--I do not 
know the demographics specifically, but just as an example, I 
know that there are a number of Members of Congress who have 
sons and daughters in the military. There are sons and 
daughters of well-to-do families from across the country who 
are in our military. So I think that it does encompass a 
socioeconomic range in the country so that we do not have just 
one slice of the society that is serving.
    I think that it would be a real problem to try and go back 
to the draft.
    Admiral Mullen. The military with whom I serve now is the 
finest military by orders of magnitude that I believe we have 
ever had and certainly by direct comparison of when I was 
commissioned in 1968. And I believe the single biggest reason 
for that has been the fact that we have gone to an all-
volunteer force, and they emanate excellence in everything that 
they do. This is the most critical investment that we make in 
terms of the Department of Defense in our people.
    That said, your citing of those statistics is of great 
concern to me because a future that argues for or, in fact, 
results in the continuous escalation of those costs does not 
bode well for a military of this size. Eventually--I mean, 
there are limits which we will hit and the constraints that 
exist will force us to a smaller military or force us away from 
any kind of modernization or programs that we need for the 
future or curtail operations. And I think this issue, which is 
such a challenging one, is the top issue with which we need to 
come to grips not just in the near term but in the long term. 
This was cited as well by Arnold Punaro in his report.
    And our military and our families have been incredibly well 
supported. The overall compensation package since the mid-90's 
has gone up dramatically and rightfully so, and nobody knows 
that better than you. We must continue to take care of them and 
at the same time look at how we address this issue long term 
because we cannot--I do not see us as a country being able to 
afford the kind of cost increase at the rate they have occurred 
over the last several years, as you have quoted. That said, we 
have got to have this right for our people or essentially we 
will not have a military to support our national security 
efforts.
    Secretary Gates. Mr. Chairman, let me go back to an issue 
that you raised in your opening statement because it is one 
area that not only concerns us but where we believe we have to 
get it under control, and that is the cost of healthcare. 
Healthcare costs in the military for the Department of Defense 
have gone from about $19.5 billion in 2001 to $42.8 billion for 
fiscal year 2009. By fiscal year 2011, 65 percent of the people 
being served by that budget item will be retirees. Now, the 
problem is many of those are still working retirees. They are 
retired from the military, but they are in reasonably good 
health or very good health and they are working another job.
    And we have not had an increase in the premium, in what the 
service member pays for TRICARE, since the program was 
initiated. It has been a real issue here on the Hill, but it is 
one of those areas where, as you mentioned, we have over a $1 
billion hole in the budget because we keep hoping, as the 
Commission on Military Medicine recommended, that we can get 
agreement to make some modest increase in the TRICARE premium 
for those who are not yet at retirement age, 65 or 62 or 
whatever it is. And so this is an area where we may be able to 
have some kind of impact on those dramatically rising costs 
without impinging on those who are in the service today.
    Senator Inouye. Thank you very much.
    Senator Domenici.

                   REDUCING DEPENDENCE ON FOREIGN OIL

    Senator Domenici. Thank you very much. First of all, Mr. 
Chairman, I apologize for being late. I had three hearings and 
I was very insistent that I make this hearing, as I have tried.
    Let me talk about a subject that I have asked my staff 
about and it has not been broached today, so I will not 
duplicate. Two of my other issues have already been addressed 
and I will not ask about them.
    But let me ask both the Secretary and the Chairman if they 
could talk a minute about the fact that our country is so 
dependent upon foreign oil or foreign energy for our very 
existence, including the existence of our military. We now 
import over 65 percent of what we use. At the same time, we are 
trying very hard to develop alternative sources of energy. Of 
those alternatives, some have to do with the development of new 
technologies and new innovations like--I will just give you an 
example--converting oil shale up in Colorado and Utah to diesel 
fuel at the minimum and then to perfect it even further.
    We are interested now in the new technology of converting 
coal to liquid. That liquid would be of various kinds, but at 
first it would be at least diesel that could be used in all of 
the military equipment of the country.
    So I wonder if anything is going on that you can recall 
that has the military involved in trying to put together this 
kind of package that is going to be required to move this kind 
of technology and development along. Is there anything going on 
like considering purchase agreements for companies that develop 
new sources of alternative energy? That would be one way where 
you could be of great help. Is there anything going on there in 
that field, Mr. Secretary?
    Secretary Gates. Senator Warner raised this with me at a 
breakfast that I had with the Senate Armed Services Committee 
leadership last week, and I promised to get back to him. And we 
will get back to you.
    I think we do have research dollars involved in alternative 
energy programs. I would tell you also that we have some very 
interesting recovery projects. I just visited the Red River 
Army Depot a week or so ago. When they bring back the HMMWV's 
and Strykers and tanks, everything from the theater, they still 
have the fluids in them, the gasoline and oil and so on. And 
they have a contract with a private company that takes all of 
that stuff, re-refines it, and sells it. So they make several 
million dollars back for the taxpayers simply by not throwing 
away this used fuel and petroleum products.

                             FUEL CREATION

    But we can get back to you with the specifics on the energy 
programs that we have underway in alternative energy.
    Admiral, do you have anything?
    Admiral Mullen. The only thing I would add, Senator, I 
think clearly this crisis needs to be addressed and investments 
in those kinds of technologies would be very important.
    I also would praise in particular the Air Force who has 
taken a lead on flying on synthetic fuels and, in fact, has 
flown an awful lot of their aircraft, including a B-52 and I 
believe----
    Senator Domenici. That is correct.
    Admiral Mullen [continuing]. A B-2--a B-1 or B-2. I cannot 
remember. And their initiative and their efforts are 
significant. You know what we invest in each year for fuels, 
and we have got to look for more diversity.
    Senator Domenici. It was a B-1.
    Let me say that I would like to know what kind of money and 
projects you have in alternative fuel creation, but I want to 
stress another point and then I will be through. It is late.
    In order to get some of this technology perfected, we are 
going to reach a point where they are going to want to sell 
their product to Wall Street to finance a $5 billion plant for 
something. In order for that to happen, somebody has to be the 
purchaser of the product, and what seems to me inevitable and 
quite appropriate is that the military could agree to contract 
to purchase the product for 10 years because you are going to 
need that much. You could just document that you need 10 times 
that much, but you would be the assurance to this investment in 
this new technology, that if it proves up, you will buy it for 
a given length of time.
    Now, would you check and see if you have such authority? 
Because if you do not, we ought to give it to you because they 
are going to be knocking on your door in two or three areas 
within the next couple years. One clearly coal to liquid where 
they are going to be building very big facilities and they are 
going to have to have a buyer or two, and they are going to go 
to the military. And that is very appropriate in my opinion. 
You are going to get it at market value anyway. It does not 
matter where you buy it, buy American made or buy it overseas. 
And they will be producing it.
    Believe it or not, Shell Oil, S-h-e-l-l, is only a few 
years away from shale oil conversion right out of the field. In 
situ they call it, as you have heard. And they are just going 
to boil it in the ground and take it out, you know, just take 
it out like you would suck out from a can of Coke. What they 
will be taking out will be a fuel of certain sorts. And 
clearly, they are going to need a purchaser or two so that they 
will have that backed when they finance their bigger projects. 
I just want to get you all involved in thinking about it 
because it is certainly going to be in the ball game, and you 
will be important players.
    And I thank you for listening, and whatever you can give me 
on that, it would help me so we would only bother to add on to 
such authorities if it is needed. Thank you.
    Senator Inouye. Thank you very much, Senator.
    Senator Domenici. Thank you.

                               CONCLUSION

    Senator Inouye. Mr. Secretary and Admiral, we very much 
appreciate your appearance today and your testimony. With this 
hearing, the subcommittee concludes its overview of the defense 
budget. Our final hearing will be with members of the public. 
And I can assure you that this subcommittee will act 
expeditiously as we have in the past.
    As you have heard today, Secretary Gates, the subcommittee 
has many questions regarding your Department and your budget 
requirements, and as we have pointed out, you have offered many 
candid views over the past several months regarding 
shortcomings in the equipping and management of our forces. In 
the next week, the subcommittee will meet to consider your 
defense needs and formulate a set of recommendations for 
funding.
    So, Mr. Secretary, in advance of this review, allow me to 
make this offer. If there are items in the fiscal year 2009 
budget request which you no longer wish to prioritize or items 
which you would like to increase, please feel free to inform us 
officially or unofficially and we will take them under 
consideration.
    Secretary Gates. Thank you, sir.
    Senator Inouye. And, gentlemen, we thank you for your 
testimony and look forward to working with you as we refine our 
views on the fiscal year 2009 defense appropriation 
requirements.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary, I gather this is your last appearance before 
this subcommittee. I am certain every member of this 
subcommittee appreciates your leadership and your contributions 
to our country.
    Secretary Gates. Thank you.
    Senator Inouye. We thank you very much, sir.
    Secretary Gates. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                 Questions Submitted to Robert M. Gates
             Question Submitted by Senator Daniel K. Inouye

    Question. Mr. Secretary, I am concerned that the Missile Defense 
Agency has decided to cancel the next ground-based flight test instead 
of delaying it a few months until the problem with the ground-based 
interceptor is resolved. This means that no ground-based intercept test 
will be done in fiscal year 2008, even though nearly $300 million for 
two intercept tests was appropriated in the 2008 budget. Why was this 
decision made, and were you consulted about the cancellation of this 
test?
    Answer. A critical test component failed on the test interceptor 
during pre-test operations. Specifically, the Flight Test Ground-Based 
Interceptor (FTG)-04 Exo-atmospheric Kill Vehicle's (EKV) Pulse Code 
Modulation Encoder (PCME) within the flight test telemetry system 
failed during the final interceptor readiness test in the Vandenberg 
Missile Assembly Building. While the PCME is on all EKVs, the PCME is 
only used during flight tests and has no role or impact on an 
operational interceptor. However, because interceptor telemetry is 
crucial in the conduct of a flight test to verify EKV performance post 
flight, the Missile Defense Agency (MDA) decided to not conduct any 
flight test of the Ground-Based Midcourse Defense (GMD) Interceptor 
(GBI) until the cause of the PCME failure was determined and action 
taken to correct the problem. The failure analysis, completed in May 
2008, determined that the EKV had to be returned to the manufacturer 
for disassembly, PCME replacement, and reassembly. Interceptor 
reintegration, emplacement, and post-emplacement operations and testing 
at Vandenberg Air Force Base results in an early December 2008 flight 
test mission.
    The Agency considered several test options to demonstrate multi-
sensor integration and intercept of a target with countermeasures this 
calendar year. The Director MDA, after assessing all flight test 
options, decided to proceed with a non-intercept (simulated GBI fly-
out), multi-sensor integration flight test in the July-August 
timeframe, namely FTX-03. Test objectives relating specifically to the 
FTG-04 intercept will be deferred to FTG-05, the next GMD intercept 
mission is currently scheduled early December 2008. FTX-03 has been 
identified to replace FTG-04. FTX-03 will be a multi-sensor, integrated 
test designed much closer to the FTG-05 test configuration and serves 
as enhanced risk reduction. This approach allows the Agency to 
demonstrate multi-sensor integration and an intercept of a target with 
countermeasure this calendar year. The end result is that all 
objectives of the original FTG-04 and FTG-05 will still be accomplished 
with the conduct of FTX-03 and FTG-05.
    MDA reports directly to the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)) on missile defense 
matters. The Director, MDA made the technical decision to change FTG-04 
to a sensor integration test, FTX-03, in consultation with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics and 
notifications were made immediately to the Director, Operational Test 
and Evaluation (DOT&E); USSTRATCOM through the Commander, Joint 
Functional Component Command--Integrated Missile Defense (JFCC-IMD); 
Missile Defense Executive Board (MDEB) members, congressional staff, 
and the Warfighters.
    Additionally, AT&L, Operational Test Agencies (OTAs), and 
USSTRATCOM (JFCC-IMD) participate in MDA's Program Change Board (PCB). 
As changes were made to the test program, these stakeholders have been 
fully informed on the course of action and adjustments will be 
reflected in the Warfighter Operational Readiness and Acceptance 
Program.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                                SUICIDE

    Question. Over the past year, Congress has provided hundreds of 
millions in funding to the military to improve mental health care for 
our troops. Over the past 6 years, the suicide rate for active-duty 
soldiers has grown from 9.8 per 100,000 in 2001 to 17.5 per 100,000 in 
2006.
    What specific actions is the DOD taking to reduce suicide?
    Answer. We deplore the loss of any life to suicide and are saddened 
by the traumatic impact on families and coworkers who are burdened with 
the grief of losing their loved ones and fellow professionals.
    Partnering with civilian institutions, our military departments 
have initiated aggressive suicide prevention programs. They employ a 
myriad of preventive and supportive programs to improve awareness of 
signs of distress; address and resolve contributing factors; and 
provide professional consultants and care givers through referral 
programs. We emphasize suicide awareness and prevention; train 
frontline supervisors to look out for subordinates and intervene when 
subordinates and family members may be at risk; assess and manage 
suicide risk, and increase availability of professional military family 
life consultants to care for service members and their families. Also, 
we use lessons learned from previous suicides to develop suicide 
prevention videos written and directed by military members; and use 
web-based distance learning courses on suicide prevention for refresher 
training and at geographically separated units. Additionally, we 
benefit greatly from our association with, and use of, resources from 
professional civilian organizations like American Association of 
Suicidology and Uniformed Services University of Health Sciences.
    While there are several reasons for suicides, one fact we do know 
is that multiple and lengthy deployments have placed a great stress on 
our families. In an attempt to mitigate some of this stress, the 
services continue to provide aggressive suicide prevention programs. We 
will continue to monitor progress toward our objective of preventing as 
many suicides as possible.

                                TBI/PTSD

    Question. According to a recent RAND study, one in five Iraq and 
Afghanistan veterans suffer from PTSD. 19 percent report a possible 
traumatic brain injury during their deployment. Only half have sought 
treatment because of the stigma attached with seeking treatment and 
because of concerns about the quality of care. According to RAND, half 
of those who request treatment receive only ``minimally adequate'' 
support.
    What steps is DOD taking to encourage servicemen and servicewomen 
to pursue help and to address the reasons why treatment is not sought?
    Answer. The RAND study defined Post Traumatic Stress Disorder 
(PTSD) as the presence of symptoms and did not involve a clinical 
assessment. Symptoms of traumatic stress are to be expected among those 
who have been in combat or had other traumatic exposures. For many, 
these symptoms do not lead to significant distress or impairment and 
for most, these symptoms will resolve with little or no clinical 
intervention. For individuals who do not meet full criteria for PTSD 
there is no universal recommended number of visits.
    Additionally, the RAND study used an arbitrary number of visits as 
its criterion for ``adequate'' treatment. Many Service members improve 
with fewer treatment sessions of treatment and no longer require 
additional visits.
    All of the Services have programs that teach deploying Service 
members the symptoms of deployment-related stress, how to manage the 
stress of deployment, and how to recognize symptoms in others that 
might lead to a clinical concern. These programs stress the importance 
of seeking care if their symptoms cause significant distress or 
impairment in any aspect of daily functioning. These programs are 
provided before deployment and upon return from deployment. They also 
include components of education to family members so that they can 
encourage an evaluation if they observe persisting or troubling 
symptoms.
    Each Service member also receives a post deployment health 
assessment with a clinician at the time of return and a repeat 
assessment three to six months after return. A clinical decision is 
made at that time whether a mental health referral would be beneficial 
to the member. The Army is also piloting programs to better educate 
primary care managers to screen for mental health problems and refer to 
a mental health specialist when appropriate.
    Finally, there is a significant push within the Department of 
Defense for line leadership responsibility for psychological health- 
and resilience-based initiatives within operational units. This is 
consistent with findings that unit morale, unit cohesion, and faith in 
leadership are protective factors in keeping warriors psychologically 
fit. The Defense Centers of Excellence's anti-stigma program, ``Real 
Warriors. Real Battles. Real Strength.'' reinforces this critical 
message of line leadership support.
    Question. Why are military members receiving subpar support? What 
is your response to the finding that half of the treatment received is 
only ``minimally adequate?''
    Answer. A number of initiatives have begun to address increased 
support. The Department of Veterans Affairs (VA) and the Department of 
Defense (DOD) have launched a joint federal care coordination system to 
address the needs of polytrauma patients. Defense and Veterans Brain 
Injury Center/Defense Centers of Excellence has launched a care 
coordination system focusing on Traumatic Brain Injury (TBI) patients 
with persistent needs. These programs are assisting by linking Service 
members with state and local resources in addition to the federal 
resources available to them.
    The Department screens all recently deployed Service members for 
Post Traumatic Stress Disorder (PTSD) and TBI via the Post Deployment 
Health Assessment and Post Deployment Health Re-Assessment. In 
addition, the VA screens for possible PTSD and TBI among all OEF/OIF 
veterans seen for medical care.
    The RAND study defined PTSD as the presence of symptoms and did not 
involve a clinical assessment. Symptoms of traumatic stress are to be 
expected among those who have been in combat or had other traumatic 
exposures. For many, these symptoms do not lead to significant distress 
or impairment and for most, these symptoms will resolve with little or 
no clinical intervention. For individuals who do not meet full criteria 
for PTSD there is no universal recommended number of visits.
    The RAND study used an arbitrary number of visits as its criterion 
for ``adequate'' treatment. Many Service members improve with fewer 
treatment sessions of treatment and no longer require additional 
visits.
    Question. The truth is that mental health treatment remains a 
stigma in our armed forces. Junior enlisted and officers play an 
important role in furthering a frank discussion about the benefits of 
mental health treatment.
    What efforts have been made to have junior leaders, both enlisted 
and officer, trained to identify the symptoms of PTSD?
    Answer. In addition to DOD efforts to reduce barriers preventing 
Service members from seeking help, the Services remain committed to 
training all leaders to identify subordinates, coworkers or friends who 
may require care.
    The Air Force perspective is, most importantly, leaders should be 
proficient in recognizing Airmen in distress and referring them for 
assistance. Prevention education programs (suicide prevention training, 
Landing Gear, Frontline Supervisors Training) all clearly articulate 
the varied symptoms of distress and how to link Airmen with mental 
health care. In particular the pre- and post-deployment prevention 
education program, Landing Gear, does describe the symptoms of PTSD in 
detail.
    Marine Corps Combat Operational Stress Control (COSC) classes are 
currently held in some career schools. The Training and Education 
Command is further developing and standardizing curriculum and 
including standards and tasks in Marine Corps Training and Readiness 
Manuals. Training in established courses and career schools is being 
implemented at all levels, including Command and Staff College 
Symposium (ongoing), Senior Enlisted Symposium (ongoing), enlisted 
professional military education courses (in process), career officer 
schools (in process) and Command and Staff College Distance learning 
(ongoing). The Operational Stress Control and Readiness (OSCAR) program 
embeds mental health practitioners and technicians into ground 
operating forces at the regimental level, to aid prevention and early 
identification of combat stress problems through increased trust and 
familiarity between Marines and the mental health professionals. A 
Leaders Guide for Managing Marines in Distress website and pocket guide 
provide quick access to information and tools for solving high-risk 
problems. Manpower and Reserve Affairs maintains a COSC page on its 
website for junior leader reference and use. Downloadable workshops to 
assist audiences in recognizing and identifying combat stress problems 
are available for senior leaders, marines, sailors and family members 
for pre-deployment, return from deployment, and post-deployment (60-120 
days). The annual USMC COSC Conference provides concurrent workshop 
tracks for leaders, providers, families and other topics. The focus is 
on attendance by Marine leaders at all levels to learn more about 
combat operational stress and leadership responsibilities in 
prevention, identification and treatment.
    The Navy's Combat Operational Stress Control (COSC) for Caregivers 
course has trained over 900 chaplains, nurses, corpsmen, religious 
programs specialists, Fleet and Family Service Center personnel and 
line leaders in early recognition and response to stress injuries. 
OSCAR embeds mental health practitioners and technicians into ground 
operating forces at the regimental level, to aid prevention and early 
identification of combat stress problems through increased trust and 
familiarity between Marines and the mental health professionals. COSC, 
including the stress injury continuum, leader expectations, combat 
operational stress first aid, and peer assessment is incorporated into 
Navy Individual Augmentee training at Fort Jackson, GA. In addition, 
the Navy COSC website and Navy Individual Augmentee Guides for sailors, 
families and commands were published in March 2007.
    In the Army, over 900,000 solders participated in chain teaching 
last year, including the identification of symptoms of PTSD. This 
education on the signs and symptoms of PTSD is continuing as part of 
pre-deployment, deployment and post-deployment cycle of resilience 
training for soldiers and families. Multiple training sites are 
available on various Army web sites to help officer and enlisted 
personnel become more aware of PTSD. Physicians, nurses and medics also 
receive specialized training in the identification of signs and 
symptoms of PTSD as part of clinical training and refresher training 
programs.
    Although Service-specific, the Army's Mental Health Advisory Team V 
study results linked to efforts to train junior leaders appears 
positive, and can most likely be extrapolated to other Service's 
efforts. 85 percent of soldiers who answered the survey about the 
training found the training useful. Soldiers reported significant 
increase in training adequacy for managing the stress of deployments 
and for identifying soldiers at risk for suicide. The number of 
clinical visits for PTSD has gone up; this is probably a combined 
result of increased screening, increased demand, and the chain teaching 
and other related teachings called Battlemind. Soldiers' perceptions of 
the stigma associated with mental health care were significantly lower 
in 2007 compared with 2006. Although the numbers of soldiers screening 
positive for mental health problems in 2007 was similar to 2006 and 
other years, they reported significantly lower levels of impaired work 
performance as a result of stress or emotional problems than in 2006. 
MHAT study results indicate Behavioral Health personnel conducted 
significantly more command consultations in 2007 compared with 2006. 
Soldiers reported receiving more mental health care, and 17 percent had 
received medications for their symptoms. Primary Care personnel report 
significant increase in the number of medications prescribed for sleep, 
depression, and anxiety relative to 2006. Military Health System-wide 
metrics also indicate an overall increase in numbers of in-theater 
mental health encounters. It remains unclear whether these findings are 
a result of increased mental health distress, increased numbers of 
medical personnel or increased awareness on the part of healthcare 
personnel, but in light of other decreased measurements of stress/
emotional impairment of work performance, it would suggest that 
increased awareness on the part of leaders and medical personnel is 
having a positive effect.
    At the DOD level, the Defense Centers of Excellence (DCoE) for 
Psychological Health and Traumatic Brain Injury were established to 
assist in this endeavor by providing leadership, facilitating culture 
change and advocating a consistent, evidence-based approach across the 
Services, tailored to DOD/Service member needs. As of August 27, 2008, 
52 DCoE staff are on board, and staffing numbers are projected to reach 
155 by October 31, 2008. Eight directorates are now at initial 
operating capability: (1) Resilience and Prevention, (2) Training and 
Education, (3) Clearinghouse, Outreach and Advocacy, (4) Psychological 
Health Clinical Standards of Care, (5) TBI Clinical Standards of Care, 
(6) Research, QA Program Evaluation & Surveillance, (7) Telehealth and 
Technology, and (8) Strategy, Plans and Programming. Among many other 
actions, DCoE has already established a public website and a wide-
reaching newsletter for Service members, family members and 
clinicians--all in an effort to educate, facilitate treatment and 
decrease stigma. The Center is actively at work standardizing Service 
curricula. Completion of DCoE CONOPS and internal assessment metrics is 
projected for September 1, 2008. Standardization and centralization of 
DOD data collection and analysis should begin to yield initial 
objective data for DOD-wide assessment of our programs by year's end.
    To encourage Service members to pursue help and to address 
potential reasons why treatment is not sought, the DCoE endorses the 
Resilience Continuum Model which represents a cultural shift from 
treatment of illness to psychological health. The model promotes 
psychological health activities as a readiness issue and combat 
multiplier (seeking care when needed is considered a psychological 
health activity). The model will also be used to teach and train 
commanders and leaders at all levels to encourage their peers and 
subordinates to seek care when needed. There are several reasons why 
Warriors may not seek care. One reason (which is perhaps an under-
recognized reason) is the lack of self awareness. It is common for 
Warriors to be unaware that they are in need of help. The Resilience 
Continuum Model can teach/train Warriors to recognize symptoms of 
distress, including PTSD, and to apply proven tools that build 
resilience to mitigate risk, maximize performance, and prevent 
dysfunction. The Resilience Continuum Model will roll out on November 
18, 2008 as part of the DOD Resilience Conference.
    Question. Should such training be mandatory for leaders before he 
or she assume responsibility for other military members in combat?
    Answer. Marines: Yes, this training should be mandatory. The Marine 
Corps continues to stress the importance of recognizing and combating 
PTSD and other related stress problems incurred during combat 
operations, deployed situations, and demanding garrison support of 
these missions. The Marine Corps will maintain and further develop and 
incorporate standardized COSC training in career schools while 
continuing to stress the importance of utilizing the Leaders Guide for 
Managing Marines in Distress.
    The Air Force believes requiring such training is reasonable and it 
is already incorporated into existing AF practices. All AF leaders are 
required to attend annual suicide prevention training, which provides 
excellent training on recognizing Airmen in distress and referring them 
for help. All professional military education and commander's courses 
include formal suicide prevention training as well, which further 
emphasizes the recognition of and intervention with Airmen in distress. 
In addition, all deploying Airmen, including leaders, will attend the 
Landing Gear training before deploying and receive additional detailed 
information on deployment-related mental health problems (including 
PTSD).
    The Navy's position is yes, this training should be mandatory. The 
Navy continues to stress the importance of recognizing and combating 
Post Traumatic Stress Disorder and other related stress problems 
incurred during combat operations, deployed situations, and demanding 
homeport support of these missions. The Navy will maintain and further 
develop and incorporate standardized Combat Operational Stress Control 
training in career schools while continuing to stress the importance of 
incorporating stress mitigation skills as a core leadership competency.
    Army: Yes, all Soldiers should receive training in recognizing the 
signs and symptoms of PTSD. The resilience training now being taught to 
Soldiers emphasizes how to recognize the signs and symptoms of PTSD, 
how to take action when these signs are identified, and how to use 
coping mechanisms to diminish the impact of the trauma that Soldiers 
might experience. We are implementing resiliency training throughout 
the career life cycle of Soldiers so that these lessons are regularly 
refreshed.

                               STOP LOSS

    Question. You issued an order in January 2007 to minimize ``stop 
loss'' for the active and reserve forces. The Army now says it will 
continue this practice well into 2009. At this time last year, 8,540 
soldiers were serving involuntarily. Today, that number has surged by 
43 percent. We need to respect the decision to step down from service, 
when a service member decides he or she is ready to move on to the next 
phase of their lives. Today, the Pentagon prevents some from leaving 
the service even if their tour of duty is soon to be completed. We need 
to end this ``back door draft'' approach--and let these brave men and 
women move on to the next phase of their lives.
    Why steps are being taken by the Defense Department to eliminate 
the usage of ``stop loss?''
    Answer. The Navy, Marine Corps and Air Force are not using the stop 
loss authority. The Department and Army are reviewing the need to use 
the stop loss authority to meet mission requirements.

        FORCE STRUCTURE NEEDS (CURRENT VERSUS FUTURE TECHNOLOGY)

    Question. In a recent news article you were quoted as saying ``I 
have noticed too much of a tendency towards what might be called next-
war-itis--the propensity of much of the defense establishment to be in 
favor of what might be needed in a future conflict.''
    How do Defense Department long-term budgets balance resources 
between current and future conflicts?
    Answer. Current operations are resourced with a combination of 
budgeted and supplemental funds. When developing future budgets, the 
Department carefully balances the needs of current and future wars 
according to the President's priorities, excluding any items eligible 
for supplemental funding. The President's budget for fiscal year 2009 
achieves this balance, following a careful, deliberate decision-making 
process in which competing demands were considered.

                               SOFT POWER

    Question. You and Secretary Rice have spoken publicly about the 
need for the United States to improve its nation-building capabilities. 
The President's budget request for the State Department includes plans 
to enhance the Office of Reconstruction & Stabilization and to develop 
a corps of professionals who can provide specific, technical assistance 
in post-conflict situations.
    How do you envision the future relationship between the Defense and 
State Departments, particularly in post-war Afghanistan and Iraq?
    Answer. The Department of Defense will continue to work closely 
with the Department of State, both in post-war Afghanistan and Iraq and 
globally. As Secretary Gates has made clear in several speeches and in 
testimony before Congress, the Department sees a strong need for an 
increase in spending on the civilian instruments of national security--
diplomacy, strategic communications, foreign assistance, civic action, 
and economic reconstruction and development. This includes strong 
support for the State Department's Civilian Stabilization Initiative to 
build a cadre of civilians selected and trained to provide 
stabilization assistance.

                        TROOPS TO NURSE TEACHERS

    Question. Can you speak to the increasing demand for nurses in the 
military as a result of the ongoing war in Iraq?
    Answer. The demand for Army nurses (AN's) has increased 
significantly as a result of the global war on terror. The mission in 
Iraq requires a minimum of 400-500 Army nurses per year. Military 
treatment facilities have experienced an increased demand of nursing 
services for Service members and family members in both the inpatient 
and outpatient settings, particularly for operating rooms, intensive 
care and burn care beds, rehabilitative medicine services, traumatic 
brain injury, and mental health care. We predict an increased demand 
for nurse case managers as our warrior in transition population 
continues to expand. We also predict an increase in demand for military 
nurses as the Army grows. The Army Nurse Corps has 700-plus additional 
positions documented for requirements.
    Question. Recently, the Nurse Corps Chiefs testified on DOD medical 
programs and discussed many of the challenging aspects to military 
nurse recruitment and retention.
    What is DOD doing to recruit and retain nurses?
    Answer. The Department of Defense is using a variety of recruitment 
programs from accession bonuses, Reserve Officer Training Corps, 
tuition assistance and reimbursement, and enlisted to officer programs. 
Retention efforts include Duty Under Instruction for Nursing graduate 
and advanced practice degrees; tuition assistance for graduate degrees 
in Nursing as well as other fields, and advanced practice degrees in 
nursing; and expanded opportunities in assignments to influence health 
care as a whole, particularly in executive medicine. The 2007 Report to 
Congress on the ``Impact of the Nursing Shortage in the Military Health 
System'' provides exhaustive detail and specifics on recruitment and 
retention challenges and interventions.
    Question. Last year, the Defense Appropriations subcommittee asked 
each branch to report on the nursing shortage and efforts in which the 
military is currently engaged or see potential. In the response from 
the Army, General Pollock discussed the faculty augmentation program--a 
partnership between the Army and the University of Maryland. In this 
partnership, General Pollock explains that DOD received no direct 
incentive to begin the partnership, yet the Army still benefits from 
the project.
    Is DOD exploring an expansion or replication of this project?
    Answer. The pilot program may be replicated pending the outcome of 
a research grant from the Tri-service Nursing Research Program. This 
research project will examine the recruiting benefits derived from the 
pilot program. Quantitative data will be collected on the students' 
career choices (military nursing or civilian) to determine motives for 
making their selections. The research program will also review the 
qualitative nurse faculty experience and student experience.
    Question. How can the Senate be helpful?
    Answer. The Department believes encouraging the retired military 
nurse population to pursue post-retirement employment as nursing 
faculty in civilian universities will expose nursing students to the 
benefits of the military while increasing the availability of eligible 
nursing faculty to address the national nursing shortage.
    Question. What has DOD learned as a result of this partnership?
    Answer. The partnership program with the University of Maryland has 
provided the opportunity for the detailed Army Nurse Corps (ANC) 
officers to acquire the education, training, and skills to serve as 
nurse educators. These skills, which are broader than those acquired in 
military centric training environments, include the following: 
curriculum development and implementation, clinical supervision of 
baccalaureate students, establishment of faculty-to-peer relationships 
with academia, development of student evaluation processes in 
collegiate education, development of relevant student testing 
instruments, incorporation of researched based findings into clinical 
practice, methodology for teaching and evaluating critical thinking in 
student populations, integration of medical simulation into the 
education process, evaluation of scholarly writing, and development of 
requisite skill as professional collegiate level faculty. Ultimately, 
the program has better prepared these officers to serve as educators 
and provided them with the skill sets to develop and implement new 
programs of instruction that mirror that of professional academia.
    In addition, the pilot project has already been a successful ANC 
recruiting tool. The entire faculty continues to participate directly 
or indirectly with recruitment. The ANC recruiter remains in contact 
with all six ANC faculty. To date, nine referrals have resulted in 
appointments with the recruiter; four of those appointments led to ANC 
contracts to serve on active duty. The ANC will continue to track the 
recruiting benefits derived from this partnership.
    Question. During the DOD medical programs hearing, the Nurse Corps 
Chiefs expressed support for the Troops to Nurse Teachers program the 
Senate included in fiscal year 2008 DOD Authorization.
    If the program was authorized and funds were appropriated, how do 
you think it would impact the military's recruitment and retention 
efforts?
    Answer. The Departments has a contract with the RAND Corporation to 
assess the proposed program, which will include an assessment of the 
impact on recruitment and retention. The study's projected completion 
date is June 2009.
    Question. One of the major recruitment strategies for the Army and 
other Military Nurse Corps is the Reserve Officers' Training Corps or 
ROTC.
    In recent years, how effective has this program been in recruiting 
and preparing nurses for a career in the military?
    Answer. The Nurse Corps Reserve Officers' Training Corps (ROTC) is 
a long established and important means of accession to military 
service, and has been effective in preparing nurses for a career in the 
military. During the four-year academic and practical nursing training, 
cadets and midshipmen learn the basics of general military education, 
leadership, and behavior. In addition, each Service provides a wide 
range of immersion opportunities for the student from working in 
military treatment facilities to shipboard cruises.
    Upon commissioning the ROTC officer does not have to attend further 
officer training, and is available for immediate assignment as a Nurse 
Corps officer. In all other forms of accession, the Service member must 
attend some form of Service-specific officer training program that 
typically lasts about six weeks. There is an obvious learning curve for 
those who must attend Service-specific officer training, and who are 
unacquainted with the military culture, which typifies Direct 
Commission and Nurse Candidate officers. Former enlisted Service 
members acclimate much easier, but still must make the cultural 
transition from enlisted to officer.
    Army Nurse Corps ROTC recruitment from fiscal year 2002-fiscal year 
2006 comprised, on average 39 percent of their total Nurse Corps 
recruitment. During that same period the Army met, on average 66 
percent of their Nurse Corps ROTC accession goals.
    The Navy Nurse Corps ROTC recruitment from fiscal year 2002- fiscal 
year 2006 comprised, on average, 19 percent of their total Nurse Corps 
recruitment, and they met, on average, 93 percent of their ROTC 
accession goals over the same period.
    The Air Force Nurse Corps ROTC recruitment from fiscal year 2002-
fiscal year 2006 comprised 13 percent of their total Nurse Corps 
recruitment. No data is available on Air Force Nurse Corps ROTC 
accession goals.
    Question. How well does this program recruit underrepresented 
populations to the military?
    Answer. The Reserve Officers' Training Corps (ROTC) programs do a 
good job in attracting underrepresented populations in their Nursing 
programs. The diversity percentage of nurse commissionees has largely 
been at or above the diversity percentage for Service ROTC programs' 
total production over the last five years.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Percent of
                                                                   Total Nurses      Minority        Minority
                                                                                      Nurses          Nurses
----------------------------------------------------------------------------------------------------------------
                              2003

Army............................................................             118              43              36
Navy/Marine.....................................................              41              13              32
Air Force.......................................................              20               5              25
                                                                 -----------------------------------------------
      DOD Total.................................................             179              61              34
                                                                 ===============================================
                              2004

Army............................................................             153              43              28
Navy/Marine.....................................................              37              14              38
Air Force.......................................................              36               7              19
                                                                 -----------------------------------------------
      DOD Total.................................................             226              64              28
                                                                 ===============================================
                              2005

Army............................................................             143              44              31
Navy/Marine.....................................................              39               8              21
Air Force.......................................................              38               8              21
                                                                 -----------------------------------------------
      DOD Total.................................................             220              60              27
                                                                 ===============================================
                              2006

Army............................................................             172              54              31
Navy/Marine.....................................................              34               8              24
Air Force.......................................................              40               7              18
                                                                 -----------------------------------------------
      DOD Total.................................................             246              69              28
                                                                 ===============================================
                              2007

Army............................................................             155              35              23
Navy/Marine.....................................................              58              14              24
Air Force.......................................................              55              11              20
                                                                 -----------------------------------------------
      DOD Total.................................................             268              60              22
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. Last year, the Administration requested $88.3 million for 
the Reliable Replacement Warhead (RRW) program in the fiscal year 2008 
National Nuclear Security Administration budget and $30 million in the 
Department of Defense budget. Congress, on a clear bipartisan basis, 
eliminated all funding for this program in the NNSA budget in the 
fiscal year 2008 Omnibus Appropriations bill. It did provide $15 
million for the Navy to study how to place a Reliable Replacement 
Warhead on a Trident missile.
    Since Congress eliminated funding for the Reliable Replacement 
Warhead program in the NNSA budget, is the Navy still moving forward 
with its study? If so, why? If not, how are the funds being spent?
    Answer. The Navy is conducting an adaptable and integrated arming, 
fuzing, and firing (AF&F) system study. The funding is required to 
support a working group of U.S. Navy, U.S. Air Force and United Kingdom 
engineers and to coordinate requirements across services and countries 
to conduct AF&F system development with multi-platform applicability. 
Although this effort is identified under RRW, the work is needed to 
ensure the appropriate technologies are mature for the current programs 
of record for Navy W88 and AF W78 life extension programs and is 
relevant to the needed modernization of the electronic AF&F systems in 
all current or future weapons.
    Question. The Administration requested $23 million for the Navy for 
RRW for fiscal year 2009. According to the Congressional Research 
Service, the Navy has said that these funds were requested before 
Congress eliminated all funding for RRW in the National Security 
Administration's budget for fiscal year 2008 and that these funds will 
not be spent on RRW. Is that true? If so, how will the funds be spent?
    Answer. The funding is required to support a working group of U.S. 
Navy, U.S. Air Force and United Kingdom engineers and to coordinate 
requirements across services and countries to conduct adaptable and 
integrated arming, fuzing, and firing (AF&F) system development with 
multi-platform applicability. Although this effort is identified under 
RRW, the work is needed to ensure the appropriate technologies are 
mature for the current programs of record for Navy W88 and AF W78 life 
extension programs. The Department of Defense (DOD) reconsidered the 
request for these funds in light of Congress' cut of the fiscal year 
2008 budget request. The DOD determined that it was still necessary to 
request fiscal year 2009 funds and work on the arming, fuzing, and 
firing system development. The nation's existing weapons are using very 
old electronic systems and technologies. For the reliability and 
security of these weapons, the DOD must begin to work on the 
modernization of the AF&F systems in our nuclear weapons.
    Question. The fiscal year 2008 Defense Authorization bill mandated 
the creation of a Congressionally appointed bipartisan commission to 
examine the U.S. strategic posture and nuclear weapons policy. It is 
due to report its findings and recommendations to Congress and the 
President by December 1, 2008. The Defense Authorization bill also 
required the next President to conduct a nuclear posture review and 
issue a report by December 1, 2009. In my view, Congress should not 
provide any funds to RRW until we have had a chance to review the 
findings of these two reports.
    Are you aware of any problem affecting the safety and reliability 
of the warheads in the current U.S. nuclear stockpile that would compel 
us to act now to fund RRW? Is there any new military requirement to 
replace the existing, well tested warheads?
    Answer. The U.S. nuclear weapons stockpile remains safe, secure and 
reliable with certain manageable exceptions. However, as current 
nuclear weapons age, scientists and engineers continue to observe 
unforeseen and unpredicted changes within the nuclear warheads and 
associated subsystems. Additionally, pursuing successive Life Extension 
Programs will inevitably accumulate small changes that take the nuclear 
warheads further away from their original designs that were previously 
certified through underground nuclear testing. As a result, our 
confidence in the reliability of our current nuclear weapons stockpile 
will degrade over time.
    As reliability declines, we must be prepared to repair or replace 
those systems to avoid any capability gaps in our nuclear deterrent. At 
issue will be how to accomplish this task. Current stockpile systems, 
which were designed and built in the 1960s, 1970s, and 1980s, involved 
manufacturing processes that are now difficult or inadvisable to 
replicate, and they lack modern surety features and technologies that 
are often difficult to incorporate during Life Extensions.
    The funding requested for RRW this year will support the completion 
the Phase 2/2A feasibility and cost study. The information from the 
Phase 2/2A effort will inform subsequent decisions and the upcoming 
posture reviews. Future decisions would be deferred until after 
completion of the pending reviews.
                   military energy/fuel alternatives
    Question. Former Secretary of Defense William Perry has stated: 
``On balance, I believe that we could defer action for many years on 
the RRW program. And I have no doubt that this would put us in a 
stronger position to lead the international community in the continuing 
battle against nuclear proliferation, which threatens us all.''
    Do you agree and, if not, why not?
    Answer. I respectfully disagree.
    First, we should not defer action on RRW. As current nuclear 
weapons age, scientists and engineers continue to observe unforeseen 
and unpredicted changes within the nuclear warheads and associated 
subsystems. Additionally, pursuing successive Life Extension Programs 
will inevitably accumulate small changes that take the nuclear warheads 
further away from their original designs that were previously certified 
through underground nuclear testing. As a result, our confidence in the 
reliability of our current nuclear weapons stockpile will degrade over 
time. We must be prepared to replace those systems to avoid any 
capability gaps in our nuclear deterrent. At issue will be how to 
accomplish this task. Funding for the RRW feasibility and cost study 
will inform future decisions on the best path ahead.
    Second, there is no reason to believe that atrophy of U.S. nuclear 
forces will help prevent nuclear proliferation and considerable reason 
to believe that credible U.S. nuclear forces will reduce proliferation. 
The sizable drawdown in U.S. nuclear forces since the end of the Cold 
War, the 16-year U.S. moratorium on nuclear testing, or the fact that 
the United States has not built a new nuclear weapon in nearly two 
decades, has had no impact on the effort of some countries to acquire 
nuclear weapons.
    Despite negotiated reductions and eliminations under INF, START, 
and the Moscow Treaty, and without regard to U.S. unilateral 
reductions, India and Pakistan have become nuclear powers, North Korea 
has tested a nuclear device, Iran continues to pursue nuclear 
capability, Russia is modernizing its nuclear force and China is 
rapidly building up its strategic nuclear capabilities. After surveying 
this international security environment, both the United Kingdom and 
France have recently decided to embark upon modernization of their 
nuclear systems to ensure their strategic deterrents into the mid-
century. By contrast, the United States is the only nuclear weapon 
state that does not have an active nuclear weapons modernization 
program or the capability to produce a new nuclear weapon.
    Finally, robust U.S. nuclear capabilities and a strong commitment 
to extended deterrence have supported the NPT by allowing allies and 
friends, both in NATO and elsewhere, to forgo developing their own 
nuclear weapons. These arrangements are fully consistent with U.S. 
commitments to abide by the NPT.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

    Question. The Supplemental Appropriations bill being considered by 
the Senate includes provisions that would limit the length of 
deployments to Iraq, as well as, the dwell times for units returning 
from Iraq. How would these provisions impact the Department's ability 
to manage forces and to provide the commandant commanders with the 
capabilities they need?
    Answer. These provisions would hurt the Department's ability to 
manage forces and provide commanders with the capabilities they need. 
As stated in the White House's May 20th Statement of Administration 
Policy, ``The Administration strongly opposes attempts to limit the 
much needed flexibilities of our commanders in the field during this 
and future conflicts by codifying current policy regarding deployment 
schedules.''
    Question. What efforts are being made to increase the amount of 
funding the Iraqis, or other coalition partners, are contributing to 
the CERP program?
    Answer. The Department is pursuing efforts on both fronts to 
increase support of CERP. We requested authority to accept financial 
contributions to CERP in Iraq and Afghanistan from any person, foreign 
government, or international organization. Once this authority is 
granted, we will be able to engage our partners to financially support 
the very effective CERP program, which enables military commanders to 
respond to urgent humanitarian relief and reconstruction needs within 
their areas of responsibility by carrying out programs that provide 
immediate assistance to the local populace.
    We have also worked with the Government of Iraq (GoI) to establish 
a companion program funded by the GoI. Major General Kevin Bergner, 
Deputy Chief of Staff, Multinational Forces Iraq (MNF-I) and Hak Al-
Hakeem, GoI Advisor to the Prime Minister for Reconstruction Affairs 
and Representative to the Supreme Reconstruction Council, signed a 
Memorandum of Understanding (MOU) in April 2008 to implement the GoI 
Commander's Emergency Response Program (I-CERP). The MOU describes the 
purpose of the program ``to execute urgently needed reconstruction 
projects for the benefit of the Iraq people by using Iraqi funds . . . 
I-CERP seeks eventually to match 2008 coalition CF-CERP 
contributions.'' The implementation annex to the MOU specifies the 
types of projects the GoI will fund, such as school construction, 
health clinics, and water purification facilities. Thus far, the GoI 
has provided close to $300 million for I-CERP projects. The funds are 
administered according to the existing rules laid out for execution of 
the U.S. CERP program.
    The Department believes that successful execution will lead to 
additional Iraq funding and, possibly, funding from Iraq's neighbors.
    Question. You have made additional ISR for combat forces in Iraq 
and Afghanistan a top acquisition priority along with the purchase of 
MRAP vehicles. Could you provide a more detailed explanation of why you 
have made additional ISR in theater a top priority and what the 
greatest needs are at this time?
    Answer. As operations in Iraq and Afghanistan continue to evolve, 
the enduring value of pervasive ISR available to the battlefield 
commanders has never been higher. Although over the last year the 
department has taken multiple steps to increase deployed capability, I 
remain convinced that more must and can be done to provide additional 
tactical ISR capability to our forces deployed in combat. Accordingly, 
I have established an ISR Task Force to provide me recommendation on 
the greatest needs.
    Question. I understand you recently visited Fort Bliss, Texas to 
view some of the latest Future Combat System Technologies. Can you give 
us your impressions of what you saw during your visit?
    Answer. In a speech on May 13, I provided a few observations, which 
address this question: ``A program like FCS--whose total cost could 
exceed $200 billion if completely built out--must continue to 
demonstrate its value for the types of irregular challenges we will 
face, as well as for full-spectrum warfare. I believe that any major 
weapons program, in order to remain viable, will have to show some 
utility and relevance to the kind of irregular campaigns that are most 
likely to engage America's military in the coming decades''.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter

                              AID TO YEMEN

    Question. According to a May 17, 2008 editorial in the Washington 
Post by Ali Soufan, a former FBI supervisory special agent who was 
directly involved in the investigation of the bombing of the U.S.S. 
Cole, ``Seven years after al-Qaeda terrorists Jamal al-Badawi and Fahd 
al-Quso confessed to me their crucial involvement in the bombing of the 
U.S.S. Cole, and three years after they were convicted in a Yemeni 
court--where a judge imposed a death sentence on Badawi--they, along 
with many other al-Qaeda terrorists, are free.''
    What criteria are used when setting Section 1206 funding levels? 
How does the Department of Defense weigh Yemen's lack of cooperation in 
bringing the Cole bombers to justice when considering aid for Yemen?
    Answer. State and DOD consider all aspects of the bilateral 
relationship with Yemen and the need for counterterrorism cooperation 
when assessing the provision of assistance. As part of that assessment, 
the Departments consider the net impact that any Section 1206 
assistance may have to increase Yemeni capabilities to counter 
terrorist threats identified by Combatant Commanders and Chiefs of 
Mission.
    Yemen faces many challenges, including trying to govern areas under 
tribal, not governmental control. The Department uses Section 1206 to 
help the Republic of Yemen Government's (ROYG) military to establish 
governmental control over these areas and reduce porous borders 
available for exploitation by Al-Qaeda and other terrorist 
organizations. While the United States continues to press Yemen on 
issues surrounding the attack on the U.S.S. Cole, we must also address 
the continued terrorism threat to Yemen and the United States. The 
projects we undertake via Section 1206 funding also provide us with 
more leverage in dealing with Yemen on this and other issues.
    In addition, Ali Soufan's statement above is not accurate. While he 
was free for a short time in October 2007, the ROYG quickly reversed 
their decision and jailed Badawi later that month. Badawi is now 
serving out the rest of his sentence. His sentence was reduced to 15 
years in prison by a Yemen court.
    Question. How much does the Department of Defense plan to request 
for fiscal year 2008 Section 1206 aid for Yemen? When will it make its 
request? What program(s) will the money fund?
    Answer. Because Section 1206 is designed to be able to meet urgent 
and emergent needs, it is impossible to state with certainly what will 
ultimately be requested under Section 1206 authority for fiscal year 
2008. Of programs approved and notified to Congress to date, however, 
none have been for Yemen, nor does the Department have any current 
plans to provide Section 1206 training or equipment to Yemen during 
this fiscal year.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                   MILITARY ENERGY/FUEL ALTERNATIVES

    Question. Hybrid technology, Bio-fuels and other ``green friendly'' 
technology is currently providing some near term solutions in the 
civilian sector. Recently, the Air Force demonstrated this technology 
by flying a B-1 Bomber over New Mexico and Texas at supersonic speed 
using a synthetic 50/50 fuel blend.
    What type of fuel alternatives or green technology research and 
development are the services currently working on?
    Answer. The Department is pursuing a variety of efforts in 
alternative fuels, primarily focused on testing and certification, and 
enabling our systems to use different fuels regardless of the feedstock 
or production method. Efforts include improving the combustion process 
of engines using alternative fuels, optimizing fuel composition, 
understanding the equipment and systems impacts of alternative fuel 
use, such as corrosion and wear, and establishing protocols for 
certification.
    For example, the Air Force has certified the B-52 to use a 50/50 
blend of synthetic fuel (synfuel). Tests are underway to certify the C-
17, B-1, and F-22 in the near future, with an objective to certify the 
entire fleet by early 2011, and the Army is testing synfuel in tactical 
vehicles and generators. In December 2007, a C-17 completed the first 
transcontinental flight using a synfuel blend, and a B-1 flew at 
supersonic speeds using a synfuel blend in March 2008. The Air Force 
has a goal to obtain 50 percent of its fuel used in the continental 
United States from domestic sources by 2016.
    The Department also is exploring various technologies for producing 
alternative jet fuels. For instance, the Defense Advanced Research 
Projects Agency is soliciting research proposals to affordably create 
jet fuels using oil rich crops, such as algae, at energy density levels 
sufficient to power military systems.
    Question. How do fueling alternatives affect the development and 
fielding of the Future Combat Systems?
    Answer. The Future Combat System is designed to work with current 
battlefield fuels. The Army will test synthetic and other alternative 
fuels in the Future Combat System, as part of its larger testing and 
certification program.
    Question. Are any current combat vehicles/systems being retrofitted 
to accept alternative fuel?
    Answer. No. The policy is to procure fuels that are compatible with 
existing systems. Certification is underway in some systems, like the 
C-17, B-1 and F-22, to ensure these fuels can be used without causing 
long-term damage to engines.
    Question. The Air Force is currently investigating nuclear, small 
reactor technology as a power plant source for some of its bases.
    What is your opinion on this technology being used by the other 
services?
    Answer. The Air Force is considering small nuclear reactors as a 
way to use underutilized land on its installations. The Department will 
evaluate the feasibility of a larger scale program after we receive an 
assessment from the Air Force.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. What mechanisms are in place to ensure all service 
members in theater have sufficient body armor?
    Answer. The Department is committed to providing the best available 
ballistic force protection to its service members and its civilians. 
Each Military Service has a slightly different process, but all ensure 
our deployed personnel have the best protection.
    For the Army, the goal is to field body armor to all deployers and 
next to deploy soldiers in the predeployment phases at Home Station for 
Active Component, Mobilization Station for Reserve Component, or at the 
continental United States (U.S.) (CONUS) Replacement Centers for 
Individual Augmentees. Soldiers or DOD civilians arriving in theater 
without body armor are outfitted at our fixed sites at Camp Buehring 
(Kuwait) and Bagram (Afghanistan) as they go through the Reception 
Staging Onward Movement and Integration (RSOI) process. The Army has 
also provided a stockage of body armor to the U.S. Embassy in Baghdad 
for Department of State personnel serving on Provincial Reconstruction 
Teams. Any capability enhancements to body armor such as the Improved 
Outer Tactical Vest (IOTV) are handled by our fielding teams who travel 
to all camps and Forward Operating Bases upgrading units and soldiers 
based on theater commanders' priorities. Additionally, Program 
Evaluation Office--Soldier, the program manager for body armor, 
conducts a weekly teleconference with theater commanders to coordinate 
deployment upgrades for body armor.
    For the Navy, each individual command that has personnel being 
deployed for the Global War on Terror (GWOT) operations are required to 
outfit its personnel with the complete Table of Allowance (TOA) gear 
that is needed for the region to which they'll be deployed. This is a 
pre-deployment requirement that must be met before the personnel are 
cleared for departure to theater.
    For the Marine Corps, the Program Manager for Infantry Combat 
Equipment (PM ICE) is the Total Life Cycle Manager for USMC Body Armor. 
Fielded assets are delivered to Consolidated Issue Facilities (CIF) for 
follow-on issue to deploying Marines. Combatant Commanders in theater 
will prescribe the use of personal protective equipment (PPE) in 
accordance with higher headquarters direction and based on the 
situation, to include assessment of enemy threat, environmental 
conditions, and the tactical missions assigned to their units. 
Management of fielded assets is executed through the Logistics Command 
(LOGCOM) Albany to ensure optimal distribution of assets is consistent 
with the requirements of the operating force commanders.
    For the Air Force, the Directorate of Logistics Readiness is the 
focal point for Air Force ``enterprise'' purchases of Body Armor and 
individual protective equipment (IPE). The Directorate of Logistics 
Readiness develops policy for the distribution of body armor and IPE at 
home station and in-theater. Body Armor, and other protective gear, is 
prepositioned in three Expeditionary Theater Distribution Centers 
(ETDCs). Most deployers process through one of the three ETDCs to 
obtain protective gear prior to entering the theater. Body Armor, and 
other protective gear, is also prepositioned at nine Expeditionary 
Logistic Readiness Squadrons in the Area of Responsibility (AOR). This 
provides sustainment for lost and/or damaged body armor and IPE. 
Deployers who do not process through an ETDC obtain their body armor 
from their home station or coordinate their equipment requirements 
through their Major Command (MAJCOM), Air Command--Air Force (AFCENT), 
and/or Air Staff. Deployment Reporting Instructions provide guidance on 
how and where to obtain body armor and other protective gear when 
tasked to deploy to specific locations. These processes are in place to 
ensure sufficient gear is available and AF personnel are equipped prior 
to entering the theater.
    Through various processes, reviews and system controls, United 
States Special Operations Command, (USSOCOM) ensures that its forces 
have sufficient body armor in theater. The United States Special 
Operations Command (USSOCOM), because of its unique authorities under 
10 USC 167, relies on a combination of Special Operations Forces (SOF) 
unique equipment, along with service-common body armor provided to each 
of the component commands. For USSOCOM, the mandate is priority 
fielding of body armor systems to individuals through their respective 
component commands. Prioritization is based on unit pre-deployment 
training window, rotational schedule to theater of operations, and 
direction provided from each service component's requirements/logistics 
division representatives. Individuals are sized, issued body armor 
systems, and trained on proper wear and use during their pre-deployment 
training window. Body armor system fielding requirements to SOF are 
reviewed and validated weekly by the Program Management Office with 
each service component. Adjustments to fielding schedule are executed 
as required based on service component changes in deployment 
priorities. Also, residing on the USSOCOM Special Operations Forces 
Sustainment Asset Visibility Information Exchange (SSAVIE) internet 
portal is the Special Operations Forces Personal Equipment Advanced 
Requirements (SPEAR) website. This website provides total asset 
visibility to USSOCOM and Component leaders on body armor systems 
issued to each individual SOF member. Body armor systems are shipped to 
unit supply/property managers for issue to the specific unit 
individuals. Once a body armor system is issued to the individual, the 
transaction is recorded in the SPEAR database. Replacement body armor 
system components are forward staged and managed in the local theater 
of operations to support Joint Special Operations Task Forces and 
expedite replacement of individual body armor systems due to damage or 
combat loss.
    Overall, each Military Service has processes in place to ensure 
sufficient gear is available and DOD personnel are equipped prior to 
entering a theater of operations.
    Question. What kind of oversight has been exercised by the Guard 
and Reserves to ensure that returning American heroes are lawfully 
reemployed by the employers for whom they worked prior to deployment?
    Answer. The Uniformed Services Employment and Reemployment Rights 
Act (USERRA), covers the employment rights of Guard and Reserve 
members. The Department of Labor (DOL) has statutory authority to 
enforce the USERRA statute. The Department of Defense (DOD) has an 
inherent responsibility to take care of its Service members. Employer 
Support of the Guard and Reserve (ESGR), a DOD organization under my 
purview, provides information and education to Guard and Reserve 
members and their employers, about USERRA, and offers a mediation 
service to resolve workplace disputes in an informal manner. Through a 
Memorandum of Understanding between DOD and DOL, ESGR informs Service 
members about contacting DOL if the ESGR mediation is unable to resolve 
a labor dispute within 14 days. We believe this process offers a timely 
and effective mechanism for resolution while providing a means for 
formal investigation by the appropriate authority at DOL.
    ESGR is also working with the Services to raise awareness of USERRA 
and to provide USERRA training to all Reserve component members. In 
fact, in fiscal year 2007, ESGR's 4,500 volunteers provided USERRA 
briefings to more than 232,000 Service members. We also continue to 
work with the appropriate Federal agencies such as DOL's Veterans 
Employment and Training Service (DOL-VETS), the Department of Veterans 
Affairs, and the Small Business Administration, to better communicate 
to Service members and their employers about USERRA, transition 
assistance and reintegration programs. As we have mobilized National 
Guard Brigade Combat Teams during fiscal year 2008, we have worked 
proactively with those units several months before mobilization to 
ensure Service members' rights and responsibilities are understood.
    The single biggest concern we hear from employers and Service 
members is about predictability of rotation schedules and duration. To 
that end, I issued policy guidance in January 2007 to move Reserve 
component use to a predictable cycle. We believe that while this 
guidance may take some time to become fully operational as units reset 
onto this cycle, greater predictability will go a long way toward 
ameliorating USERRA claims. Furthermore, DOD and DOL have established 
interagency working groups to create and execute information awareness 
programs aimed at Reserve component members and their employers.
    All that being said, we have seen employer support remain strong. 
Thousands of employers go beyond the requirements of USERRA to provide 
compensation and benefits to their employees while they are serving 
their military duty. This support is not isolated to large employers, 
but extends to small employers as well as public sector employers.
    Question. I remain concerned about the safety of our troops in 
military vehicles given the frequency and lethality of IED incidents. 
Please provide the following information regarding up-armored vehicles 
and mine-resistant ambush protected vehicles (MRAPs):What vehicles are 
currently in theatre? What is the cost comparison between up-armored 
and MRAP vehicles? What is the total number of OEF and OIF deaths 
sustained in each different type of vehicle currently in theatre? Is 
this information kept by DOD and, if so, is it considered in the 
procurement process? Is safety of the troops the paramount 
consideration of fielding up-armored and MRAP vehicles? What are the 
other competing considerations? How are they weighted in the decision-
making process? What vehicles has the Department prioritized for future 
procurement and why?
    Answer.
    What vehicles are currently in theatre?
    There are several variants of the Mine Resistant Ambush Protected 
(MRAP) vehicles and up-armored High Mobility Multipurpose Wheeled 
Vehicles (HMMWVs) which are outlined below.
    MRAP Vehicles.--There are three distinct categories of the ``Family 
of MRAP vehicles'' provided to the Services, and they support the 
following mission profiles:
  --Category I: Urban combat operations (transport no less than 6 
        personnel).
  --Category II: Multi-mission operations such as convoy lead, troop 
        transport, ambulance, EOD, maneuver battalions, and combat 
        engineering (transport up to 10 personnel).
  --Category III: Mine/IED clearance operations and explosive ordnance 
        disposal (transport no less than 6 personnel, 5 with additional 
        equipment installed).
    Up-armored HMMWVs.--The M1151, also known as the Expanded Capacity 
Vehicles (ECVs), replaces the M1114. The up-armored HMMWVs currently in 
theatre are the: M1151A1: Up-armored armament carrier, M1152A1: Up-
armored troop/shelter carrier, and M1165A1: Up-armored command/troop 
carrier.
    What is the cost comparison between up-armored and MRAP vehicles?
    The range of the cost comparison is considerable in accordance with 
quantity buys. As a result, the average cost, experienced to date, for 
the MRAP vehicles and up-armored HMMWVs are outlined below:
    MRAP vehicles.--Category I: $500,000; Category II: $530,000; and 
Category III: $700,000.
    Up-armored HMMWVs.--M1151A1/B1 (up-armored armament carrier): 
$158,000; M1152A1/B2 (up-armored troop/shelter carrier): $125,000; and 
M1165A1/B3 (up-armored command/troop carrier): $144,000.
    What is the total number of OEF and OIF deaths sustained in each 
different type of vehicle currently in theatre?
    The Department tracks these statistics and can provide you the 
specifics in a classified forum. MRAP vehicles have demonstrated 
increased survivability and force protection against attacks as 
demonstrated in a decreased casualty rate when compared to other 
vehicles operating in Theater.
    Is this information kept by DOD and, if so, is it considered in the 
procurement process?
    The Department makes this information available to all programs to 
assist in the development and procurement process. This information is 
utilized in the development of the System Threat Assessment Report for 
each program with updates provides as required for consideration in the 
development of their acquisition strategies.
    Is safety of the troops the paramount consideration of fielding up-
armored and MRAP vehicles?
    Yes.
    What are the other competing considerations?
    As the Department continues to armor existing vehicles and buy 
heavily armored vehicles, such as MRAP, there is a trade off between 
survivability, payload and performance. By increasing protection 
through armoring, we risk losing some payload and/or performance, thus 
decreasing mobility and maneuverability.
    How are they weighted in the decision-making process?
    Sacrificing performance and payload for protection is a necessary 
concession in places like Iraq where the MRAP has proven to save lives. 
Much of Iraq's existing road infrastructure supports heavy vehicles 
like the MRAP; unfortunately, they do not perform as well in off-road 
situations. Further, their weight and size make them unsuitable for 
alleyways and many unimproved surface roads and bridges. To mitigate 
these tactical considerations, the military maintains an inventory of 
up-armored HMMWVs (UAH); however the additional armor on UAH increases 
their weight, degrades their service life, and increases maintenance 
requirements.
    What vehicles has the Department prioritized for future procurement 
and why?
    The Services are actively engaged in implementing a tactical and 
combat vehicle modernization and recapitalization strategy with the 
intent to recapitalize, modernize and eventually replace its existing 
light, medium and heavy tactical wheeled vehicles with either a new 
next generation vehicle class or more capable recapitalized tactical 
wheeled vehicles that have integrated new technologies and incorporated 
lessons learned from operations involving the Global War on Terrorism. 
Programs such as the Joint Lightweight Tactical Vehicle, Marine 
Personnel Carrier, Stryker, Future Combat System, and MRAP vehicles are 
part of this global view.
    Question. What are the advantages to having so many different types 
of MRAPs in theatre? Would it not be beneficial to have more uniformity 
among the vehicles to streamline training, repair work, etc.?
    Answer: The Department initiated the Mine Resistant Ambush 
Protected (MRAP) vehicle program in January 2007 and formed the MRAP 
Task Force, shortly thereafter, with one primary objective: Field as 
many MRAPs as quickly as possible. This strategy was met by 
establishing procurement delivery orders with all vendors who met 
specific requirements. This led, ultimately, to fielding vehicles from 
five manufacturers, and allowed us to produce and deliver over 1,600 
vehicles to Theater by the end of 2007. The fact that we have multiple 
variants can add complexity to sustainment, but achievement of the 
overall goal--field as many vehicles as fast as possible--saved lives.
    The Services recognize that different types of MRAPs are applicable 
to different missions and threats, and as such provide greater 
flexibility and tactical advantages depending on the situation. There 
are three distinct categories of the ``Family of MRAP vehicles,'' and 
they support the following mission profiles:
  --Category I: Urban combat operations (transport no less than six 
        personnel).
  --Category II: Multi-mission operations such as convoy lead, troop 
        transport, ambulance, explosive ordnance disposal, maneuver 
        battalions, and combat engineering (transport up to ten 
        personnel).
  --Category III: Mine/IED clearance operations and explosive ordnance 
        disposal (transport no less than six personnel, five with 
        additional equipment installed).
    It is always good to maximize commonality and uniformity between 
military systems when possible. However, the Defense Department's 
responsibility is to the Warfighter's requirements. The principle and 
driving thrust for the MRAP program was to get the best systems meeting 
the survivability requirements and deliver MRAP vehicles to the 
Warfighter as quickly as possible, hence the acquisition of multiple 
variants from multiple vendors.
    To counter the logistic requirements induced with this type of 
rapid procurement, the Defense Department has initiated evaluations of 
each vendor's components, and then cross referencing those major sub-
systems which are common across the fleet. For example, Cummins engines 
are used in two models of the MRAP vehicle and the Heavy Expanded 
Mobility Tactical Truck (HEMTT) used by the U.S. Army. It is also very 
popular in the commercial/consumer market for uses in motor homes, farm 
equipment and cross country line haulers.
    Furthermore, the military is discovering that some of the sub-
components used in the MRAPs are common with other military systems 
already in the inventory.
    Another measure the Defense Department is developing is a 
sustainment strategy that will employ a ``Hybrid'' solution using a 
Joint Logistics Integrator (JLI), manufacturer Field Service 
Representatives (FSRs), and government civilian mechanics working in 
concert with an organic military supply chain. The Joint Program Office 
(JPO) developed and contracted for an innovative consortium among the 
five major Original Equipment Manufacturers (OEMs). The consortium 
provides cross-trained FSRs from each company who can service any MRAP 
vehicle. These FSRs are trained on all vehicle variants regardless of 
manufacturer. This will support a flexible and responsive theater 
capability for commanders across theater. The hybrid support solution 
also employs depot mechanics deployed into theater to supplement 
organic and field-level maintenance teams. These depot mechanics are 
also cross trained on each vehicle variant, thereby providing a unique 
and flexible maintenance capability for all vehicle variants. The JPO 
MRAP vehicle consortium guarantees that unit level commanders from all 
Services have a single interface for sustainment and maintenance issues 
with his or her MRAP fleet. This strategy will dramatically reduce the 
in-theater logistics support footprint and increase its effectiveness. 
The JLI will assist the JPO in synchronizing multiple OEM issues into 
one clear operations report and view.
    Question. Last week, Pentagon Press Secretary Geoff Morrell made 
statements that the casualty rate is much higher in an up-armored 
humvee than in an MRAP. If true, why does the military continue to use 
up-armored humvees? Are there any humvee-class MRAP vehicles currently 
being tested for use in theatre by DOD in order to improve the safety 
of our troops? Are there plans to field them in the future? If so, what 
is the status of procurement?
    Answer. Our military forces utilize up-armored High Mobility 
Multipurpose Wheeled Vehicles (HMMWVs) and Mine Resistant Ambush 
Protected (MRAP) vehicles for separate missions. Up-armored HMMWVs 
allow for greater maneuverability in areas where MRAP vehicles have 
limited transportability, payload and off-road capabilities.
    DOD has no HMMWV-class MRAP vehicles currently being tested for use 
in theatre. All HMMWVs, in theater, that operate outside the wire are 
outfitted with up-armored kits. However, the Joint Lightweight Tactical 
Vehicle (JLTV) is a joint program that is viewed as the bridge vehicle 
between a M1152 up-armored HMMWV and the MRAP. JLTV is expected to 
provide the Army and Marine Corps with a family of more survivable 
vehicles and greater payload than the current HMWWV.
    Question. Section 8119 of Public Law 110-116 provides in relevant 
part that:
    ``(a) Notwithstanding any other provision of law, the Department of 
Defense shall complete work on the destruction of the United States 
stockpile of lethal chemical agents and munitions, including those 
stored at Blue Grass Army Depot, Kentucky, and Pueblo Chemical Depot, 
Colorado, by the deadline established by the Chemical Weapons 
Convention, and in no circumstances later than December 31, 2017.
    ``(b) Report.--
            ``(1) Not later than December 31, 2007, and every 180 days 
        thereafter, the Secretary of Defense shall submit to the 
        parties described in paragraph (2) a report on the progress of 
        the Department of Defense toward compliance with this section.
          * * * * * * *
            ``(3) Each report submitted under paragraph (1) shall 
        include the updated and projected annual funding levels 
        necessary to achieve full compliance with this section. The 
        projected funding levels for each report shall include a 
        detailed accounting of the complete life-cycle costs for each 
        of the chemical disposal projects. . . .''
    The report due on June 30, 2008 will be the first opportunity the 
Department of Defense has had to lay out how it plans to comply with 
the 2017 deadline mandated by this statute. Included in these plans 
will be funding levels that the Department believes it needs to comply 
with the law. If in fact the Department decides it needs funding above 
the fiscal year 2009 request to comply with the law, will this need for 
additional funding be conveyed to Congress through a formal budget 
amendment? If not, by what means will the Department formally request 
such additional funds?
    Answer. As required by Section 8119 of the fiscal year 2008 DOD 
Appropriations Act, the Department is currently reviewing various 
options (to include cost estimates) and the feasibility for completing 
the destruction of the chemical weapons stockpile by 2012 and 2017. The 
assessment of these options will be reflected in the semi-annual report 
to Congress in late June 2008, and will be considered during the 
development of the fiscal year 2010 President's budget request.
    Question. How could the repairing and reconditioning of equipment 
for members of the Guard and Reserve be improved?
    Answer. Repair and reconditioning activities involve the necessary 
depot and intermediate level maintenance required to restore equipment 
returning from Iraq and Afghanistan to pre-deployment conditions. The 
key imperative is to provide sufficient funding in time to ensure 
depots can do their work without delay or interruption. Forward 
deployment of Guard and Reserve equipment requires quick turnaround of 
these assets for training. Timely reconstitution funding allows the 
Military Departments to provide Guard and Reserve members with 
replacement capability quickly and to ensure the workload at the depots 
is performed in the most expeditious, cost-effective manner.
                                 ______
                                 
            Questions Submitted to Admiral Michael G. Mullen
            Questions Submitted by Senator Richard J. Durbin

                                SUICIDE

    Question. Over the past year, Congress has provided hundreds of 
millions in funding to the military to improve mental health care for 
our troops. Over the past 6 years, the suicide rate for active-duty 
soldiers has grown from 9.8 per 100,000 in 2001 to 17.5 per 100,000 in 
2006.
    What specific actions is the DOD taking to reduce suicide?
    Answer. While standardized civilian suicide rates (most recent 
2005) remain significantly higher (47 percent) than equivalent age/
gender-matched military suicide rates (2007), the Department is very 
closely monitoring suicide statistics and trends. We are committed to 
creating and improving programs to identify those at risk and provide 
preventive education and appropriate treatment.
    Existing programs include:
  --annual suicide prevention training of Service members and DOD 
        civilian employees;
  --leadership training in suicide prevention;
  --military leadership training to manage Service and family members 
        in distress;
  --frontline supervisor training;
  --dissemination of suicide prevention training materials, videos, and 
        posters;
  --monitoring and analyzing lessons learned from suicides;
  --risk assessment advanced training for providers;
  --executing nationally-recognized best practice suicide prevention 
        initiatives;
  --multiple initiatives to reduce stigma from seeking mental health 
        support;
  --chaplains' initiatives in suicide prevention and absolute 
        confidentiality;
  --suicide prevention week actives;
  --Signs of Suicide programs in DOD school systems for children/
        adolescents;
  --train the trainer workshops in various suicide prevention 
        modalities as Ask your buddy, Care for your buddy, Escort your 
        buddy, Applied Suicide Intervention Skills training, safeTALK;
  --chain teaching programs for suicide prevention;
  --case discussions of suicide prevention;
  --improved access to care with more mental health providers and 7-day 
        routine access standard;
  --postvention support programs for unit members/families of those who 
        commit suicide;
  --confidential behavioral health surveys to monitor risk factors and 
        substance abuse;
  --relationship building programs such as the Strong Bonds Program;
  --civilian services staff training (morale, welfare and recreation, 
        gym, hobby/auto shops, etc.) as the ``Are You Listening?'' 
        program;
  --substance abuse education and training;
  --military family life consultant program;
  --family support programs;
  --family advocacy programs;
  --sexual abuse recovery and support programs;
  --community health promotion councils;
  --integration delivery systems for psychological and other support;
  --community action information boards;
  --family readiness units;
  --financial management training programs;
  --responsible drinking educational programs;
  --deployment support programs--Battlemind, Landing Gear, Operational 
        Stress Control;
  --web-based distance learning programs for suicide prevention;
  --suicide prevention pocket cards and brochures;
  --community awareness marketing for support services;
  --drug demand reduction and prevention services/education programs;
  --personal readiness summits;
  --standardized suicide data reporting and DOD comprehensive database 
        to monitor suicide;
  --annual DOD/Department of Veterans Affairs suicide prevention 
        conferences with leading academics and government agencies;
  --academic collaborations developing suicide nomenclature;
  --DOD-produced public announcements/videos re: suicide prevention; 
        and
  --active DOD Suicide Prevention and Risk Reduction Committee 
        coordinating dissemination and coordination of programs.

                                TBI/PTSD

    Question. According to a recent RAND study, one in five Iraq and 
Afghanistan veterans suffer from PTSD. Nineteen percent report a 
possible traumatic brain injury during their deployment. Only half have 
sought treatment because of the stigma attached with seeking treatment 
and because of concerns about the quality of care. According to RAND, 
half of those who request treatment receive only ``minimally adequate'' 
support.
    What steps is DOD taking to encourage servicemen and servicewomen 
to pursue help and to address the reasons why treatment is not sought?
    Answer. It should first be noted that Service Members seek care for 
psychological health issues at the same rate as their civilian 
counterparts; in the RAND study, roughly half of civilians and military 
members who met the criteria for PTSD or major depression had sought 
help. Stigma is the overarching similarity that keeps both civilians 
and Service members from seeking care. However, acknowledgement of this 
similarity is not stopping us from identifying other causes which 
prevent members from seeking care and working to mitigate these 
factors. In addition to stigma, structural aspects of services (wait 
times, availability of providers) and institutional policies which 
result in real or perceived adverse career consequences for individuals 
who seek treatment are being addressed.

Stigma
    Stigma regarding psychological health services is a significant 
personal and cultural issue which must be addressed by a systematic 
approach in order to encourage Service members to seek care. The 
Defense Centers of Excellence (DCoE) for Psychological Health and 
Traumatic Brain Injury were established to assist in this endeavor by 
providing leadership, facilitating culture change and advocating a 
consistent, evidence-based approach across the Services, tailored to 
DOD/Service member needs. As of August 27, 2008, 52 DCoE staff are on 
board, and staffing numbers are projected to reach 155 by October 31, 
2008. Eight directorates are now at initial operating capability: (1) 
Resilience and Prevention, (2) Training and Education, (3) 
Clearinghouse, Outreach and Advocacy, (4) Psychological Health Clinical 
Standards of Care, (5) TBI Clinical Standards of Care, (6) Research, QA 
Program Evaluation & Surveillance, (7) Telehealth and Technology, and 
(8) Strategy, Plans and Programming. Completion of DCoE CONOPS and 
internal assessment metrics is projected for September 1, 2008. 
Meantime, Psychological Heath and TBI Standardization Workgroup 
meetings are underway with VA, National Institutes of Health, and 
selected academic institution participation to discuss standardization 
of definitions, metrics, outcomes, and instrumentation for 
Psychological Health and TBI surveillance and research. DCoE is 
partnering with the Substance Abuse and Mental Health Services Agency, 
coalition partners and others in the public and private sectors to 
share the stories of line leaders, celebrities and other individuals 
who have volunteered their own stories of overcoming psychological 
health problems. DCoE has established a public website, a wide-reaching 
newsletter and is planning a 24/7 call center for Service members, 
family members and clinicians--all in an effort to educate, facilitate 
treatment and decrease stigma. Service training programs have been 
developed for providers, line leaders, families and community leaders, 
and DCoE is actively at work standardizing these curricula while 
ensuring Service-specific needs are addressed. The Commandant of the 
Marine Corps recently released a videotaped message emphasizing that 
seeking help when needed is courageous, expected and, indeed, a 
fundamental duty of every Marine. Leadership is taking this issue very 
seriously.
    Despite the intense efforts to combat stigma, it remains 
exceedingly difficult to directly quantify, and even more difficult to 
demonstrate a direct causal relationship between efforts and outcomes. 
The Army's Mental Health Advisory Team (MHAT) V Study surveyed 
individuals with five separate questions to assess their perception of 
stigma: when compared with 2006, all five questions demonstrated a 
significant reduction in the perception of stigma. There are many other 
positive, indirect indicators available. For example, despite the 
decreasing numbers of traumatic combat casualties, current Military 
Health System metrics report a 100 percent increase in psychological 
health referrals in the past year. Psychological health referrals from 
Post Deployment Health Assessments rose from 3 to 5 percent. Post 
Deployment Health Reassessment referrals for psychological health 
issues increased from 6 to 8 percent in the first quarter fiscal year 
2008. While it is too early to determine if the increase is the result 
of a reduction in stigma or an increase in psychological distress or 
both, in the context of decreasing combat casualties it appears likely 
that efforts at decreasing stigma are beginning to have a positive 
effect. Standardization and centralization of DOD data collection and 
analysis should begin to yield more definitive Joint data by year's 
end.

Wait Times and Provider Availability
    Wait times are the metric by which DOD measures its success at 
providing care within a predetermined acceptable amount of time. This 
is affected by numbers of episodes of psychological health care sought, 
as well as numbers and availability of health care providers. The 
TRICARE wait time standard for routine psychological health care was 
previously established at 30 days. In order to expedite care delivery, 
DOD has taken three specific actions: (1) the wait time standard was 
decreased from 30 days to 7 days for an initial mental health 
appointment, (2) aggressive measures are underway to increase numbers 
of uniformed and civilian DOD mental health providers and (3) mental 
health functions have been moved into primary care settings to increase 
availability.
    A population based, risk-adjusted staffing model was developed to 
more clearly inform us of the required number of mental health 
providers in given locations. DOD contracted with the Center for Naval 
Analysis to validate the model and expects results later this year. 
Using that validated model, DOD will adjust the requirements and 
disposition of psychological health providers in the next fiscal year. 
In the meantime, we are actively addressing the documented shortage of 
mental health providers.
    Mental Health providers are in short supply across the country--
complicated by hard-to-serve areas, such as remote rural locations. To 
increase providers in these areas, a partnership was initiated with the 
Public Health Service, which will provide 200 uniformed mental health 
providers to the Military Health System. Twenty-five mental health care 
providers are already working in DOD; 35 additional mental health 
professionals have been recruited and are currently in the training 
pipeline destined for DOD MTFs in need; the remaining 145 are yet to be 
recruited, but are anticipated to be on board at full operational 
capability in DOD MTFs by the end of fiscal year 2009. Civilian and 
contract providers are also being employed to increase psychological 
health staff; military treatment facility commanders have hiring 
authority to increase their staffs to meet unique demands. In the past 
few months, the TRICARE managed care support contractors have added 
more than 2,800 new network psychological health providers and reached 
out to thousands of non-network providers to identify clinicians who 
would be available to take on new patients if a network provider could 
not be identified with the established wait times.
    Other initiatives to increase provider availability include 
embedding mental health providers in line units, training primary care 
providers to offer evidence-based mental health care directly to their 
beneficiaries, and building a telehealth network to provide mental 
health services to underserved populations. Special pays for active 
duty psychiatrists have been significantly increased, and some 
psychologists also are now eligible for special pays with the goal of 
increasing retention of experienced active duty mental health 
providers.

Building Resilience
    Lengthy, ongoing, and multiple deployments in our contemporary 
operating environment are stressful, demanding, and challenging on 
every level. More frequent and longer deployments increase the risk of 
stress injury. To foster prevention, encourage Service Members to 
pursue help and to address potential reasons why treatment is not 
sought, the DCoE endorses the Resilience Continuum Model which 
represents a cultural shift from treatment of illness to promotion of 
psychological health. The model promotes psychological health 
activities as a readiness issue and combat multiplier (seeking care 
when needed is considered a psychological health activity). The model 
will also be used to teach and train commanders and leaders at all 
levels to encourage their peers and subordinates to seek care when 
needed. There are several reasons why Warriors may not seek care. One 
reason (which is perhaps an under-recognized reason) is the lack of 
self awareness. It is common for Warriors to be unaware that they are 
in need of help. The Resilience Continuum Model can teach/train 
Warriors to recognize symptoms of distress and to apply proven tools 
that build resilience to mitigate risk, maximize performance, and 
prevent dysfunction. The Resilience Continuum Model will roll out on 
November 18, 2008 as part of the DOD Resilience Conference.

Institutional Policies
    In some cases, DOD and Service policies are at odds with measures 
underway to reduce stigma associated with psychological health care. 
Evaluation of those policies/procedures that result in real or 
perceived adverse career consequences for individuals with 
psychological health problems are being reviewed and changed when 
possible and appropriate.
    The recent change to Question 21 of the SF-86, or national security 
background questionnaire is a good example. Within the military, there 
are numerous vocational specialties that require attention to medical 
readiness or suitability for duty. Certain conditions may disqualify 
individuals from performing their duties within that vocation, either 
on a short-term or permanent basis. In the interest of safety and risk 
management, for example, removing an individual from their duties as an 
air traffic controller (during flight operations) aboard a nuclear 
powered aircraft carrier due to a condition that is associated with 
impairments in attention and concentration is necessary. Question 21 of 
the SF-86 asks whether one has received mental health care. Thus, when 
considering sensitive duties which require a security clearance, there 
has long been a palpable fear among Service members that their military 
and/or professional careers could be jeopardized if they were to 
receive a psychiatric diagnosis/treatment which would than have to be 
reported on a national security background questionnaire. The reality 
is that most who have had a documented mental health condition and/or 
who may have received care for such condition do not often lose their 
security clearance, although they may have their clearance held pending 
an additional psychiatric evaluation. Still, the perception of threat 
or feeling of vulnerability remains. In a recent shift to support 
Service members' efforts to seek psychological health care, we have 
seen a change in Question 21, which now permits applicants to answer 
``no'' if the psychological healthcare was strictly related to 
adjustments from service in a military combat environment. While this 
change does not address all of the concerns that service members have 
about the potential impact on their careers for seeking out 
psychological health care, it is a large step in the right direction.
    Question. Why are military members receiving subpar support? What 
is your response to the finding that half of the treatment received is 
only ``minimally adequate?''
    Answer. The Department of Defense is appreciative of the RAND 
Report, ``Invisible Wounds of War,'' as it supports the lessons we have 
learned since 9/11 and the actions we have been taking in response to 
the congressionally directed Task Force on Mental Health. DOD is well 
down the road in addressing the Task Force's vision of change by 
focusing our efforts on six key objectives: (1) leadership, culture and 
advocacy, (2) access to care, (3) quality of care, (4) resilience 
building and stigma reduction, (5) surveillance, research and 
evaluation and (6) care transition and coordination.
    The RAND study assertions of ``subpar'' support and ``minimally 
adequate'' care are inextricably linked to the RAND definition of 
quality care. In order to be considered ``high quality of care'' in the 
RAND approach, treatment regimens must be evidence-based, efficient, 
equitable and timely. According to RAND's criteria, in order to meet 
the threshold for ``minimally adequate'' psychotherapy, at least eight 
sessions must be provided. It should be noted that in 2007 a committee 
from the Institute of Medicine reviewed scientific studies of PTSD 
treatment and was unable to draw conclusions regarding optimal length 
of treatment with psychopharmacology or psychotherapy. Clearly this is 
an area that deserves further research.
    In the normal medical model, treatment regimens for common 
conditions have been sufficiently researched and scientific data (i.e. 
evidence) is available to substantiate not only what works, but what 
doesn't. This is not necessarily so with PTSD. The Institute of 
Medicine's 2007 report clearly states that of the many psychotherapy 
and medication treatment modalities currently utilized/available, only 
one has been scientifically studied enough to prove its effectiveness 
(exposure therapies). As the Institute of Medicine study notes, this 
does not mean other treatments (psychotherapies and medications) are 
not beneficial, but that they simply haven't been studied enough to 
provide scientific proof yet.
    In today's scenario where only one empirically-validated modality 
currently exists and limited numbers of providers are available to 
provide those visits, and as the RAND authors note, when those 
evidence-based treatments for PTSD are not yet available in all 
treatment settings, gaps in systematic implementation are not 
surprising. The DOD situation is even further complicated by the 
limited numbers of mental health providers available to provide eight 
or more visits to meet the RAND definition of ``minimally adequate'' 
care. That said, gaps in care to our warriors and their families are 
unacceptable, and DOD is actively working to address and close these 
gaps.
    DOD accepts the responsibility to provide the highest possible 
level of care and support to our military wounded, ill and injured and 
to close the systematic implementation gaps as soon as possible. The 
Defense Centers of Excellence (DCoE) for Psychological Health and 
Traumatic Brain Injury were established to assist in this endeavor by 
providing leadership, facilitating culture change and advocating a 
consistent, evidence-based approach across the Services, tailored to 
DOD/Service member needs. As of August 27, 2008, 52 DCoE staff are on 
board, and eight directorates are now at initial operating capability: 
(1) Resilience and Prevention, (2) Training and Education, (3) 
Clearinghouse, Outreach and Advocacy, (4) Psychological Health Clinical 
Standards of Care, (5) TBI Clinical Standards of Care, (6) Research, QA 
Program Evaluation & Surveillance, (7) Telehealth and Technology, and 
(8) Strategy, Plans and Programming.
    $270 million is targeted for Psychological Health initiatives 
across the DOD this year alone, $20 million specifically for quality of 
care improvement efforts. DCoE is leveraging existing expertise by 
integrating functions currently or shortly to be housed within six 
component Centers of Excellence: The Defense Veteran's Brain Injury 
Center (TBI evaluation, treatment, follow-up), Center for Deployment 
Psychology (deployment-related behavioral health training for mental 
health professionals), Deployment Health Clinical Center (medical 
advocacy/assistance for military personnel and families with 
deployment-related health concerns), Center for Study of Traumatic 
Stress (PH research, education, consultation and training), Telehealth 
and Technology Center (leveraging telehealth and other technologies to 
screen, educate, prevent, assess, and treat PH and TBI problems), and 
the National Intrepid Center of Excellence (PH/TBI clinical evaluation, 
diagnosis, treatment plans, family-centered education, telehealth and 
long-term follow-up.) Psychological Health Standardization Workgroup 
meetings are underway with VA, National Institutes of Health, and 
selected academic institution participation to discuss standardization 
of definitions, metrics, outcomes, and instrumentation for 
Psychological Health surveillance and research.
    Clinical research to investigate evidence-based treatment for 
deployment-related psychological health problems, including PTSD, is a 
major stepping stone on the road to the high quality of care our 
Service members need and deserve. These research efforts include 
evaluations of complimentary and alternative treatment approaches. 
DOD's unprecedented $150 million investment in Psychological Health 
studies this year is a direct reflection of our commitment to our men 
and women in uniform. Within 18 months, initial results from these 
studies will begin to objectively guide us as we continue development 
and implementation of these critical, evidence-based programs.
    The recently implemented MHS Dashboard, which is reviewed by 
Service and DOD leaders on a regular basis, brings critical information 
about psychological health and TBI performance to the most senior 
leaders who can then act on this information.
    To ensure the provision of quality, evidence-based care, each 
Service is also implementing Service-specific programs. The Air Force's 
mental health providers are receiving additional training from civilian 
and military experts on current evidence-based treatment techniques for 
PTSD. By the time this training is complete, 300-400 providers will 
receive prolonged exposure and cognitive processing training. Air Force 
Combat and Operational Stress Control programs provide full spectrum 
care to strengthen the war fighter during deployment. Deployed mental 
health providers continue to perform prevention/outreach services, 
outpatient behavioral health services, and combat stress support 
services, 24 hours per day, as needed. In addition a Traumatic Stress 
Integrated Process Team was chartered to address screening, prevention 
and treatment of traumatic stress in deployers and identify profiles of 
risk/vulnerability.
    The Army has implemented Combat and Operational Stress Control 
programs and the Battlemind initiative continues to be implemented as a 
primary tool to enhance recovery and resiliency, with an investment of 
$3.2 million for training, video and personnel.
    Navy medicine (which also provides care to Marines) has provided 
training to psychology and psychiatry trainees and providers on 
appropriate treatments for PTSD, depression and the range of 
psychological health problems associated with combat stress, all 
consistent with VA/DOD Clinical Practice Guidelines. Standardized PTSD 
training was developed and provided for Navy and Marine Corps 
chaplains, primary care physicians, corpsmen and Fleet and Family 
Support Center counselors. The Center for Deployment Psychology, one of 
the component centers of the DCoE has provided training for Navy mental 
health providers and non-mental health providers in deployment-related 
psychological health issues, as well as treatment modalities identified 
in the VA/DOD Clinical Practice Guidelines for the treatment of PTSD, 
with primary emphasis on evidence-based exposure therapy. In addition 
the Marine Corps hosts an annual COSC Conference which is well attended 
by both providers and line leaders, facilitating the sharing of ideas 
and concerns, as well as fostering the all-important collaboration 
between medical and line personnel.
    Despite the intense efforts to expand care to areas in need, train 
healthcare providers in evidence-based modalities, and standardize 
infrastructure/service efforts, it remains difficult to directly 
quantify clinical outcomes, and even more difficult to demonstrate a 
direct causal relationship between efforts and outcomes. Military 
Health System-wide metrics indicate an overall increase in numbers of 
in-theater mental health encounters. It remains unclear whether these 
findings are a result of increased mental health distress, increased 
numbers of medical personnel or increased awareness on the part of 
healthcare personnel, but in light of other decreased measurements of 
stress/emotional impairment of work performance, it would suggest that 
increased awareness on the part of leaders and medical personnel is 
having a positive effect. Standardization and centralization of DOD 
data collection and analysis should begin to yield initial joint data 
by year's end. This will allow us to improve our ability to perform an 
ongoing, objective evaluation of actions taken to date. This 
information will then be used to inform future actions and initiatives.
    Question. The truth is that mental health treatment remains a 
stigma in our armed forces. Junior enlisted and officers play an 
important role in furthering a frank discussion about the benefits of 
mental health treatment.
    What efforts have been made to have junior leaders, both enlisted 
and officer, trained to identify the symptoms of PTSD?
    Answer. All members of all Services receive training on recognizing 
the signs and symptoms of psychological stress symptoms and the 
benefits of mental health treatment when appropriate. This training 
occurs prior to and then is repeated following return from deployment. 
Some components of the training are specifically designed to address 
leaders within the enlisted and officer ranks. Last year the Army 
conducted an additional force-wide program of training for all Army 
personnel to identify the symptoms of Post Traumatic Stress Disorder as 
well as those of traumatic brain injury in themselves and in their 
fellow members. Additionally, this training emphasized the importance 
of receiving an evaluation and potential treatment if such symptoms are 
present.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. Last year, the Administration requested $88.3 million for 
the Reliable Replacement Warhead (RRW) program in the fiscal year 2008 
National Nuclear Security Administration budget and $30 million in the 
Department of Defense budget. Congress, on a clear bipartisan basis, 
eliminated all funding for this program in the NNSA budget in the 
fiscal year 2008 Omnibus Appropriations bill. It did provide $15 
million for the Navy to study how to place a Reliable Replacement 
Warhead on a Trident missile.
    Since Congress eliminated funding for the Reliable Replacement 
Warhead program in the NNSA budget, is the Navy still moving forward 
with its study? If so, why? If not, how are the funds being spent?
    Answer. The Navy is not funding for the Reliable Replacement 
Warhead program. The Navy has briefed all four defense subcommittees 
and plans to use between $9.7 million and $10 million of the fiscal 
year 2008 funds to support an integrated, adaptable Arming, Fuzing and 
Firing (AF&F) system for strategic warheads.
    The AF&F effort includes the development of requirements for Navy, 
Air Force and coalition partners (U.K.), and the investigation of the 
AF&F concepts, architectures and technologies needed to support those 
requirements, to include an analysis of adaptability.
    This work is critical to the next AF&F system and should be 
applicable to Navy, Air Force or U.K. warheads.
    The remaining $4.5 to $4.8 million will be utilized by the 
Department of Defense for either the Congressional Commission on the 
Strategic Posture of the United States or will be used for further AF&F 
integration efforts.
    Question. The Administration requested $23 million for the Navy for 
RRW for fiscal year 2009. According to the Congressional Research 
Service, the Navy has said that these funds were requested before 
Congress eliminated all funding for RRW in the National Security 
Administration's budget for fiscal year 2008 and that these funds will 
not be spent on RRW. Is that true? If so, how will the funds be spent?
    Answer. Although this effort is identified under RRW, the Navy has 
briefed all four defense subcommittees and plans to use the funding to 
conduct adaptable and integrated Arming, Fuzing and Firing (AF&F) 
development with multi-platform applicability. Funding is required to 
support a working group of U.S. Navy, U.S. Air Force and United Kingdom 
engineers to coordinate requirements across services and countries, 
identify technology development and component demonstration for those 
technologies. The work is also needed to ensure the appropriate 
technologies are mature for the current programs of record for Navy W88 
warhead and Air Force W78 warhead life extension programs.
    Question. The fiscal year 2008 Defense Authorization bill mandated 
the creation of a Congressionally appointed bipartisan commission to 
examine the U.S. strategic posture and nuclear weapons policy. It is 
due to report its findings and recommendations to Congress and the 
President by December 1, 2008. The Defense Authorization bill also 
required the next President to conduct a nuclear posture review and 
issue a report by December 1, 2009. In my view, Congress should not 
provide any funds to RRW until we have had a chance to review the 
findings of these two reports.
    Are you aware of any problem affecting the safety and reliability 
of the warheads in the current U.S. nuclear stockpile that would compel 
us to act now to fund RRW? Is there any new military requirement to 
replace the existing, well tested warheads?
    Answer. At present, the combined impact of the Stockpile 
Stewardship Program and operational adjustments made by our military 
commanders have enabled us to conclude that the current stockpile is 
safe and, with manageable exceptions, reliable. The aging stockpile, 
however, does raise concerns.
    To date, we have been able to resolve stockpile problems without 
underground nuclear testing, but this has not been without some effect 
on the military capabilities of several warheads in the stockpile. The 
current path for maintaining the stockpile by successive refurbishments 
of existing Cold War warheads raises risks in assuring long-term 
reliability. Changes due to aging components and materials result in a 
progression that takes us further away from the well-understood 
configurations that were certified with underground nuclear tests. The 
inevitable result is increasing uncertainty in performance and an 
eroding of our confidence in the safety and reliability of the 
stockpile over the long term.
    The proposed RRW Phase 2A Design Definition and Cost Study would 
provide baseline information on project schedule, cost estimates, and 
impact on certification and the nuclear weapons infrastructure. 
Completion of this phase would provide much needed data for the 
upcoming 2009 Nuclear Posture Review and would directly inform the next 
administration's decisions on a comprehensive national nuclear 
strategy.
    In the near term, we have no choice but to continue to extend the 
life of our aging legacy warheads and accept their decreasing 
performance margins. The RRW, however, offers attractive safety and 
security enhancements that significantly improve protection against 
threats. RRW would also increase long term confidence in the 
reliability of our weapons and allow for production processes that are 
less complex and that enable a responsive nuclear weapons 
infrastructure.

                   MILITARY ENERGY/FUEL ALTERNATIVES

    Question. Former Secretary of Defense William Perry has stated: 
``On balance, I believe that we could defer action for many years on 
the RRW program. And I have no doubt that this would put us in a 
stronger position to lead the international community in the continuing 
battle against nuclear proliferation, which threatens us all.''
    Do you agree and, if not, why not?
    Answer. At present, the combined impact of the Stockpile 
Stewardship Program and operational adjustments made by our military 
commanders have enabled us to conclude that the current stockpile is 
safe and, with manageable exceptions, reliable. The aging stockpile, 
however, does raise concerns.
    To date, we have been able to resolve stockpile problems without 
underground nuclear testing, but this has not been without some effect 
on the military capabilities of several warheads in the stockpile. The 
current path for maintaining the stockpile by successive refurbishments 
of existing Cold War warheads raises risks in assuring long-term 
reliability. Changes due to aging components and materials result in a 
progression that takes us further away from the well-understood 
configurations that were certified with underground nuclear tests. The 
inevitable result is increasing uncertainty in performance and an 
eroding of our confidence in the safety and reliability of the 
stockpile over the long term.
    The proposed RRW Phase 2A Design Definition and Cost Study would 
provide baseline information on project schedule, cost estimates, and 
impact on certification and the nuclear weapons infrastructure. 
Completion of this phase would provide much needed data for the 
upcoming 2009 Nuclear Posture Review and would directly inform the next 
administration's decisions on a comprehensive national nuclear 
strategy.
    In the near term, we have no choice but to continue to extend the 
life of our aging legacy warheads and accept their decreasing 
performance margins. The RRW, however, offers attractive safety and 
security enhancements that significantly improve protection against 
threats. RRW would also increase long term confidence in the 
reliability of our weapons and allow for production processes that are 
less complex and that enable a responsive nuclear weapons 
infrastructure.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

    Question. As forces level in Iraq come down to pre-surge levels, 
please describe how that will impact the readiness of our non-deployed 
forces.
    Answer. The reduction of forces in Iraq to pre-surge levels, by 
itself, will have minimal impact on the readiness of non-deployed 
forces in the near future. Only when the Army and Marine Corps reach 
their new end-strength goals, the demand signal for BCTs decreases to 
15 or less deployed in support of OIF and OEF and the Army gains steady 
and predictable access to the Reserve Component will their be a 
significant and positive impact on the readiness of non-deployed forces 
in the long term.
    Question. The supplemental budget request includes a substantial 
increase for the Commander's Emergency Response program. Can you please 
describe for us how this funding is being used and why it is such 
valuable tool for commanders in Iraq and Afghanistan?
    Answer. The purpose of the Commanders' Emergency Response Program 
(CERP) is to enable local commanders in Afghanistan and Iraq to respond 
to urgent humanitarian relief and reconstruction requirements within 
their areas of responsibility by carrying out programs that will 
immediately assist the indigenous population. Examples of project 
categories are water and sanitation, food production and distribution, 
agriculture, electricity, healthcare, transportation, civic clean up 
and economic initiatives.
    Commanders are using CERP to win the counter insurgency fight in 
Afghanistan and Iraq. It is a flexible and proven combat multiplier. 
With almost 90 percent of the projects averaging less than $200,000, 
CERP produces immediate results for the Commander in his battle space 
and enables ``continuous effects'' and retention of security gains 
after Coalition Forces depart the operational area. As we continue to 
conduct both kinetic and non-kinetic operations, Commanders must have 
adaptable resources to meet urgent humanitarian needs, rebuild critical 
infrastructure and initiate economic development. CERP provides the 
most flexible and adaptable funding available to meet the needs of the 
local Commanders.
    Question. Some members of Congress have expressed concerns that 
CERP funding is not sufficiently coordinated with other funding sources 
and may lack sufficient oversight and internal controls. What are you 
doing to ensure these funds are spent wisely and are properly accounted 
for?
    Answer. Local Commanders and Provincial Reconstruction Teams (PRT) 
in both Iraq and Afghanistan coordinate project and funding at the 
provincial level. I am confident the controls and coordination 
processes provide a balanced inter-agency approach that provides 
commanders the flexibility they need and the necessary collaboration 
for this extremely important program.
    OSD has strengthened CERP guidance several times since the 
inception of the program, improving the clarity to ensure oversight of 
this critical program. The commanders in Iraq and Afghanistan 
incorporated this guidance and revisions into their own standard 
operating procedures further outlining funds control and 
accountability. Additionally, Multi-National Corps--Iraq (MNC-I) 
developed and fielded procedures to account for the $270 million 
provided by the Government of Iraq in support of the new Iraqi I-CERP 
program.
    Question. Commanders in Iraq and Afghanistan want more full-motion 
video capability from UAV's and other ISR platforms. From and 
operational perspective, what can be accomplished through sensor 
development and wide area surveillance to meet this demand in the near 
future?
    Answer. The department recognizes the significant increases in 
demand for FMV. To that end, we are investing in additional FMV 
capacity, pursuing increased efficiencies out of fielded capabilities 
to realize more FMV hours, and are investing in development of Wide 
Area Airborne Sensing (WAAS) capabilities.
    [Deleted.]
    The USAF WAAS Program Plan to address Service requirements for 
fielding wide area airborne sensors on existing unmanned aircraft 
systems platforms was briefed to the Joint Requirements Oversight 
Council (JROC) on April 24, 2008 and favorably endorsed in JROCM 106-08 
on May 27, 2008. The USAF is currently developing JCIDS documents for 
WAAS Increment 1 while a WAAS concept of employment (CONEMP) document 
has already been drafted.
    Several additional options for rapid development and fielding of 
wide area airborne surveillance sensors have been submitted to the 
Secretary of Defense ISR Surge Task Force. These wide area surveillance 
proposals, in concert with a multitude of other manned and unmanned 
full-motion video capability proposals, are currently being reviewed 
for executability, cost and value.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The subcommittee will now stand in recess 
until Wednesday, June 4 at 10 a.m. when we will receive 
testimony from public witnesses. Thank you very much.
    [Whereupon, at 12:53 p.m., Tuesday, May 20, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
June 4.]

</pre></body></html>
